<html>
<title> - ACCELERATING U.S. ASSISTANCE TO IRAQ</title>
<body><pre>[Senate Hearing 108-865]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-865

                  ACCELERATING U.S. ASSISTANCE TO IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
24-143                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4

Bowab, Mr. Joseph W., Deputy Assistant Secretary for Foreign 
  Assistance Programs and Budget, Bureau of Resource Management, 
  U.S. Department of State, Washington, DC.......................    17
    Prepared statement...........................................    18

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Schlicher, Mr. Ronald L., Deputy Assistant Secretary for Iraq, 
  Bureau of Near Eastern Affairs, U.S. Department of State, 
  Washington, DC.................................................     9
    Prepared statement...........................................    13

Additional Questions Submitted for the Record
    By Senator Lugar.............................................    46

    By Senator Biden.............................................    59

                                 (iii)

  

 
                  ACCELERATING U.S. ASSISTANCE TO IRAQ

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Biden, Feingold, and Bill 
Nelson.

    OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. The committee meets today to 
discuss the progress in the reconstruction of Iraq.
    We welcome our witnesses, Mr. Ron Schlicher, Deputy 
Assistant Secretary of State in the Bureau of Near Eastern 
Affairs, and Mr. Joseph Bowab, Deputy Assistant Secretary for 
Foreign Assistance Programs and Budget.
    Nearly two months ago, Mr. Schlicher testified before this 
committee on progress in Iraq after the transfer of sovereignty 
to the new Interim Iraqi Government. He told the committee that 
Ambassador Negroponte had initiated a comprehensive 
reevaluation of U.S. assistance. Today, the committee looks 
forward to discussing the results of this review and the plans 
for assisting Iraq in the coming months.
    Of the $18.4 billion that Congress appropriated for Iraq 
more than 10 months ago, only $1.14 billion has been disbursed 
as of September 8. Although we recognize these funds must not 
be spent unwisely, this slow pace of reconstruction spending 
means that we are failing to fully take advantage of one of our 
most potent tools to influence the direction of Iraq. As Iraqis 
prepare for elections, they are looking for signs of stability. 
Few signs of stability are more convincing than successful 
reconstruction projects that boost the economy, repair 
infrastructure, and restore municipal services.
    This week, the administration announced it would be 
shifting more than $3 billion from funds intended for Iraqi 
reconstruction projects to other purposes; mainly, enhancing 
security by accelerating the training of Iraqi security 
personnel. Expanding Iraqi security forces and improving their 
capabilities are vital and urgent objectives, but we must be 
clear that the purpose of establishing security is to pave the 
way to achieve other goals, including physical reconstruction 
and economic regeneration. If the shift of these funds slows 
down reconstruction, security may suffer in the long run.
    In short, security and reconstruction must be achieved 
simultaneously. If a lack of funding threatens to impede 
reconstruction, the administration must replace the 
reprogrammed funds with allied contributions or new requests 
for appropriations. The United States must continue to use 
every tool at our disposal to accelerate stabilization and 
reconstruction in Iraq and to strengthen the nascent Iraqi 
Government.
    I would like to quote from a remarkable letter my office 
received in August from a U.S. Marine second lieutenant serving 
as a platoon leader in Iraq. He writes,

          My guys never fail to step up to any challenge we are 
        given as a platoon. It is pretty awe inspiring to roll 
        up on what you suspect to be an IED--that's an 
        improvised explosive device--on the side of the road--
        common here--and to hear one of your PFCs say, ``No 
        problem, sir,'' when you say to him you need him to 
        take a closer look before the platoon can pass through 
        the area. Then to watch him sling his rifle across his 
        back, and crouch dangerously close to the suspected 
        device with a set of binoculars in his hands to confirm 
        whether it is or is not an explosive makes you feel 
        very proud.
          This war is one that cannot be won by marines and 
        soldiers. The only thing we can do is to keep a lid on 
        it and buy time. We chase the Mujahadin around and in 
        so doing catch and kill a few, or at least deter their 
        actions. However, in a society with no jobs, a 
        faltering economy, and little or no infrastructure, 
        there is plenty of incentive to fight. That incentive 
        needs to be removed. Marines and soldiers don't remove 
        it. Civil Affairs teams and NGOs do. There are not 
        enough of these people in Iraq, and they are not 
        organized in such a way so that they can respond to 
        specific needs. You are less likely to shoot the guy 
        who is trying to build a school for your kids and turn 
        on your water. These individuals need to take greater 
        risks and be out there with us. That same PFC who will 
        run up dangerously close to what could be a command-
        detonated explosive will less willingly and adeptly 
        build a school or turn on the power for a village. It 
        is not in his job description. However, he will do a 
        superior job providing security for the civilians who 
        do perform these tasks.

    I simply add--that's the end of the quote--that this is the 
theme of our hearing today.
    What this young lieutenant recognizes is that economic 
rehabilitation is not secondary to the military mission--it is 
a vital and necessary component of our security strategy. 
Economic progress is dependent on security, but security can be 
improved only so much without corresponding economic gains that 
give the responsible majority of Iraqis a greater stake in 
their own future. Reconstruction progress gives Iraqis a 
tangible reason to hope, to take risks, and to struggle for a 
society that is not dominated by forces of destruction.
    The lieutenant's words also underscore the need to improve 
our overall capacity to stabilize failing or war-torn nations 
and to assist in their reconstruction, sometimes called 
``nation building.'' Earlier this year, the Foreign Relations 
Committee unanimously passed the Stabilization and 
Reconstruction Civilian Management Act of 2004. I appreciate 
the State Department's letter endorsing the purposes of S. 2127 
and ask that the letter be submitted in the record.\1\ The 
Defense Science Board is also expected to support the 
legislation in a forthcoming study.
---------------------------------------------------------------------------
    \1\ The letter referred to follows this statement.
---------------------------------------------------------------------------
    The State Department has now established an Office for 
Reconstruction and Stabilization as called for in the 
legislation. The new office, headed by Carlos Pasqual, is doing 
a government-wide inventory of the civilian assets that might 
be available for stabilization and reconstruction tasks. It is 
also pursuing the idea proposed in S. 2127 of a Readiness 
Reserve to enable rapid mobilization of post-conflict 
stabilization personnel.
    In addition, I hope that the office will develop the 
concept of a 250-person active duty Response Readiness Corps. 
In Army terms, that is less than a small battalion of well-
trained people--a modest but vigorous force-multiplier that 
would greatly improve our nation's stabilization capacity. This 
Corps would be composed of State Department and USAID employees 
who have the experience and technical skills to manage 
stabilization and reconstruction tasks in a hostile 
environment.
    As we move to improve our own civilian operations in Iraq, 
we must continue to press the international community for help. 
The recent National Conference held in Iraq resulted in a real 
choice of delegates. This is a good first step toward holding 
an election next January for a National Assembly that will 
draft a permanent constitution and prepare for full national 
elections by the end of 2005.
    The United Nations provided some expertise to help convene 
the National Conference, but it seems reluctant to provide more 
extensive and enduring assistance. Ambassador Qazi, the new 
United Nations Special Representative in Iraq, has expressed 
his commitment to returning UN workers to Iraq in the near 
future. But recent conversations with UN staff indicate that a 
significant UN presence will not be in place until November. I 
would encourage the Secretary General to move more boldly to 
reestablish a meaningful UN presence in Iraq.
    I am pleased that NATO has sent a team of 57 officers to 
begin training Iraqi security forces and will help rebuild 
Iraq's Defense Ministry. A proposal to extend this mission, and 
perhaps set up a training academy in the region, is circulating 
among the Alliance. The United States should continue to press 
our allies to provide as much assistance as possible.
    The terrorists and insurgents must know that the world will 
remain steadfast despite their killing of innocents. Every 
terrorist act around the globe, in Madrid, Israel, Russia, 
Indonesia or elsewhere, reminds us that we cannot afford to let 
Iraq become a failed state or a haven for terrorists.
    Americans must reassure the Iraqis that the U.S. will 
remain a steady partner for the long term and that we not only 
share their hopes for peace and a better life, but will 
continue to provide assistance to help them get there.

                                ------                                


                         United States Department of State,
                            Washington, DC, 20520, August 11, 2004.

The Honorable Richard G. Lugar, Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    The Department of State has reviewed the Stabilization and 
Reconstruction Civilian Management Act of 2004 (S. 2127) as reported by 
your committee.
    The Department supports the purposes of S. 2127 and the 
Administration has been leading a similar effort as recently notified 
to your committee. The Secretary has established an Office of the 
Coordinator for Reconstruction and Stabilization (S/CRS) within the 
Office of the Secretary. S/CRS will oversee and coordinate intra-
Departmental and interagency civilian post-conflict and crisis response 
efforts. This Office's vision is largely in line with the vision in 
your bill.
    The Department is currently working to secure necessary interagency 
involvement including details from key agencies to provide requisite 
expertise in specialized areas of reconstruction, stabilization, and 
humanitarian assistance. The Department is also developing an 
Operational Readiness Reserve concept to enable and test methods for 
agile and responsive mobilization of staff to meet these needs. 
Experience gained in the formation and initial operation of S/CRS will 
inform Administration decisions that could lead to creation of a more 
robust Office of Stabilization and Reconstruction Operations. As 
currently envisaged, this office would have many of the attributes 
called for in S. 2127.
    During this formative stage, sufficient authority exists to 
establish S/CRS and develop the concept to mobilize agency resources. 
As we move forward, we will work with you and provide more detailed 
comments on the entire bill. However, of greatest immediate benefit 
would be the provisions set forth in Section 5 of S. 2127 that 
authorize the President's request for a $100 million account to meet 
immediate needs in a complex crisis and provide other special 
assistance authorities including waiver of certain transfer and 
drawdown limitations. The ability to reallocate resources from a broad 
range of accounts in a time of crisis is essential if there is to be an 
effective and timely response to the situation in the affected country 
or region. We would appreciate your support in securing appropriations 
and authorities in Section 5.
    The Department greatly appreciates the willingness of your 
Committee to address how best to respond to failing, failed, or post-
conflict states. The Department looks forward to working with you on 
creating the resource framework for the new Office in the near term and 
on future efforts that could lead to building a robust operational 
capability in sequence.
    The Office of Management and Budget advises that there is no 
objection to the submission of this report from the standpoint of the 
President's program.

            Sincerely,
                                 Peter N. Petrihos,
                                Acting Assistant Secretary,
                                               Legislative Affairs.

    The Chairman.  We look forward to the insights of our 
expert witnesses on these issues.
    I would like now to call upon the ranking member, Senator 
Biden.

       OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                         RANKING MEMBER

    Senator Biden. Thank you very much, Mr. Chairman. 
Gentlemen, welcome.
    As you've indicated, Mr. Chairman, we have two very bright, 
informed, and dedicated public servants before us today, and 
dealing with an area that, I think, unless we get a much better 
handle on, we are going to, quote, ``lose Iraq.''
    There's such a disconnect between what I hear stated about 
how well things are going and the reality in the situation on 
the ground. And I think both of you, because you've testified 
before and we've talked before, know that I've tried to find 
the positive sides about the things we're doing. I think, to 
use a phrase that former Deputy Defense Secretary Hamre used a 
year ago, the window of opportunity is closing. I think it's 
about ready to slam shut.
    So the two witnesses we have today, Mr. Chairman, are the 
guys who have been given the dubious distinction and 
responsibility of actually making the policy that the 
administration, with the support, or lack thereof, of the 
Congress, has said should be implemented. I think this is our 
single-highest foreign-policy priority right now, in the next 
weeks. And I hope we have an opportunity, Mr. Chairman, before 
we go out, to hear from--and they won't know as much as you 
guys know, but from senior administration officials at the 
Secretary level, to get a sense of whether or not--how much of 
a priority this is, how urgent they see the responsibilities 
you're exercising are.
    The President has frequently described Iraq as, ``the 
central front on the war on terror.'' Well, by that definition, 
success in Iraq is a key standard by which to measure the war 
on terror. And by that measure, I think the war on terror is in 
trouble.
    We're all glad that Saddam sits in jail. We're all glad 
that Saddam is awaiting justice, the justice he deserves. But 
16 months after all this talk and banter and the political to 
and fro about ``mission accomplished'' and making fun of the 
phrase ``mission accomplished,'' Iraq remains a very active and 
increasingly active war zone. Increasingly active war zone. Not 
diminishing; increasingly active war zone.
    And the insurgency is growing. It is more lethal. I will 
not mention, because it was in a closed hearing, who the senior 
official was that told us not many months ago, briefing us all, 
``This is just a bunch of thugs out there.'' And I remember our 
friend John McCain going ballistic and saying, ``Don't say 
that.''
    We have a much broader problem here than the way it was 
characterized 8 months ago. And it's clear that it is. We're 
yielding control. And I'm not second-guessing the military 
judgment. I don't know enough to know whether or not they have 
the capacity to do something other than that, but the number of 
attacks on our forces have increased from 700 in March to 
nearly 2,700 in August. This turning over of sovereignty, we 
turned over sovereignty without capacity. Allawi has 
sovereignty and very little capacity.
    The Defense Secretary, God love him, says, last Thursday, 
``We trained up 90,000 Iraqi forces.'' Give me a break. Not one 
single solitary Iraqi policeman has gone through the totality 
of the training, including the 24 weeks on-the-ground training. 
Not one, to the best of my knowledge. Maybe something happened 
in the last 5 days.
    My frustration is not directed against you guys. It's time 
we level here, we level with the American people.
    We recently passed the ominous milestone of a thousand 
dead. The part that goes unnoticed--and it's real--a real 
horrific impact--is, in the month of August, there were 900 
casualties of American troops, beyond the dead.
    And, you know, we can go back--and I'm not going to do it--
and argue about--because some of the stuff you guys even said 
should be done didn't get done--argue whether or not the 
miscalculations that were referenced by the Chief Executive 
were ``miscalculations.'' The way he said ``miscalculations,'' 
it reminds me of people talking about domestic violence. You 
say ``domestic violence,'' it sounds kind of domesticated, like 
a cat. It's the most vicious, ugly kind of violence there is. 
These miscalculations were incredibly consequential. And it's 
time to correct the miscalculations, but I don't think there is 
much time.
    Virtually every problem we've encountered was predicted 
before the war by this committee, by outside experts, by some 
of you inside the administration. But the part that I don't see 
here is a learning curve. I don't see any learning curve from 
the repeated mistakes in judgment we've been making and from 
the civilian side.
    And I'm not going to go through the litany, because it's 
almost piling on these days. We all know it: Greeted as 
liberators, Chalabi was the guy, you know, the expatriates 
would bring legitimacy, there would be plenty of oil, we go 
through the whole thing. It's not worth going back over it. 
That's past. We were wrong. The administration was dead wrong 
in its assumptions.
    But now, what do we do? And I think that we're going to be 
judged from this point on not by our miscalculations, but the 
squandered opportunities, which gets me to the last trip with 
Senators Lindsey Graham and Tom Daschle that I--now I guess 
it's 8 weeks--we were sitting there on a Sunday talking to our 
flag officers, seven in a room, private. And they're the first 
to tell you they don't have the right mix of forces. They're 
the first to tell you that they need, desperately, this money 
spent.
    General Chiarelli of the 1st Cavalry, you know, a guy who 
can shoot straight and kill people, tough guy, serious player, 
brings us into the 1st Cavalry headquarters. He has Sadr City, 
and he does something, Mr. Chairman, I've not seen before. You 
know, they laid out a classic military PowerPoint presentation 
and they said, ``Let me show you the piles of garbage in Sadr 
City.'' And they actually showed you pictures. And then they 
put up a hot-point in Sadr City with 12-feet piles of garbage, 
raw garbage. Then they showed Humvees. They had a picture of a 
Humvee going through sewage in Sadr City, past homes, that was 
up to above the hubcaps. Then we saw kids sitting there. They 
went through this, and I wonder, where is all this going? Then 
they overlaid a map of the violent incidents in Sadr City with 
another map which plotted those areas of Sadr City lacking in 
essential services. And guess what? The two maps matched up 
exactly. Exactly. And then Chiarelli says to us, now, while I 
have been able to spend however many millions of dollars, 
here's where I spent it. And he showed where he spent it and 
what he did.
    How long will it take to build a sewage system? Well, you 
ask the engineers that, and they say, well, 2\1/2\ years, we 
can have a system for Baghdad. And this guy's saying, hey, I 
don't need a system for Baghdad. I need PCV coming out of this 
home going into the Tigris River temporarily so the kids in 
this family don't have to swim in feces as they walk out their 
front door.
    So he does this overlay, and he shows us, concretely, the 
number of attacks, the discontent coming from the area where he 
spent the $30- or $40 million, whatever it was, and it drops 
off a cliff.
    And then I find out we've spent out of $18.4 billion that 
Kerry and Bush are beating each other up about, only about a 
billion.
    And so, folks, you know, the supplemental was presented to 
us almost exactly a year ago. They said, ``This is''--I'm 
quoting Bremer--``This is urgent. The urgency of military 
operations is self-evident. The funds for nonmilitary action in 
Iraq are equally urgent. Unless this supplemental passes 
quickly, Iraqis face an indefinite period with blackouts 8 
hours daily. The link to the safety of our troops is indirect, 
but real.'' He also said, ``No part of the supplemental is 
dispensable, and no part is more important than any other. This 
is a carefully considered request.''
    How many months ago was that? And one of my first questions 
was, hey, guys, how much money have we spent? This urgent 
supplemental. It's incompetence, from my perspective, looking 
at this.
    I know you're going to present us with the details of the 
plan to restructure the aid program, and I hope there's a 
specific plan to use the money more effectively and more 
quickly. And there are other critical questions. What is the 
administration's plan? What is the administration's plan on how 
to deal with the no-go zones in the Sunni triangle, which seem 
to get bigger and bigger and bigger? Are we just going to cede 
the triangle? That may be the right thing to do, but what's the 
plan? Don't tell me we're doing better, when you're ceding more 
and more and more cities within the triangle to the control of 
the old Ba'athists and insurgents. What's the administration 
going to do to secure the commitment from NATO for a meaningful 
contribution to the training program of the Iraqi military? 
Where is the administration going to get additional police 
trainers from countries that have expertise? What's the plan?
    I sat with the President of the Bundestag yesterday. I 
think you may have met with him, as well. I was very blunt with 
him. I said, ``Mr. President, you Germans don't like--
especially the SPD--you don't like the fact that we're in Iraq. 
Well, you've got to get over it. You've got to get over it.''
    This administration, in my view--just me speaking--has, 
from a civilian side of this, made one blunder after another 
since Saddam Hussein's statue has fallen. But don't wait for a 
Kerry administration; (a) it may not come, and, (b) if it 
comes, it may be too late.
    And he looked at me, and I said--and I quoted President 
Chirac's comments to me from Christmas. He said, ``The worst 
mistake you all made was sending in 150,000 American forces. 
The only mistake that would be worse than that would be pulling 
them out.'' And I looked at him, and I said, ``Get ready.'' 
This becomes Lebanon, somebody--this President, the next 
President, whoever the President is, is going to be turning and 
saying, OK, guys, you don't want to help? No problem. It's your 
problem.
    So my question is, What's the administration doing? What 
are you doing to get these people trained? You could, tomorrow, 
take a thousand Iraqis, 500, 250--we're trying to do this--
potential leadership corps, put them on a plane and send them 
to Germany. They know how to train the gendarmerie. They know 
how to train cops who are paramilitary. Where is the sense of 
urgency?
    What's the administration's plan to recruit a dedicated 
force, called for by Resolution 1546? This is above your 
paygrade, and mine, to answer this question. But, seriously, 
all kidding aside, What's our exit strategy? I'll finish this 
up, Mr. Chairman.
    My frustration--I apologize for letting it show--I have 
been trying to be good the last 2 years here and not let this 
frustration show, but I think we're at the end of our rope. I 
think we're at the end of our rope here, unless we get smart 
real quick.
    The President says, in the Post today, ``We're going to 
have elections.'' Tell me how we're going to have elections. 
Tell me how you're going to set up thousands of polling places 
by January when we haven't even gotten the commitment from the 
Security Council that they made to get roughly 3,500 forces to 
protect the U.N. Security--a U.N. force to go in there and set 
up these polling places. The expectation, honestly, by everyone 
when that passed was that Kofi would be able to put somewhere 
between 2,000 to 3,500 people in there. He's now talking 35--
three-five. And there's going to be elections?
    As an old joke used to go, ``What's the plan, Stan?'' 
What's the plan? There is a deafening silence from the 
administration. Incredible rhetoric. Deafening silence. How are 
you gonna get the force that the Security Council said would be 
provided for the U.N. to set up these elections? Or someone 
tell me we don't need the force.
    And, by the way, I'm not suggesting that you're going to 
get the French to send in troops, or the Germans. But a little 
imagination. Maybe we say to the French and the Germans, OK, 
let's make a side deal. Put even more troops in Afghanistan, 
allowing us to take troops out of Afghanistan to put into Iraq 
to protect the security--this force. So what's the plan? What's 
the plan to convince our allies to make good on their pledges, 
including financial assistance, debt relief?
    I mean, my colleagues here, the three gentlemen I'm with, 
they've forgotten more about this than most people know. But 
just read the U.N. resolution. It's very specific. It is not a 
generic commitment the Security Council made. It's a specific 
commitment. To the best of my knowledge, not one single 
solitary commitment made in that resolution has been met by a 
single solitary member of the Security Council.
    Well, I apologize for my frustration. But I'll tell you 
what, Mr. Chairman--it's going to sound melodramatic, but it's 
reality--you know, as I said once before, I'm from Delaware. 
The Dover Air Force Base is the place that every single coffin 
out of Afghanistan and Iraq sets on U.S. soil first. We owe it 
to those young women and men to get this right. We owe it to 
them to get it right. We owe it to them to have a plan.
    And so hope today, on one piece of than plan, how we are 
going to--or why we can't distribute, after--what is it? How 
many months?--12 months, 13 months, 9 months, whatever the 
number is, when we urgently responded to the urgent request of 
the administration to urgently pass this supplemental, to 
urgently get $18-plus-billion to Iraq because, as the former 
Administrator of the CPA said, there is an indirect, but real, 
connection between whether or not the lights go on, the sewage 
gets cleaned up, the school gets built and whether or not an 
Iraqi is there shooting or aiding and abetting, or hiding, or 
allowing someone else to shoot and kill an American soldier. I 
believe Bremer was right when he said there's a direct 
connection.
    So what are we going to do about it? That's the purpose, 
from my perspective, and the reason why I'm here, to try to 
find out some answers to those questions.
    I'm sorry, Mr. Chairman, I have trespassed on the time. You 
have been a gentleman, allowing me to speak. And I apologize to 
my colleagues for my frustration. In different ways, I'm sure 
you all share it. You are just better at being able to 
articulate it than I am. But I am really frustrated, because I 
think we're at the last piece of that rope. We're hanging on. 
We can still climb that rope, but, man, there's not many more 
handholds on that rope, and we had better get it right.
    I thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator Biden.
    We look forward now to the testimony from our witnesses. 
Let me just say that your statements will be made a part of the 
record in full, and you may proceed as you wish.
    Mr. Schlicher.

 STATEMENT OF RONALD L. SCHLICHER, DEPUTY ASSISTANT SECRETARY 
 FOR IRAQ, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Schlicher. Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, thank you today 
for the opportunity to appear before you to discuss the efforts 
of our government to assist the Iraqi people and the Interim 
Iraqi Government as they rebuild their country and they prepare 
for national elections in January, in face of the grave 
challenges that you have mentioned in your opening statement.
    Eleven weeks ago, the U.S. Embassy in Baghdad opened for 
business. Mr. Chairman, it's been a very busy 11 weeks in 
Baghdad, as, indeed, it has been here in Washington for those 
of us working to support our colleagues on the ground in Iraq. 
They have fanned out across the country, traveling and working 
with coalition forces from Basra to Mosul, to offer assistance 
on reconstruction and development. They stood alongside Iraqi 
officials, who welcomed more than a thousand of their fellow 
citizens to Baghdad for a National Conference, a key step 
toward democracy. They took a hard look at existing plans and 
priorities for the Iraq Relief and Reconstruction Fund, called 
the IRRF, and at finding ways to hire more Iraqis faster in 
order to put more men and women to work rebuilding their own 
country.
    When I appeared before you in July, I promised to return to 
provide an update on our efforts in Iraq, including on plans to 
speed up assistance, improve the security posture of the Iraqi 
Interim Government and to help the Iraqi people as they plan 
for national elections in January. I am pleased now to offer 
you that update.
    My colleague, Joseph Bowab, Deputy Assistant Secretary for 
Resource Management, will be describing the current plan in 
more detail. But, first of all, please allow me to tell you 
what we've accomplished in the area of reconstruction during 
the past 11 weeks since the transition to sovereignty.
    When the embassy opened for business, the Coalition 
Provisional Authority had disbursed $400 million of the $18.4 
billion of the IRRF authorized in the fiscal year 2004 
supplemental. At that time, the national power grid provided an 
average of just under 11 hours of daily power throughout Iraq, 
while, on average, oil production remained just short of prewar 
levels. We can take some justifiable pride in our progress in 
those 11 weeks. Now, more than 111,000 Iraqis have been 
employed in U.S. Government-managed projects, not to mention 
Iraqis previously employed by projects funded under the 
Development Fund for Iraq, DFI. The disbursement of IRRF moneys 
has surpassed $1 billion, up from that $400 million figure 11 
weeks ago. That's more than double the amount on July 1, but, 
as you point out, very rightly, this is still too low. We need 
to keep pressing ahead on disbursement, and we will.
    More Iraqis have access now to sewer service and clean 
drinking water, and more people outside of Baghdad are getting 
electricity. Since the handover on June 28, electricity 
generation has grown by 10 percent, and consistently exceeds 
110,000 megawatts of power each day, despite the frequent 
attacks on the electricity grid that lead to outages such as 
that of yesterday, September 14.
    In addition, despite the repeated attempts of terrorists to 
disrupt oil production and exports, oil production is at the 
highest level since the beginning of the war. And, last Friday, 
exports reached a postwar peak of two million barrels a day. 
With the additional investment in oil infrastructure, we 
anticipate, in the coming months, Iraq should have an even 
greater capacity to increase oil production.
    Much of that progress is due to the groundwork laid by CPA. 
But as the Iraqi Interim Government assumed control of the 
country and our new team in Baghdad geared up under the 
leadership of Ambassador Negroponte and General Casey, we felt 
it important to take a look at the existing priorities and 
circumstances on the ground to ensure that we're putting the 
money to use as quickly as possible in the ways most needed 
according to our team's on-the-ground analysis of the evolving 
needs.
    A primary consideration in that review was security. 
Violence and the threat of violence has slowed down the rate of 
progress on reconstruction. Projects throughout Iraq have 
suffered from attacks by insurgents. The largest single 
increase in spending we are proposing, $1.8 billion, will go 
for security and law enforcement, such as hiring more police, 
border guards, and soldiers. But there also must be political 
and economic components to defeating the insurgents. Thus, we 
seek a comprehensive approach to all those needs, an integrated 
approach, though we know that the provision of adequate 
security up front is requisite to rapid progress on all other 
fronts.
    In short, one of our main weapons against the insurgents is 
the hope and the creation of more hope. When Iraqis have hope 
for the future, and real opportunities, they will reject those 
who advocate violence. And nothing makes for faith in the 
future like a good job. We plan to put hundreds of thousands of 
Iraqis to work, creating perhaps more than 800,000 short- and 
long-term jobs over the next 2 years. Additionally, U.S. 
Government programs should spur employment in the Iraqi private 
sector. The bulk of the new employment would be short-term 
jobs, many of 1-month duration in community-development 
projects. Others will be longer-term jobs, many in the security 
services, which our assistance makes possible through the 
provision of training and equipment.
    Understanding that the only way to generate good long-term 
employment is by broad-based growth of a vibrant economy, we 
have allocated some funding to help the Iraqis develop a policy 
environment to stimulate economic growth. But, in the near 
term, we believe that the projects and priorities identified by 
our review will provide a quick impact on local communities, 
will demonstrate to the people the tangible benefits of peace 
and stability, and will offer hope to people who have suffered 
for years without it.
    We also intend to set aside the funds necessary to enable 
the United States to participate in early and deep debt relief 
for Iraq, which is important for several reasons. It will make 
possible the international borrowing a new Iraq needs to 
continue the efforts already begun by donors to rebuild its 
infrastructure, its schools, its hospitals, and its economy. It 
will remove a gigantic debt overhang that would otherwise 
hinder investor interest in Iraq and the country's integration 
into the global economy. Our relatively small budgetary outlay 
will leverage much larger levels of debt relief from Iraq's 
other creditors.
    The emphasis on these priorities will mean that we will 
have less to spend on large-scale infrastructure projects, such 
as sewage-treatment plants and power plants. Projects in those 
sectors, that were scheduled to begin in 2005, will be delayed, 
which, unfortunately, means we cannot guarantee that as many 
Iraqis will have these essential services by 2007, as we had 
originally intended. But we have not forgotten these worthwhile 
plans, and we believe that other donors and the Iraqis 
themselves will find the money for many of them.
    But we have heard from those people on the ground in Iraq, 
as, indeed, we have heard from you here in Washington, that we 
need to focus on projects that will make an immediate impact. 
We are focused on one deadline, in particular; and that is the 
date for the national elections, on January 31, 2005--no later 
than that date. The Independent Electoral Commission of Iraq is 
now working closely with the United Nations to ensure that the 
elections are legitimate and credible, and that all eligible 
Iraqi voters have the opportunity to cast a ballot. We've 
monitored the progress of the Electoral Commission to organize 
these elections in the daunting security environment under what 
is, without question, an ambitious timeframe.
    Despite those challenges, we are confident that they will 
succeed. With the assistance of a team of U.N. elections 
experts currently on the ground in Baghdad, the Iraqis have 
begun to pull together a voter registration system, design a 
public-information campaign, and complete the necessary 
election rules and procedures. We have provided support along 
the way, and, most recently, allocated $40 million from USAID 
to an NGO to assist in the logistical preparations for the 
elections. The Iraqi Interim Government and the Multinational 
Forces Iraq are working toward a security plan to ensure that 
voting is possible nationwide. We are committed to helping the 
Electoral Commission hold those elections by January.
    We know that some expect the elections to fall behind 
schedule, or, indeed, doubt that they will be held at all. The 
Iraqis confronted similar doubts in the weeks before the 
opening of the National Conference this summer. And, indeed, it 
was reasonable to wonder, only a few weeks after the transfer 
of authority, whether a thousand Iraqis, representing the wide 
spectrum of ethnic and religious groups, could come together 
from all parts of the country to debate their nation's future 
in a peaceful conference in Baghdad.
    Mr. Chairman, you may remember early press reports about 
the conference, proclaiming that it was dissolving in acrimony. 
In fact, the delegates to the National Conference rose to the 
occasion. They ignored mortar rounds that fell nearby on the 
first day. They engaged in heated, but peaceful, debate on a 
wide range of issues to ordinary Iraqis. And they insisted that 
the conference be extended an extra day to accommodate 
democratic debate. They also came up with resolutions on 
security, governance, human rights, and reconstruction.
    The conference's security committee called for the 
disbanding of militias, while the reconstruction committee 
urged that projects rely more on Iraqi industries and create 
more Iraqi jobs. The conference completed its most prominent 
task by approving a slate of delegates to sit on an Interim 
National Council, which has already started to meet in Baghdad, 
and to expand the range of participation in Iraqi politics.
    Perhaps the finest hour of the National Conference was on 
its second day, when the members took the initiative to 
dispatch a delegation to Najaf to support the Interim 
Government's efforts to peacefully resolve the standoff with 
the militia of Muqtada al-Sadr. The delegates did not call for 
compromise with al-Sadr. They did not urge the government to 
back down. Rather, they explicitly sought what the residents of 
Najaf wanted: an end to the fighting, a disarming of the 
militia, and a return of the shrines to the control of the 
legitimate religious authorities. It was a wholly Iraqi 
endeavor, backed up by the security assistance of the coalition 
forces. And it ultimately contributed to the resolution of the 
standoff.
    We commend the delegates for their initiative, and the IIG 
for its patience, restraint, and resolve in reaching a peaceful 
solution. And we're determined to assist the government in 
rushing reconstruction aid to that city.
    Likewise, we support Prime Minister Allawi's efforts to 
reach out to cities and disaffected constituencies in the Sunni 
community in order to bring all Iraqis into the political 
process. We believe the Interim Government's evenhanded 
approach in Najaf could serve as a model to resolving conflicts 
with armed opposition elsewhere in the country, just as the 
strong performance of the Iraqi security forces will give them 
confidence in confronting other armed aggression.
    In Najaf, Iraqi army special operations forces, along with 
Iraqi intervention forces, national guard and police, fought 
well alongside coalition forces. The Iraqi forces were 
instrumental in setting the conditions for the withdrawal of 
al-Sadr's militia and the preservation of the Imam Ali Shrine. 
And while Multinational Force Iraq provided extensive military 
and logistical support, the Interim Government was in charge 
throughout the standoff.
    The Iraqi people have been anxious for such a demonstration 
of resolve by their government. As we discussed in July, they 
have made clear that security is their top priority. They want 
what we all want: safe streets, peaceful neighborhoods, freedom 
from fear. The Interim Government has responded to their 
concerns. And now, every day, there are more and more police on 
the street.
    As a result of ongoing assessments of the needs of security 
officials, we have increased the number of police we will train 
by one third, to a total of 135,000. Likewise, in consultation 
with the Interim Government, we have doubled the number of 
border forces we intend to train to 32,000. The border is 
better patrolled every day, limiting the number of foreign 
fighters slipping into Iraq, although, of course, that does 
remain a major concern.
    Mr. Chairman, I heard, from members of the committee in 
July, that you were troubled by the situation in Iraq. Of 
course, we also are. We grieve for our losses and for the death 
of all Iraqi innocents. We are troubled that Iraqis, who 
suffered for decades under an oppressive government that 
decimated their society, have yet to fully enjoy the fruits of 
democracy and stability. But with our help, Mr. Chairman, they 
will. They will build a new Iraq on the basis of respect for 
human rights, the rule of law, a free economy. They will build 
an Iraq that is a model of democracy for the region and a 
responsible member of the international community.
    It is a monumental undertaking, as you all have alluded to 
in your statements this morning, as well. But the Iraqis do not 
despair. And as you said in your statement, sir, we must not 
let them down. We will not let them down. We know that a 
stable, democratic Iraq will make for a safer United States.
    As President Bush said recently, ``Free societies are 
peaceful societies. Someday, an American President will be 
talking to a duly elected leader of Iraq, talking about the 
peace, and America will be the better for it.''
    Mr. Chairman, members of the committee, thank you, again, 
for the opportunity to testify about the situation in Iraq, and 
I look forward, later, to answering any questions you may have.
    Thank you.
    [The prepared statement of Mr. Schlicher follows:]

               Prepared Statement of Ronald L. Schlicher

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the efforts of the 
United States to assist the Iraqi people and the Iraqi Interim 
Government (IIG) as they rebuild their country and prepare for national 
elections in January.
    Eleven weeks ago, the U.S. Embassy in Baghdad opened for business. 
Mr. Chairman, it has been a busy 11 weeks in Baghdad, as it has been 
here in Washington for those of us working to support our colleagues on 
the ground in Iraq. They have fanned out across the country, traveling 
and working with Coalition forces from Basra to Mosul to offer 
assistance on reconstruction and development. They stood alongside 
Iraqi officials who welcomed more than a thousand of their fellow 
citizens to Baghdad for a National Conference, a key step toward 
democracy. They took a hard look at existing plans and priorities for 
the Iraq Relief and Reconstruction Fund (IRRF), and they are finding 
ways to hire more Iraqis, faster, in order to put more men and women to 
work rebuilding their country.
    When I appeared before this committee in July, I promised to return 
to provide an update on our efforts in Iraq, including our plans to 
speed up assistance, improve the security posture of the IIG, and help 
the Iraqi people as they plan for national elections in January. I am 
now pleased to do so.
    My colleague Joseph Bowab, Deputy Assistant Secretary for Resource 
Management, will be describing the current plan in more detail. But 
first of all, allow me to tell you what we've accomplished in the area 
of reconstruction during the last 11 weeks. When the Embassy opened for 
business, the Coalition Provisional Authority (CPA) had disbursed $400 
million of the $18.4 billion of the IRRF authorized by the FY04 
Supplemental. At that time, the national power grid provided an average 
of just under 11 hours of daily power throughout Iraq, while on average 
oil production remained just short of prewar levels.
    We can take justifiable pride in our progress since then. Now more 
than 111,000 Iraqis have been employed in USG-managed projects--not to 
mention Iraqis previously employed by projects funded by the 
Development Fund for Iraq--and disbursement of IRRF monies has 
surpassed $1 billion, more than double the amount on July 1. This is 
still too low, however; we need to keep pressing ahead on disbursement. 
More Iraqis have access to sewer service and clean drinking water, and 
more people outside of Baghdad are getting electricity. Since the 
handover on June 28, electricity generation has grown by 10 percent and 
consistently exceeds 110,000 MW hours of power each day, despite the 
frequent attacks on the electricity grid that lead to outages such as 
that of September 14. In addition, despite the repeated attempts of 
terrorists to disrupt oil production and exports, oil production is at 
the highest level since the beginning of the war, and last Friday, 
exports reached a post-war peak of 2 million barrels a day. With the 
additional investment in oil infrastructure we anticipate in the coming 
months, Iraq should have even greater capacity to increase oil 
production.
    Much of that progress is due to the groundwork laid by CPA. But as 
the Iraqi Interim Government assumed control of the country, and our 
new team in Baghdad geared up under the leadership of Ambassador 
Negroponte and General Casey, we felt it important to take a look at 
the existing priorities and circumstances on the ground to ensure that 
we are putting the money to use as quickly as possible in the ways most 
needed, according to our team's analysis of the evolving needs on the 
ground.
    Over six weeks the entire Country Team worked to come to a 
consensus on the most urgent programs and the required funding levels. 
Ambassador Negroponte also consulted extensively with the Iraqi Interim 
Government to ensure that the Iraqis fully understand these priorities.
    Our proposed revisions to IRRF spending address the need to improve 
security, a key to all reconstruction efforts, while devoting 
additional resources to improving the economic and political 
environment in advance of the elections, including job creation. The 
shifts will require commensurate cuts in the important sectors of 
water, sanitation and electricity, and, as a result, we will not meet 
our previous targets in these areas in the same time frame.
    A primary consideration in the review was security. Violence, and 
the threat of violence, has slowed down the rate of progress on 
reconstruction. Projects throughout Iraq have suffered from attacks by 
insurgents who are terrorizing cities and villages. The largest single 
increase in spending we propose--$1.8 billion--will go for security and 
law enforcement, such as hiring more police, border guards, and 
soldiers. But there must also be political and economic components to 
defeating the insurgents. We seek a comprehensive approach to all these 
needs, though we know that the provision of adequate security is 
requisite to rapid progress on all other fronts.
    In short, one of our main weapons against the insurgents is hope. 
When Iraqis have hope for the future and real opportunities, they 
reject those who advocate violence. And nothing makes for faith in the 
future like a good job.
    We plan to put hundreds of thousands of Iraqis to work, creating 
perhaps more than 800,000 short- and long-term jobs over the next two 
years. Additionally, USG programs should spur employment in the Iraqi 
private sector. The bulk of new employment would be short-term jobs, 
many of one-month duration in community development projects. Others 
will be longer-term jobs in the security services, which our assistance 
makes possible through the provision of training and equipment. 
Understanding that the only way to generate good long-term employment 
is by the broad-based growth of a vibrant, free-market economy, in the 
near-term, we believe that the projects and priorities identified by 
our review will provide a quick impact on local communities, will 
demonstrate the tangible benefits of peace and stability, and will 
offer hope to people who have suffered for years without it.
    We also intend to help finance debt relief, which is important for 
Iraq for several reasons: it will free the resources that a democratic 
Iraq needs to rebuild its infrastructure, its schools, its hospitals 
and its economy to the benefit of the Iraqi people; it will remove a 
gigantic debt overhang that otherwise would hinder Iraq's attempts to 
foster investor interest in Iraq and the country's integration into the 
world economy; and our relatively small budgetary outlay will leverage 
much larger levels of debt relief from Iraq's other creditors.
    The emphasis on these priorities will mean we have less to spend on 
large-scale infrastructure projects such as sewage treatment plants and 
power plants. Projects in these sectors that were scheduled to begin in 
2005 will be delayed, which unfortunately means fewer Iraqis will have 
these essential services by 2007 than we had originally intended. We 
have not forgotten these worthwhile plans, and we believe that other 
donors, and the Iraqis themselves, will find money for them. But we 
have heard from those on the ground in Iraq, as we have heard from you 
here in Washington, that we need to focus on projects that will make an 
immediate impact.
    We are focused on one deadline in particular, and that is the date 
for the national elections, January 31, 2005. The Independent Electoral 
Commission of Iraq (IECI) is now working closely with the United 
Nations to ensure that the elections are legitimate and credible, and 
that all eligible Iraqi voters have the opportunity to cast a ballot. 
We have monitored the progress of the IECI to organize these 
unprecedented elections in a daunting security environment under what 
is, without question, an ambitious timeframe. Despite those challenges, 
we are confident that they will succeed. With the assistance of a team 
of UN elections experts on the ground in Baghdad, they have begun to 
pull together a voter registration system, design a public information 
campaign, and complete election rules and procedures. We have provided 
support along the way and allocated $40 million from USAID to an NGO to 
assist in the logistical preparations for the elections. The IIG and 
MNF-I are working towards a security plan to ensure that voting is 
possible nationwide. We are committed to helping the IECI hold 
elections by January.
    We know that some expect the elections to fall behind schedule, or 
doubt they will be held at all. The Iraqis confronted similar doubts in 
the weeks before the opening of the National Conference this summer. 
Indeed it was reasonable to wonder, only a few weeks after the transfer 
of authority, whether a thousand Iraqis representing the wide spectrum 
of ethnic and religious groups could come together from all parts of 
the country to debate their nation's future in a peaceful conference in 
Baghdad. Mr. Chairman, you may remember early press reports about the 
conference proclaiming that it was dissolving in acrimony.
    In fact, delegates to the National Conference ignored mortar rounds 
that fell nearby on the first day, engaged in heated--but peaceful--
debate on a wide range of issues of concern to ordinary Iraqis, and 
insisted that the Conference be extended an extra day to accommodate 
debates over the election of the Interim National Council and 
resolutions on security, governance, human rights and reconstruction. 
The Conference's Security Committee called for disbanding militias, for 
instance, while the Reconstruction Committee urged that projects rely 
more on Iraqi industries and create more Iraqi jobs. The Conference 
completed its most prominent task by approving a slate of delegates to 
sit on the Interim National Council, which has already started to meet 
in Baghdad and expand the range of participation in Iraqi politics.
    Perhaps the finest hour of the National Conference was on its 
second day, when members took the initiative to dispatch a delegation 
to Najaf to support the IIG's efforts to peacefully resolve the 
standoff with the militia of Muqtada al-Sadr. The delegates did not 
call for compromise with al-Sadr, they did not urge the government to 
back down; rather, they explicitly sought what the residents of Najaf 
desperately wanted: an end to the fighting; a disarming of the militia; 
and a return of the shrines to the control of the legitimate religious 
authority. It was a wholly Iraqi endeavor, backed up by the security 
assistance of Coalition forces, and it ultimately contributed to the 
resolution of the standoff. We commend the delegates for their 
courageous initiative and the IIG for its patience, restraint, and 
resolve in reaching a peaceful solution, and we are determined to 
assist it to rush reconstruction aid to the battered city. Likewise we 
support Prime Minister Allawi's efforts to reach out to cities and 
disaffected constituencies in the Sunni community in order to bring all 
Iraqis into the political process.
    We believe the IIG's even-handed approach to Najaf may serve as a 
model to resolving conflicts with armed opposition elsewhere in the 
country, just as the strong performance of Iraqi security forces will 
give them confidence in confronting other armed aggression. In Najaf, 
Iraqi Army Special Operations Forces--along with Iraqi Intervention 
Forces, National Guard, and Police--fought well alongside Coalition 
forces. The Iraqi forces were instrumental in setting conditions for 
the withdrawal of al-Sadr's militia and the preservation of the Imam Au 
Shrine. And while Multi-National Force-Iraq provided extensive military 
and logistical support, the IIG was in charge throughout the standoff.
    The Iraqi people have been anxious for such a demonstration of 
resolve by their government. As we discussed in July, they have made 
clear that security is their top priority. They want what we all want--
safe streets, peaceful neighborhoods, freedom from fear. The IIG has 
responded to their concerns, and now every day, more and more police 
are on the street, helping to stabilize and secure Iraq.
    As a result of ongoing assessments of the needs for security 
officials, we have increased the number of police we will train by one 
third, to a total of 135,000. Likewise, in consultation with the IIG, 
we have doubled the number of border forces we intend to train to 
32,000. The border is now better patrolled every day, limiting the 
number of foreign fighters slipping into Iraq.
    We expect that NATO will soon be contributing to the readiness of 
Iraqi security forces. The NATO Training Implementation Team assessment 
is complete, and in fact its report is scheduled to be delivered to the 
North Atlantic Council today. Proposed training missions for NATO 
include helping to establish staff colleges and an Iraqi training 
command, coordinating professional military education to be conducted 
in NATO countries, and advising Ministry of Defense and Joint 
Headquarters officials.
    The international community continues to make other significant 
contributions to rebuilding and securing Iraq. In addition to the 
United States, the Coalition includes more than 30 countries 
contributing 23,000 personnel. We are working with the UN and the IIG 
on calling upon members of the international community to provide 
financing for troop contributions to protect the UN in Iraq, as called 
for in UNSCR 1546, to enable the UN to carry out its leading role in 
advising and assisting Iraqis with elections and in carrying out 
humanitarian, economic reconstruction and other activities. A joint 
State-DoD team is heading to Romania, Ukraine, Georgia, and Azerbaijan 
to discuss potential contributions to a force to protect the Untied 
Nations. Meanwhile, the United Nations has hired two inner-ring 
security teams from Fiji that are scheduled to be on the ground in Iraq 
on October 7. European Union Foreign Ministers have indicated a 
willingness to offer support for elections, help build infrastructure, 
strengthen the rule of law, and train police or military forces. 
Bringing these efforts to fruition will require much hard work on our 
part and the part of our allies, but we will see it through.
    We will consult extensively with members of the international 
community next week during the upcoming session of the UN General 
Assembly. We look forward to meeting with other donor nations in Tokyo 
in October to coordinate our assistance to the Iraqi people.
    Mr. Chairman, I heard from Members of this committee in July that 
you are troubled by the situation in Iraq. We are also. We grieve for 
our losses and for the death of all Iraqi innocents. We are troubled 
that Iraqis, who suffered for decades under an oppressive government 
that decimated their society, have yet to fully enjoy the fruits of 
democracy and stability. But with our help, Mr. Chairman, they will. 
They will build a new Iraq on the basis of respect for human rights, 
the rule of law, and a vibrant and free economy, an Iraq that is a 
model of democracy in the region and a responsible member of the 
international community. It is a monumental undertaking, but they do 
not despair. And we will not let them down. We must not. We know that a 
stable, democratic Iraq will make for a safer United States.
    As President Bush said recently, ``Free societies are peaceful 
societies. Someday, an American President will be talking to a duly-
elected leader of Iraq, talking about the peace, and America will be 
better for it.''
    Mr. Chairman and Members of the Committee, thank-you again for the 
opportunity to testify about our progress in Iraq. I look forward to 
answering any questions you may have.

    The Chairman. Well, thank you very much, Mr. Schlicher.
    We'll proceed to the testimony of Mr. Bowab, and then we'll 
have questions from our members.
    Mr. Bowab.

 STATEMENT OF JOSEPH W. BOWAB, DEPUTY ASSISTANT SECRETARY FOR 
  FOREIGN ASSISTANCE PROGRAMS AND BUDGET, BUREAU OF RESOURCE 
              MANAGEMENT, U.S. DEPARTMENT OF STATE

    Mr. Bowab. Thank you, Mr. Chairman.
    My written statement goes into detail, as far as the 
reallocation of the $3.46 billion. So in my opening remarks, I 
will just summarize from the written statement.
    The Chairman. Very well.
    Mr. Bowab. The strategic review of the current spending 
plan began in Baghdad on July 1. After 7 weeks, and with the 
full participation of the embassy, implementing agencies, and 
the Iraqi Interim Government, Ambassador Negroponte and his 
team presented a detailed plan to realign resources to better 
respond to the changing realities on the ground.
    For the past 3 weeks, the administration has closely 
scrutinized that plan. And it is our consensus that this plan 
offers the best way forward. This week, we briefed senior 
authorization appropriation staff members on the proposed 
reallocation plan.
    The plan recommends shifting $3.46 billion from sector 
allocations contained in the July 2207 report that we provided 
to Congress into six key areas. Those areas are: security and 
law enforcement, oil infrastructure enhancements and improved 
export capacity, economic development, debt relief, 
accelerating employment for Iraqis, and support for democracy 
and governance.
    To meet these needs, an equivalent amount of funding needs 
to be shifted out of other sectors. Those sectors are: water 
and sewage, electricity, and refined oil purchases.
    Establishing security by helping the Iraqis defeat 
terrorist and criminal elements that oppose a free Iraq is the 
key building block in promoting successful reconstruction 
efforts in Iraq. An uncertain security situation affects all 
potential economic and political development, including private 
investment, both foreign and domestic. Based on that review, 
DOD concluded that a number of infrastructure and Iraq force 
structure capability enhancements, totaling $1.8 billion, were 
critically needed to meet the current threat environment. The 
funding is primarily needed to train, equip, construct, and 
refurbish existing facilities for an additional 80,000 police, 
border guards, and military personnel.
    During the review, the embassy worked closely with the 
Iraqi Ministry of Oil to identify projects that quickly could 
increase output capacity and additional export revenues for the 
Interim Government. Based on that analysis, we are recommending 
moving $450 million for targeted projects that can increase 
export output quickly.
    Although the oil sector dominates the economy, for the most 
part its capital-investment nature yields limited employment-
creation potential. To encourage diversification and develop a 
competitive sector surrounding Iraq's natural endowment of oil, 
we recommend shifting $380 million to increase employment and 
increase productivity in the private sector, including the 
agriculture sector.
    At Sea Island, the President and the G-8 leaders committed 
to providing debt relief for Iraq. In order to build a 
consensus among creditors for significant reduction of Iraqi 
debt, we believe that we need to move quickly to forgive the 
approximate $4 billion in bilateral debt that Iraq owes the 
United States. The cost associated with eliminating this debt 
is $360 million.
    To generate employment and provide immediate assistance in 
areas threatened by insurgency, we recommend shifting $286 
million to programs that have more labor-intensive high-impact 
effects. Our program implementation partners estimate that this 
funding will generate significant Iraqi short- and long-term 
employment.
    To support the upcoming January elections and provide 
assistance for election monitoring, local and provincial 
government strengthening and Interim Government support, we are 
recommending shifting $180 million into democracy and 
governance programs.
    The $3.46 billion that is recommended to the current IRRF 
spending plan are urgent, and they must be funded in the next 
few months, given the reality on the ground. From improving the 
security situation, to the upcoming elections, to the need to 
generate employment, to debt relief, all these are critical 
near-term requirements that must be addressed now.
    The choices were not easy, but difficult decisions had to 
be made to realign resources from within the IRRF to support 
these crucial activities. The only way to fund the proposed 
increases to the six sectors was out of the electricity and 
water sectors.
    We did not take lightly moving three billion out of these 
sectors without due consideration. We are working closely with 
the Iraqi Interim Government to identify alternative sources of 
funding to offset the shifting of these funds, including from 
the Iraqi budget, through the use of earnings from enhanced oil 
exports, to urging international donors to provide funding in 
support of infrastructure projects in Iraq.
    Finally, Mr. Chairman, we need the support of Congress in 
order to shift these resources, due to the sector limitations 
that are currently in the IRRF statute. We will also need 
affirmative authority for debt relief that currently is not 
available for Iraq in existing law. To ensure that we can act 
quickly on these crucial changes, the administration will 
continue to work with Congress to address these important 
issues.
    Mr. Chairman, I will stop there and take your questions.
    [The prepared statement of Mr. Bowab follows:]

                 Prepared Statement of Joseph W. Bowab

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear today to discuss the efforts the United States is 
taking in support of the Iraqi Interim Government to accelerate 
reconstruction efforts in Iraq.
    Ten months ago, the Congress demonstrated the generosity of the 
American people by appropriating over $18 billion in reconstruction 
assistance to assist the people of Iraq in rebuilding their country. 
While the plan for those resources that Ambassador L. Paul Bremer 
described identified discreet and valid requirements, much has changed 
on the ground in Iraq since that time.
    With the downturn in the security situation and the agreed plan to 
hold elections in January 2005, Ambassador John Negroponte committed to 
undertake a strategic review of the spending plan for the $18.4 billion 
in the Iraq Relief and Reconstruction Fund--or ``IRRF''--immediately 
upon his arrival in Baghdad.
    Ambassador Negroponte has now done so, with the expert assistance 
of many U.S. Government Agencies and in close consultation with the 
Iraqi Interim Government (IIG).
    The result is a plan that addresses the most pressing requirements 
we face in Iraq today: improving security, providing jobs to improve 
the standard of living of the Iraqi people, and supporting the 
democratic transition in Iraq.
    The plan is one that empowers the Iraqi people by giving them the 
capacity to provide for their own security.
    It empowers the Iraqi people by improving the economic viability of 
their country through support for oil revenue generation and through 
increased efforts to tap into an already skilled Iraqi labor force.
    It empowers the Iraqi people by giving them the tools to shape and 
mould their political landscape and by helping them fulfill the 
responsibilities of democracy and good governance.
    The strategic review recommends shifting $3.46 billion from sector 
allocations outlined in the July 5, 2004 Section 2207 report to 
Congress into six key areas:

  <bullet> $1.8 billion more for Security and Law enforcement;

  <bullet> $450 million for oil infrastructure enhancements and 
        improved export capacity;

  <bullet> $380 million for comprehensive economic development;

  <bullet> $360 million to forgive approximately $4 billion in 
        bilateral debt owed to the United States Government;

  <bullet> $286 million to accelerate Iraqi employment; and

  <bullet> $180 million to support democracy and governance.

    To meet these needs, an equivalent amount of funding would be 
shifted out of three sectors:

  <bullet> $1.94 billion from water and sewerage;

  <bullet> $1.07 billion from electricity; and

  <bullet> $450 million from oil (refined oil purchases).

                      SECURITY AND LAW ENFORCEMENT

    Establishing security by helping the Iraqis defeat terrorists and 
criminal elements that oppose a free Iraq is the key building block in 
promoting successful reconstruction efforts in Iraq. An uncertain 
security situation affects all potential economic and political 
development, including private investment, foreign and domestic.
    As part of the strategic review, the Department of Defense (DoD) 
under the leadership of General George Casey and Lieutenant General 
Dave Petraeus conducted an extensive review of Iraqi security and law 
enforcement programs funded out of the current IRRF spending plan.
    Based on that review, DoD concluded that a number of infrastructure 
and Iraqi force structure capabilities enhancements were critically 
needed to meet the current threat environment. The increase of $1.8 
billion includes:

  <bullet> $788.4 million for the Iraqi Police Service to train and 
        equip an additional 45,000 police officers, including 
        increasing training capacity at regional training sites;

  <bullet> $190 million for the Department of Border Enhancement to 
        train and equip an additional 16,000 border officers;

  <bullet> $442 million for the Iraqi National Guard to train and equip 
        an additional 20 battalions, including establishing regional 
        training bases and infrastructure support for 99 border posts;

  <bullet> $221.4 million for the Civil Intervention Force, Bureau of 
        Dignitary Protection, and Emergency Response Unit for training, 
        equipping and refurbishment and construction of critical 
        infrastructure;

  <bullet> $62.5 million for the Iraqi Army Special Operations Forces 
        for training, equipping, and expansion of the Iraqi special 
        operations base;

  <bullet> $48.7 million for the Iraqi Intervention Force to support a 
        logistics support base and logistics support unit to improve 
        deployment capabilities; and

  <bullet> $22.5 million for the Iraqi Army to upgrade facilities and 
        provide equipment and life support for a transportation 
        battalion.

                    OIL INFRASTRUCTURE AND CAPACITY

    Oil is the most prominent feature of the Iraqi economy. Iraq has 
proven oil reserves estimated at 112 billion barrels, ranking it second 
in reserves behind Saudi Arabia.
    During the strategic review, the Embassy worked closely with the 
Iraq Ministry of Oil to identify projects that could quickly increase 
output capacity and additional export revenues for the IIG. Based on 
that analysis, we recommend shifting $450 million for oil capacity 
enhancements:

  <bullet> $195 million specifically targeted for oil infrastructure 
        projects in cooperation with the Ministry of Oil;

  <bullet> $150 million to expand Kirkuk production and exports, 
        including the Al Fatah pipeline crossing, building a new 
        pipeline from Kirkuk to Al Fatah and refurbishing gas oil 
        separation plants (GOSPs) wet crude facilities;

  <bullet> $100 million for Rumaylah crude oil production and exports, 
        including water flood facilities and GOSPs; and

  <bullet> $5 million for a National Energy Strategy Study, including 
        oil, gas, electricity and water.

    Pending security conditions, these projects can be completed in six 
to nine months.

                          ECONOMIC DEVELOPMENT

    Although the oil sector dominates the economy, for the most part 
its capital-intensive nature yields limited employment creation 
potential.
    To encourage diversification and to develop a competitive sector 
surrounding Iraq's natural endowment of oil, we recommend shifting $380 
million to help increase employment and increase productivity in the 
private sector.
    The funding also provides support for higher education and 
humanitarian and resettlement assistance to vulnerable internally 
displaced persons (IDPs).
    Major economic development activities include:

  <bullet> $100 million for economic reform to spur employment, growth 
        and attract domestic and foreign investment. Key components 
        include financial and managerial capacity for the Central Bank 
        of Iraq, electricity and telecommunications regulatory 
        capacity, and tax, fiscal, customs, monetary policy, banking, 
        commercial law, and institutional reforms to promote 
        investment;

  <bullet> $100 million to promote and strengthen the private sector, 
        including restructuring and privatization of State Owned 
        Enterprises, trade policy, market access and trade and 
        promotion, capital market development and micro-lending and 
        small and medium enterprise development;

  <bullet> $100 million to assist the IIG with restructuring its 
        agriculture sector. Programs include developing policy and 
        institutional reform options, improve crop technology and live 
        stock, develop private sector agribusiness, and produce and 
        process high-value products for domestic and export markets;

  <bullet> $70 million to provide emergency relief assistance to over 
        100,000 Arabs and 50,000 Kurds, resettlement assistance to 
        300,000 Kurds, and establish contingency capability to respond 
        quickly to sudden population displacement due to violence or 
        natural disasters; and

  <bullet> $10 million to support higher education programs to purchase 
        computers and equipment for labs at 20 universities and 46 
        colleges throughout Iraq.

                              DEBT RELIEF

    The President and other G-8 leaders committed at the Sea Island 
summit to provide debt relief for Iraq. Paris Club creditors have 
aligned themselves with that commitment.
    As a prerequisite to a Paris Club agreement with the United States 
and other Paris Club creditors, normalization of Iraq's relations with 
International Financial Institutions, and access to international 
lending markets, we believe that we need to move quickly to forgive the 
approximately $4 billion in bilateral debt that Iraq owes the United 
States. The cost associated with eliminating this debt is $360 million.
    The United States has led the effort to build a consensus among 
creditors for significant reduction of Iraqi debt, and we will use our 
action to address U.S.-Iraq bilateral debt to press other nations, 
including non-Paris Club regional creditors, to do the same to support 
Iraq and its transition.

                     ACCELERATING IRAQI EMPLOYMENT

    To generate employment, stimulate economic activity, and provide 
immediate assistance in areas threatened by insurgency, we recommend 
shifting $286 million to programs that have more labor-intensive, high 
impact effects.
    Our program implementation partners estimate that this funding, 
combined with other programs (e.g., elections assistance), will 
generate approximately 800,000 Iraqi short and long-term jobs. 
Employment programs and activities include:

  <bullet> $200 million to USAID's Office of Transition Initiatives. 
        With this funding USAID estimates that it can provide an 
        additional 2,500 to 3,000 grants and employ an average of 
        40,000 Iraqis a month over the next year in labor-intensive 
        projects to meet essential service needs in areas of conflict 
        such as Baghdad, the Sunni Triangle, and South Central Iraq; 
        and

  <bullet> $86 million to the Commander's Humanitarian Relief 
        Reconstruction Program for small-scale economic development 
        projects in priority areas such as Baghdad, Samara, Ramadi, 
        North Babil, and other areas.

                        DEMOCRACY AND GOVERNANCE

    To support the upcoming January elections and provide assistance 
for elections monitoring, local and provincial government 
strengthening, and interim government support, we are recommending 
shifting $180 million into democracy and governance activities. 
Democracy and governance programs include:

  <bullet> $40 million to ensure the Iraqi Electoral Commission has the 
        technical capacity to run and certify free and fair national 
        elections, including establishing 8,000 polling stations and 
        300 regional elections offices, training 150,000 election staff 
        members to register 15 million voters, 100 political parties, 
        and certify 25,000 elections monitors;

  <bullet> $20 million to rollout a nation-wide elections monitoring 
        program. Civil society will help identify, train, and mobilize 
        over 25,000 domestic monitors and execute a voter education 
        campaign to reach eligible voters. Funding will also be used to 
        field at least three domestic poll monitors per polling station 
        and facilitate the limited participation of international 
        monitors to ratify Iraq's elections as free and fair;

  <bullet> $100 million to continue strengthening local and provincial 
        government on budgetary training, administration, and public 
        service standards to effectively and transparently deliver 
        services, foster local economic development, and involve 
        citizens in decision-making. Iraqi leaders will be better 
        informed on decentralization policy issues that balance power 
        between the central and local governments and guard regions 
        breaking away from a national, democratic and multi-ethnic 
        state; and

  <bullet> $20 million to support the interim government's Presidency 
        Council, Council of Ministers, National Council, and Interim 
        National Assembly--each of which is standing up much more 
        rapidly than envisioned.

    The $3.46 billion in recommended changes to the current IRRF 
spending plan are urgent and they must be funded in the next few months 
given the reality on the ground. From improving the security situation 
to the upcoming elections to the need to generate employment to debt 
relief, all of these are critical near-term requirements that must be 
addressed now. The choices were not easy, but difficult decisions had 
to be made to realign resources from within the IRRF to support these 
crucial activities.
    The security and law enforcement, water and sewerage, and 
electricity sectors comprise almost 70% of the current IRRF spending 
plan. Water and electricity alone account for 50% of the overall $18.4 
billion.
    The only way to fund the proposed increases to the six sectors 
discussed above was out of the electricity and water and sewerage 
sectors. We did not take lightly moving almost $3 billion out of these 
sectors without due consideration.
    In developing our recommendations, we looked at programs that were 
not scheduled to begin until the 4th quarter of FY 2005. We worked 
closely with the IIG, including the Ministries of Oil and Electricity 
to identify FY 2005 and out-year activities that could be reduced.
    We are working closely with the IIG to identify alternative sources 
of funding to offset the shifting of these funds, including from the 
Iraqi budget through the use of earnings from enhanced oil exports to 
urging international donors to provide funding in support of 
infrastructure projects such as electricity and water.

                        LEGISLATIVE REQUIREMENTS

    The IRRF appropriation allocates the $18.4 billion in 
reconstruction assistance by sectors. The statute limits movement of 
the funding into and out of these sectors. The legislation allows 
movement between sectors of 10%, except that the total for the 
receiving sector may not be increased by more than 20%.
    In order to shift the funding as described above, we would need 
legislative relief from the sector limitations as currently provided 
for in the IRRF statute.
    For debt relief, we also need affirmative authority that currently 
is not available for Iraq in existing law. Although the House Foreign 
Operations and Export Financing Bill for 2005 does contain a debt 
relief provision for Iraq, we do not anticipate passage of this Bill 
soon.
    To ensure that we can act quickly on these crucial changes, the 
Administration will include these two legislative proposals as part of 
an overall package of legislative recommendations for inclusion in the 
FY 2005 Continuing Resolution (CR).
    Mr. Chairman and members of the Committee, I urge you to support 
inclusion of these important legislative changes in the forthcoming CR.
    I will stop there and take your questions.

    The Chairman. Thank you very much, Mr. Bowab.
    We'll have a round of 10 minutes for each of the Senators, 
followed by another round, if that is required.
    Let me begin by saying that this committee has had, 
according to our best count, 23 hearings during the 108th 
Congress, on Iraq. At one of the recent hearings that Mr. 
Schlicher mentioned, in July, the committee made the point--and 
many Senators were present--that clearly more money was 
required in the communities of Iraq for jobs, for effects that 
could be seen, for building the infrastructure, and for what 
some of us call ``walking-around money.'' I used that term at 
the White House, directly to the President. He agreed, exactly, 
that's what we ought to do prior to the recess.
    What confounds me is that you have tediously taken 7 weeks 
to come to this conclusion to reallocate $3.4 billion. Now, 
while we appreciate the fact that everybody in the State 
Department, the Defense Department, and the White House has to 
be involved, the fact is, it was very clear in July that money 
needed to be moved, and could be moved, and that there were 
very adept people in the field in Iraq who could move the money 
and could do the job. And I just have to say, because we have 
an oversight responsibility, this is an extraordinarily 
ineffective administrative procedure. It is exasperating for 
anybody looking at this from any vantage point.
    Now, having finally got to this monumental decision to 
reallocate $3.4 billion of the $18.4 billion appropriated last 
Fall, begs the question, What happens to the other $15 billion? 
I suppose, just doing the math, if one has been spent and three 
is going to happen at this point, in the fullness of time, I 
suspect, two, three, four, five, six years down the trail, 
something would occur. But as my colleague has pointed out, we 
have an emergency problem now. And we had one in July. And we 
had one before that. The inability to seize the emergency 
situation and to respond to it may be beyond our ability as a 
nation. But I don't think so.
    It seems to me that we presently have a modest program. And 
I'm not going to argue with it. I would say, clearly, the 
question would be raised on the security money. Of course that 
money is needed. But each one of us who have visited with Iraq, 
who visited with people on the ground, during the Bremer time 
or subsequently, have known, from our people in the field 
there, that thousands of Iraqis needed to be trained, and 
trained right away and that this was imperative if security was 
to occur.
    Now, in fairness, some training is occurring. A lot of 
brave Iraqis have lost their lives, 50 even in the last week, 
attempting to provide some security. If we had extensive 
opportunities today, we would question, I suppose, how the 
arming of these security personnel is going, how the flow of 
equipment--that we have promised to buttress what they are 
doing is happening. These items are absolutely critical. There 
is nothing else in the program you've presented that is more 
critical than expediting the training and equipping of Iraqis 
to establish security. Because elections won't work very well, 
nor will the economy, nor will utilities, nor will the oil 
wells, if things are being blown up as fast as we are building 
them.
    So, of course money has to be spent for security. If $1.8 
billion is not enough, you ought to ask for more. You ought to 
get on with it, in essence. Even having said that, we know that 
the technical training of police and military people takes 
time, and our forces, therefore, are the safety net that really 
holds the thing together while that training occurs.
    I applaud you for the steps that are being taken here, but 
I would just express, I suppose, the same frustration each one 
of the members of this committee will, at some point. That's 
the purpose of the hearing today: to say. This really has to 
move ahead.
    Finally, let me just say that 110,000 jobs, 111,000 jobs 
have been created, and that is to the good. You've suggested 
maybe as many as 800,000 will be created, although some of them 
only for 1 month. That's tremendously important, given whatever 
the rate of employment is. And that is hard to gauge, as all of 
you know, out in that particular economy.
    But I have some optimism about the outcome of this. I saw a 
good piece by Fareed Zakariah in the Washington Post, an op-ed 
that I thought was well-taken. He pointed out that there are 
not insurgents in every town and village of Iraq. As a matter 
of fact, there are a great and large number of places in which 
life proceeds and in which people are trying to go about their 
work, albeit with very limited resources, which we could 
enhance. In other words, there are many, many areas of, not 
only stability, but progress going on there, which offer, 
really, the future.
    Now, there are areas--Fallujah and some others--where, in 
fact, there are insurgents, and there's absolute war. Those 
have to be isolated and dealt with. The Iraqis need to be 
consulted. They are doing the job, at least advising us of what 
we need to do in that process, because they can't have a 
country with these pockets of insurgents.
    But the whole country is not wrought up in insurgency. The 
whole country is not in revolt. The fact is that there is a 
broad base of progress going on. You have reflected that 
accurately, through the oil figures, through the power figures, 
through various other indices that might be presented. I would 
just encourage you to present to us as much of that information 
as you can. We are always scraping for some even anecdotal 
information as to what kind of economic indicators are 
proceeding in Iraq, currently.
    Having said all of that, I'm hopeful that you will convey 
back to whoever the planners are that, clearly, we're in favor 
of the security aspect, but we are also still in favor of money 
getting out to these towns and villages where a lot of people 
are doing a lot of good things and need encouragement.
    Now, that does not denote a long-term contract. Without 
going over the past assumptions, let me just touch upon 
something Senator Biden said. Our committee heard blithely 
optimistic people from the administration prior to the war, and 
people outside the administration, what I call the ``dancing in 
the street crowd,'' who postulated that we simply would be 
greeted with open arms. We asked one witness, ``How long do we 
stay?'' ``Not very long. You get out of there. America fights 
the war. We get out. People are free. Saddam is gone. And then 
they're rejoicing. They've established democracy.''
    Now, the nonsense of all of that is apparent. The lack of 
planning is apparent. But the fact is, we still are at a point 
where we need the help of the State Department with the work 
that this committee and the Department of Defense have done in 
trying to think through a nation-building capacity--some group, 
either in State, Defense, NSC, the White House, that, in fact, 
is there, so we don't reinvent the wheel for the ninth time 
again. And that must go on at the same time that we are doing 
Iraq, because, in due course, there will be other problems.
    Now, the State Department is working on this. The Defense 
Science Board has done an extensive study, which will be soon 
shared with the public. I applaud every effort.
    This is factored into legislation that we presented, which 
may or may not pass. It may also be formulated by the 
administration without legislation. But the whole mindset is to 
finally get a group of people in our administration--any 
administration; this one, the next one, the one after that, 
that understands the complexities of stabilization and 
reconstruction. A group of experts that will plan, that will be 
ready, that understands electricity and oil, and infrastructure 
at the village level, as well as how to produce jobs and how to 
call up reserves all over this country, of the types I 
mentioned earlier who can step in and execute a plan when 
needed--and clearly we will need to do this again. We've had, 
from the beginning in Iraq, the wrong people in the wrong 
numbers.
    Now, hopefully, we're getting it right. Hopefully, in 
addition to the money, they're getting people over in Iraq who 
know how to spend this money properly, who know civil 
administration, know job creation, know all the rest of it. 
This is something other than huge long-term infrastructure 
projects that need to be bid for 9 months or a year or whatever 
it takes to get it through. We're talking, really, about very 
short-term or intermediate-term projects that can make a 
difference, in terms of morale in the place.
    So I appreciate this opportunity simply to address you. I 
really don't have questions of you. You've outlined what your 
plan is, and asked for our support, and we are going to give 
that. But a whole lot more has to happen. That's the purpose of 
our hearings, not only to have oversight, but to have 
encouragement and indicate our support, our willingness to work 
with the administration, but prayerfully much more urgently, 
much more rapidly. It's been 2 months since July, a lot of 
water had gone over the dam. As I watch the press accounts of 
this, I wonder why in the world are they taking 5, 6, 7 weeks? 
We're in a war, and we need to move as rapidly as those events 
dictate.
    I yield now to my distinguished colleague, Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman, for your 
leadership.
    You know, it's one thing for me to express my frustration, 
but your integrity has dictated that you, as chairman of this 
committee, in a more difficult circumstance, express your 
frustration, as well.
    You know, it's that old bad joke, you know, ``We're from 
the Federal Government. We're here to help.''
    And there's a disconnect in the logic of this request that 
you're making, to me, that goes to the essence of the issue of 
the sense of urgency. I haven't requested any time recently, 
but the President has been available in the past. We've gone 
down, and we've individually talked to him; we've talked to him 
together. I mean, the idea that probably one of the most 
honorable nonpolitical guys in all the Senate used the phrase 
``walking-around money''--seriously. I mean, I know it sounds 
funny. But it reflects the intensity of our frustration of the 
failure to do things we know should be done.
    As the mayor of Indianapolis, three decades ago, if the 
city's burning, he doesn't--he didn't wait. He didn't wait--no 
mayor does--for a commission to finish its report, long-term 
efforts, how we're going to change the environment in the 
neighborhoods that are most discontent. You go in, and you hire 
the people, you hire them right away. You have them do 
something. You make work. You do something, so they're not 
shooting the cops that are coming in there.
    There seems to be no sense of that, except with our 
military. I have now, how many times? In three visits to Iraq, 
the only guys that seem to get it are the military guys. I 
mean, right from the beginning, right even when the CPA was 
screwing everything up. And they were, by the way. They were, 
in my view. Right from the beginning. Why was Petraeus--why did 
Petraeus become a star? He's a frustrated guy. He became a star 
because he's in the north, and he was improvising. He wasn't 
going through ``the process.'' He was improvising on the spot--
bing, bing, bing, bing, bing.
    Anyway, here's the disconnect, as I see it.
    The amount involved we're talking about right now is $3.5 
billion. I mean, there's roughly $18 billion out there, $17.5--
$3.5 billion. Of this, as I understand it from this testimony, 
$286 million is specifically targeted for job creation. And 
this is supposed to create--as I understand it, roughly 
generate 800,000 jobs.
    Now, in a country where the official unemployment rate is 
29 percent--and, unofficially, State guys tell me it's 50 to 60 
percent--jobs are key to ending the insurgency, or even as we 
found out in other experiences why we need to relearn this--you 
want to disband the militia, you're going to take their gun and 
what they get paid by the warlord and/or the insurgency or what 
they can loot and take--you've got to give them something. You 
don't say, give me your AK-47 and go home and have a nice day.
    And it begs the question of why more of the remaining $18.4 
billion is not being reoriented. Why only $3.5 billion? And why 
the disconnect between, as I see it, the smallest portion here, 
$286 million, to create jobs? I know it may be--not with you 
guys--ideologically inconsistent to have a giant WPA program.
    I'll never forget, the three of us were sitting with Mr. 
Bremer the day we arrived--well over a year ago, in Iraq, and 
it was a day--and I will welcome being corrected by my 
colleagues if I'm wrong, because I may be off by a click here--
Bremer was about to--or had just announced the day before, or 2 
days before, that he was disbanding the army, and he initially 
was going to shut down all government-subsidized businesses. 
Remember that, guys? And I forget which of us asked the 
question, but, OK, are you Jeffrey Sachs? And is this Poland? I 
mean, tell me this now, what's the immediate objective here? 
What are all those people going to do?
    And so these 800,000 jobs we're talking--they're going to 
average a month or so at a time, so they're really not jobs. I 
mean, they're jobs. Important. Don't get me wrong. Big deal. 
Big deal.
    But I have two questions. I have a lot of questions, but 
I'll try to stick to two.
    Sir, you indicated that debt relief is important. The three 
of us, at our peril, politically, led the effort here--and I 
think maybe my friend from Florida, as well--against what was a 
perfect--a perfect--populist argument that was available to our 
conservative and liberal friends alike on the floor, that we 
wanted to forgive debt. This $18-some-billion in reconstruction 
funds of the $87 billion we were going to forgive it. We 
weren't going to tie it to oil revenues. We weren't going to 
tie it to anything. And some of us, all of us, have a few scars 
in our back to demonstrate how hard that is to explain to your 
constituency at home why we believe that's so important.
    The President was able to--through the leadership of the 
Secretary of State, I assume--to get in Resolution 1546 
language on debt relief, as well, on the part of others.
    So my question to you is this. In addition to us coming up 
with spending a quarter of a billion dollars to forgive $4 
billion, roughly--and it's really a bookkeeping--consequential, 
but it's a bookkeeping measure--what is any other country 
doing? What are the French doing? What are the European Union 
countries doing? What are the members of the Security Council 
who voted for this resolution--what are they doing on debt 
relief? Doesn't mean we shouldn't do it. I'm not doing this 
counter-budget stuff: you know, if they don't, we won't.
    But you put your finger on it. You're the first guys that 
have been straight up about it. In order for this government to 
survive, they've got to be able to borrow. Unless they can deal 
with the debt overhang--and the IMF says you need to forgive 95 
percent of debt in order for the World Bank to come in and say, 
OK, now we'll get in the deal, so we'll lend money to what we 
all know is ultimately the solution, and that is private 
entrepreneurs, private businesses, private enterprise, a 
private economy, you know, not the government economy--though, 
that's a poor choice of terms--to get the World Bank in.
    What are others doing? What prospects do we have? And, by 
the way, if I'm not mistaken, this meeting takes place the end 
of this month. I think the meeting of the World Bank, these 
decisions are going to be made at the end of the month, in--
like, in weeks. What are others doing? And if they do nothing, 
is our debt forgiveness of an additional $4 billion, roughly, 
is that enough to get the World Bank and the IMF to step up to 
the ball and open up the lending spigot here? And does that 
have any impact on confidence of investors to come in to open 
up anything from the dress shop to the porcelain factory? 
That's my first question.
    Mr. Schlicher. Thank you, Senator, for the question.
    In my testimony, I mentioned that the G-8 leaders at Sea 
Island committed themselves to provide deep debt relief for 
Iraq. You mentioned the upcoming World Bank meetings where this 
is going to be a subject. The Paris Club is also going to be a 
forum where this is all going to have to be done. There have 
been a lot of, like, diplomatic discussions building up to----
    Senator Biden. Let me cut right to it. Has a single nation 
in the G-8--a single nation--stepped up to the ball and 
formally said, or requested of their parliaments, to forgive 
Iraqi debt?
    Mr. Schlicher. Not yet. No, sir. We have some 
understandings from some governments that that's exactly what 
they intend to do.
    Senator Biden. When? Do we know? I mean, what timeframe are 
we anticipating----
    Mr. Schlicher. I think we are aiming to have an agreement 
on Iraqi debt still by the end of the year. So it's going to be 
a very active 3 months on the debt-relief front.
    Senator Biden. With all due respect, by the end of the year 
is getting close to the time in which the first election is 
going to take place. All of this goes to confidence. I'd 
respectfully suggest that's too late, No. 1.
    No. 2--and I'll conclude with this, Mr. Chairman--the happy 
talk about progress--and there is progress in some areas--let 
me put it this way, there is the potential for real progress to 
mine those parts of the country where there is a desire to 
actually have an independent government that is not fueled by 
an insurgency.
    The administration set goals in 2003. And it's important 
that we just state it so we know what we're talking about. We 
were told by 6/04, June of this year, there would be 6,000 
megawatts of power. We were told there would be three million 
barrels of oil per day by October. We were told that there 
would be a minimum of 38,000 trained police officers, 40,000 
army trained. And now we're told--and, in fact, electricity, we 
have 4,500 megawatts, 10 hours of blackouts. We have two 
million barrels of oil. We say we have 32,000 cops. I would 
argue we don't have a single trained police officer. I'd like 
you to dispute that, if you will. And, at maximum, we have 
5,000 trained--5,000 trained--military forces.
    And if you look at the testimony of a guy who is a real--I 
mean, it's like ice water runs in his veins; that's why he has 
so much credibility among Democrats and Republicans--Anthony 
Cordesman. Anthony Cordesman says that--let me--I beg your 
pardon, Mr. Chairman, to get the first page here. Cordesman 
says, ``The new U.S. approach essentially defers most key 
actions to the military risk units after U.S. elections while 
it raises growing issues about the timing of long-term goals. 
It essentially defers any decisive U.S. military action unless 
it is forced on the U.S. Everything will consist of limited 
operations and strength until a new Iraqi force is ready.''
    Now, to me--and my time's up, so I'll just leave the 
question hanging here, and hopefully maybe we can get to it--it 
seems to me there's a race, fellows, in security. There's a 
race between the growing impact of the insurgency, which 
diminishes the optimism and the willingness of the Iraqi people 
to participate in the prospect of a democratic society and the 
training of an Iraqi military force, national guard, army, or 
police. And I respectfully suggest we are losing that race 
badly.
    And, for the record, I'd like to know, what constitutes a 
trained Iraqi police officer, from the administration's 
standpoint? What constitutes a trained Iraqi guardsman? What 
constitutes a trained Iraqi army personnel? And how many do you 
expect to have in place?
    General Petraeus does not use the figure in the field. Our 
staffs were just there--how long ago? Two weeks? Three weeks 
ago--he does not use the figure the Secretary of Defense uses. 
We have to be honest and figure out what it is and what's being 
done to increase that training.
    I'm well over my time. I apologize. I'll submit some 
additional questions in writing for you. But if you can be as 
precise as you can and just answer yes or no, Do we have 32,000 
trained Iraqi cops on the street? Trained? Not cops on the 
street. Trained Iraqi cops?
    Mr. Bowab. No, sir.
    Senator Biden. Thank you very much.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for coming before this committee this 
morning.
    I want to make a couple of comments before I ask some 
questions. One, this Senator--and I suspect all who are here 
this morning on this panel--recognize that you did not frame or 
shape or mold the foundation from which we now work from. That 
foundation was formed about a year and a half ago, certainly a 
year ago, and you have inherited, gentlemen, a mess. So I say 
that because it's important to put a frame of reference to what 
we're talking about here.
    The Secretary of Defense wanted to run Iraq. The CPA ran 
Iraq. We've got a lot of problems. I don't need to tell you how 
many, and how deep, and how wide. But one of the things that we 
all appreciate what you're saying today, and the directness and 
the honesty to come forward and ask for a reprogramming of the 
funds, is a clear acknowledgment that we are not holding 
ourselves hostage to some grand illusion that we're winning.
    Now, if you step back for a moment and understand what 
we're doing this morning. You are talking about reprogramming 
$3.4 billion--taking $3.4 billion, most of it for water and 
sewer and electricity, out of those accounts--and moving them 
mainly to accounts to enhance security. Now, that does not add 
up, in my opinion, to a pretty picture, to a picture that shows 
that we're winning. But it does add up to this: an 
acknowledgment that we are in deep trouble. And, for that, we 
are grateful.
    This Senator is not putting the blame on you for where we 
are today. Now, I say that, because I think it's important to 
be said, to be stated on the record, for the frame of reference 
and the context that we're dealing with this issue in Iraq.
    Before I move from that, let me use one example of what I'm 
talking about here, Mr. Schlicher. I understand the business 
that you're in. And I understand you are here not to explain to 
this committee how bad things are, but you're here also to try 
to present the positives and what has been accomplished. And 
there have been things accomplished. So I understand that. And 
I understand you have to have clearances, all the way up to the 
White House as to what you're saying this morning.
    But let me draw one example, in your testimony, to what I 
was talking about, not allowing ourselves to become hostage to 
some grand illusion that we're winning. You say, in your 
testimony this morning, and I quote, ``The Iraqi forces were 
instrumental in setting conditions for the withdrawal of al-
Sadr's militia and the preservation of the Imam Ali Shrine. And 
while Multinational Force Iraq provided extensive military and 
logistical support, the IIG was in charge throughout the 
standoff.''
    And what I find interesting about that statement is, no 
reference to the fact that the leading Shia cleric in Iraq, al-
Sistani, was not noted in this. We all know that al-Sistani had 
more to do with what happened there than anybody, more to do 
with al-Sadr and his militia standing down than the Interim 
Iraqi Government or our military forces. This is how we get 
into trouble, when we delude ourselves into thinking that we 
have done something we haven't done, in the fullness that we 
somehow state it.
    Now, the followup to the Madrid Donor Conference scheduled 
for Tokyo in October, where are we? Just as a reminder, this is 
a followup on pledges, I think, of approximately $13 billion, 
grants and loans from other countries, IMF, World Bank. This 
follows on with Senator Biden's questions about debt relief. We 
found out this morning that, unless I misunderstood what you 
said in answering Senator Biden's questions, there has been no 
other country forthcoming in debt relief. And that leads me to 
another question about Jim Baker's efforts, which were greatly 
heralded a few months ago, that he has gotten our partners into 
a position to help us with some of these other issues. I'd like 
to get a sense--an update on Secretary Baker's efforts, where 
that stands. But let's stay with the Tokyo conference. What do 
we expect?
    Mr. Schlicher. OK, sir. The Tokyo conference is, as you 
say--I think it's the 13th and 14th of October, and 
preparations leading up to that conference are ongoing right 
now, and different consultations. The British people were here 
yesterday, for example, to consult about the strategy in that.
    Secretary Baker's efforts did, in fact, create an 
environment that's going to be very conducive to that deep-debt 
relief. We fully expect that the conference and the Paris Club 
meetings and what we want to do on debt relief, in terms of the 
IRRF review, are going to, in fact, result in deep debt relief 
by the end of the year. But all of these milestones, these 
meetings, are going to have to take place before we get final 
results.
    We think we're going to get there, and we think we're going 
to get there on time----
    Senator Hagel. When you say ``we think we're going to get 
there,'' what do you mean?
    Mr. Schlicher. I think that, by the end of the year, we 
will succeed in getting the international community to give 
Iraq deep debt relief.
    Senator Hagel. What about the donor part of this, the 
pledges that were made, $13 billion?
    Mr. Schlicher. Joe.
    Mr. Bowab. Yes, there was $13 billion pledged, of which 
about $5 billion was international financial institution 
multilateral-type pledges, which left about $8 billion in 
grants and loan-type pledges. Where we stand right now with 
those pledges, as of June, there's been almost $1.2 billion 
disbursed by the international donors to Iraq for 
reconstruction.
    Senator Hagel. Of the $13 billion pledged.
    Mr. Bowab. Well, the $5 billion's kind of out of play until 
we can get to a point where, on the debt-relief side, that the 
multilaterals will actually provide any lending. Until we can 
get through the debt relief, that $5 billion is just kind of 
sitting there.
    Senator Hagel. So it would be fair to say that the pledges 
that came in from the Madrid conference, versus the reality of 
the money that actually has been put on the table, there is 
significant distance between the two.
    Mr. Bowab. I think if you do the math, it's about 13 
percent of what was pledged has been disbursed.
    Senator Hagel. Well, that's a significant distance, in my 
opinion.
    When you add up debt relief, pledges, casualties that the 
Americans have taken, versus our so-called ``coalition of the 
willing,'' it's rather dramatic. I mean, you're not here this 
morning to talk about casualties. We've now, I think, as of 
this morning, we've lost 1,018 dead, over 7,000 wounded. And I 
saw some DOD numbers yesterday that showed something like 60-
some dead from our coalition partners, 130-some wounded. I 
think that's generally about right.
    So, again, going back to any grand illusions, kidding 
ourselves about who's carrying the burden here, big time--big 
time--it's the United States.
    Now, let me ask about the 800,000 jobs that you've talked 
about. How are we going to do that?
    Mr. Schlicher. Yes, sir. As Senator Biden mentioned, the 
request is for $286 million for employment-generating programs. 
USAID's Office of Transition Initiatives has asked for $200 
million. Now, with this funding, USAID estimates that it can 
provide 2,500 to 3,000 grants that employ an average of 40,000 
Iraqis a month over the next year in labor-intensive projects--
the WPA-works sort of idea--that are going to meet needs, 
especially in conflict areas, like Baghdad, the so-called Sunni 
triangle, and South Central Iraq. Eighty-six million of that 
would go to the Commander's Humanitarian Relief Reconstruction 
Program, which is, kind of, the same idea as the SERP program 
that the commanders had during the CPA era. And that would be 
available to commanders to fund small-scale, quick, economic-
development projects, especially, like, in Baghdad, Samara, 
Ramadi, North Babel and those areas.
    The revised spending plan also, of course, talks about 
additional police. The number would move from ***90,000 up to 
35,000, which, in turn, would create 45,000*** new jobs there. 
It would double the number of border-enforcement people from 
16,000 to 32,000, for an additional 16,000 jobs.
    Senator Hagel. How quickly can this be implemented? You got 
into some of the timeframes of the jobs--and I know, Mr. 
Chairman, my time's up, but if I could just ask him that one 
followup point--how quickly can you assimilate that into the 
social fabric of Iraq? How can you get these jobs down? We've 
been hearing about this for more than a year, as the chairman 
has noted. The critical nature of this, the priorities of it. 
Money was appropriated a long, long time ago. It is, I 
recognize, a very difficult, complicated process, especially in 
the middle of a war. And we don't minimize that. But my 
question is, it is one thing to state this. Good intentions. 
The funding is there, even though the funding hasn't been used 
in many of these cases. So how can you do this in time to make 
a difference, especially to try to stabilize the country of 
Iraq by January for these elections, using one piece, that 
800,000 job piece, that has to fit into this somewhere? That's 
the question. How can you get these jobs down into the 
communities that need them in time?
    Mr. Schlicher. Yes, sir. On the USAID OTI transition 
initiative side, that office has existed since the CPA era. It 
has the grant-making capacity. I will ask my USAID colleagues 
for a particular answer of whether they think that there's 
going to be any additional mechanism they need to do.

    [The information referred to above was not available at the 
time this hearing was sent to press.]

    Mr. Schlicher. But the grant-making capacity certainly 
already exists within the office.
    Senator Hagel. Let me just--I'll close with this, Mr. 
Chairman--for the record, I'd like to ask that a Washington 
Post piece this morning, page A22, ``U.S. Plans to Divert Iraqi 
Money, be included for the record.
    The Chairman. It'll be placed in the record.
    [The article referred to follows:]

       [From the Washington Post, Wednesday, September 15, 2004]

                    U.S. Plans to Divert Iraq Money

 ATTACKS PROMPT REQUEST TO MOVE RECONSTRUCTION FUNDS TO SECURITY FORCES

                         (By Jonathan Weisman)

    The Bush administration asked Congress on Tuesday for permission to 
transfer nearly $3.5 billion from Iraqi water, sewer and electricity 
projects to pressing security, economic and electoral programs, 
acknowledging that increasing violence has forced a sharp shift in its 
rebuilding effort.
    Including previous reallocations, the administration hopes to 
redirect more than 20 percent of $18.4 billion in reconstruction funds 
to cope with an escalating insurgency and the glacial pace of 
rebuilding. With two weeks left in the fiscal year, and 11 months after 
Congress approved the money, only $1.1 billion of it has been spent, 
because of attacks, contracting problems and other unforeseen issues, 
according to figures released by the State Department.
    Marc Grossman, the U.S. undersecretary of state for political 
affairs, concluded that ``without a significant reallocation of 
resources for the security and law enforcement sector, the short-term 
stability of Iraq would be compromised and the longer-term prospects of 
a free and democratic Iraq undermined.''
    The redirected money would be used for, among other things, 82,000 
more Iraqi security personnel, including an increase of about 65 
percent in police forces and a near-doubling of the number of border 
agents.
    The shift of funds ``is a de facto recognition that [the occupation 
authority's] ambitious plans to restructure Iraq's entire economy have 
failed,'' said Anthony H. Cordesman, a security analyst at the 
nonpartisan Center for Strategic and International Studies, ``and that 
. . . efforts to plan the long-term structure of Iraq's economic 
development have foundered in the face of insurgent attacks, theft and 
looting, [and] bad planning.''
    Even administration allies said the State Department has been slow 
coming to terms with a security environment radically different from 
what was envisioned when the reconstruction plans were drafted last 
fall.
    In October, President Bush fought to preserve ambitious plans to 
repair Iraq's electrical and water systems, build hospitals and 
prisons, and construct roads, bridges, rail lines and ports.
    About $7.1 billion has since been directed to contractors, but 
little of it has hit the streets. Of $4.2 billion designated for water 
and sanitation, $16 million has been spent, according to State 
Department documents sent to Congress. Of $786 million earmarked for 
health, $2 million has been spent. Only $7 million has been used from 
the $367 million designated for roads and bridges. Just $43 million of 
$1 billion designated has been spent on justice, public safety and 
civil society programs.
    ``I don't think anyone can deny we have not been as successful as 
we would have liked,'' said Rep. Jim Kolbe (R-Ariz), chairman of the 
House Appropriations Committee's foreign operations subcommittee, which 
has jurisdiction over the funds.
    ``Fewer people will get potable water. Fewer people will get the 
electricity they need in their homes or their businesses,'' Kolbe said. 
``But that's just a recognition of the reality that unless you have the 
security you need, you can't have reconstruction.''
    The State Department hopes to shift $1.8 billion to security and 
law enforcement, $450 million to Iraqi oil production, $380 million to 
economic reforms, agriculture and private sector development, $286 
million to short-term job creation projects, $180 million to prepare 
for elections scheduled for January, and $360 million toward forgiving 
long-standing Iraqi debt to the United States. Even with the shift, 
Grossman said ``substantial money'' would remain for improving water 
and electricity services.
    Most of the transferred money would go toward training and 
equipping 45,000 more Iraqi police, 16,000 border patrol officials and 
20 additional battalions of Iraqi national guardsmen.
    ``If the shift of these funds slows down reconstruction, security 
may suffer in the long run,'' Senate Foreign Relations Committee 
Chairman Richard G. Lugar (R-Ind.) says in a statement scheduled to be 
delivered today on Capitol Hill.
    Rand Beers, a security adviser to the presidential campaign of Sen. 
John F. Kerry, was also critical. ``Belatedly moving money from 
reconstruction to security is necessary but won't make up for the 
George Bush's massive failure to plan for the peace in Iraq,'' he said.
    Deputy Secretary of State Richard L. Armitage will defend the 
request Sept. 24 at a House hearing.
    Questions have emerged about what little reconstruction money has 
been spent. In an essay yesterday e-mailed to reporters and policy 
analysts, Cordesman charged that much of it ``has been wasted due to 
sabotage, attacks, and bad planning; has been spent outside the 
country; or has been spent on foreign security forces.''
    The State Department wants additional funding for several security 
forces, including police, border patrols, the Iraqi National Guard, a 
Civil Intervention Force and an Iraqi Intervention Force. Congressional 
aides from both parties questioned how all those additional forces 
could be brought on quickly when training is already at capacity.
    The administration also wants $450 million to expand oil production 
from Iraq's northern and southern oil fields, but congressional aides 
say production is more limited by insurgent attacks than by antiquated 
infrastructure.
    ``It's clear to me that the postwar planning thus far has been a 
failure. What I want to know is that this reshuffling the numbers can 
improve the situation, that they've finally come up with a plan that 
works,'' said Rep. Nita M. Lowey (N.Y.), the ranking Democrat on the 
foreign operations subcommittee. ``Flexibility is necessary, but `trial 
and error' is no way to prosecute a war and no way to win a peace,'' 
she said.

    Senator Hagel. Thank you.
    And, Mr. Schlicher, if you've not seen this--and my time's 
up, and maybe I can come around on the second go-round--but 
there are about two paragraphs in this story. They talk about 
how much has not been spent. I mean, it's beyond pitiful, it's 
beyond embarrassing; it is now in the zone of dangerous. And 
so--it's not having anything to do with your credibility when 
you come up here to talk about this, but the facts are not very 
good here as to what we're dealing with, what we have been 
dealing with. And these are State Department numbers, by the 
way, that are quoted in the Washington Post.
    Thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, please let Senator Hagel 
continue with his line of questioning there. I'm in no hurry.
    The Chairman. Very well. Senator Hagel, do you have 
another----
    Senator Hagel. Well, thank you. Let me, then, just take a 
moment to pursue this story, because it does cut, Mr. 
Schlicher, to what we're talking about here. Then, if Senator 
Nelson is still willing and very gracious, then I'll add one 
additional point. Thank you.
    Quote from the Washington Post, State Department numbers, 
``About $7.1 billion has since been directed to contractors.'' 
Now, this starts with referencing President Bush's statements 
in October of last year about plans to repair Iraq's electrical 
and water systems, build hospitals and prisons, and construct 
roads, bridges, rail lines, and ports. ``About $7.1 billion has 
since been directed to contractors. But little of it has hit 
the streets. Of $4.2 billion designated for water and 
sanitation, $16 million has been spent.'' I'll repeat that. Of 
$4.2 billion designated for water and sanitation, $16 million 
has been spent. I pick it up from there. Again, quoting the 
State Department numbers, according to State Department figures 
sent to Congress, ``Of $786 million earmarked for health, $2 
million has been spent. Only $7 million has been used, from the 
$367 million designated for roads and bridges. Just $43 million 
of over $1 billion designated has been spent on justice, public 
safety, and civil-society programs.''
    I think the point's clear here, Mr. Schlicher, and that's 
why some of us--and I speak only for myself--are very skeptical 
when I hear these numbers and when I talk to other colleagues 
and listen to people who are close to Iraq, and see that we 
have not made the kind of progress that we had all hoped to 
make, understanding the realities of war, the uncertainties, 
the uncontrollables, the unknowables, and the uncertainties 
about it.
    Now, let me followup with this one question. There was a 
September--I think, September 3 report from the Secretary 
General of the United Nations, Kofi Annan. And I will quote one 
of the things that was stated in this report. ``At this 
juncture, circumstances do not permit the United Nations to 
implement to the fullest extent the essential tasks under its 
mandate pursuant to Resolution 1546''--which already has been 
discussed here this morning--end of quote.
    Would you talk now a little more, in some detail, about the 
security problem that we're all talking about this morning. You 
have recognized, obviously, for the reprogramming request that 
you're coming forward with--and how that's impacting--how you 
see that impacting on what the Secretary General is talking 
about? The U.N. is a rather significant part of this, if, for 
no other reason, than elections. And I know we're all playing 
for that. But that September 3 report is a very--and I've read 
the report--I don't know if you've seen it--is a very 
unsettling report as to the next few months to try to align the 
stars and the forces in Iraq to prepare for a free, open, fair 
election, which we must have.
    Thank you.
    Mr. Schlicher. Yes, sir. Thank you for the question.
    We do see the U.N. as a vital partner in Iraq, especially 
in the next months, as we gear up for elections. The United 
Nations, of course, is still suffering from the memory of the 
terrible terrorist blast that occurred at their headquarters 
last year that killed the Secretary General's special 
representative, Sergio de Mello. And I can't speak for the 
United Nations, but I think those folks always have that 
tragedy in the back of their minds.
    We do want more people on the ground in--U.N. people on the 
ground there. Lakhdar Brahimi, as you recall, played an 
absolutely vital role earlier this year in the setting up of 
the Iraqi Interim Government. The new special representative of 
the U.N. in Iraq, Ambassador Qazi, who was Ambassador here in 
Washington, also played a very important role during the 
National Conference and the setup of the Interim Council.
    The U.N. elections team has been on the ground for several 
months now. They're there now. They're working very intensely 
with the Iraqi Independent Electoral Commission on all of the 
logistics and the rules for the elections. They're deeply 
engaged in that. We're deeply engaged with both of them. We 
have recently allocated $40 million to go to IFES to support 
their planning efforts, as well.
    Now, the United Nations, of course, needs its own security, 
as per 1546. There are different aspects of that security. 
There's the close, inner-ring security to protect the U.N. 
principals on the ground there. There has been some progress 
made in identifying PSDs, personal security details, to take 
care of those needs. We're also looking for middle-ring 
security, as well, for, like, you know, the next ring out, 
after which the multinational forces kick in, in doing their 
duties. There is a DOD/State team that's leaving this week to 
go and talk to several countries about the possibility that 
they would be willing, as a collective, to provide the troops 
for that protection force, as well. And those different 
countries, of course, have different needs that--to which--and 
if those needs were met, they might be able to respond in a 
positive way. So we're working through that with them right 
now.
    We do understand that the U.N. needs to ramp up the number 
of people that it has right now. They're still operating under 
a self-imposed ceiling of personnel. We would hope that they 
would take a look at that ceiling in--by looking at the needs 
for what they have to get on the ground, because the logistics 
of setting up the elections are going to be very daunting in 
any case. And their role is essential there. We're willing to 
help them. We're working with them and the Iraqis. We do want 
them to have a full presence there. And I think we will get 
there, although it's a tough slog.
    Senator Hagel. Thank you, gentlemen.
    Mr. Chairman, thank you.
    Senator Nelson, thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. And thank you for 
calling this hearing.
    When I think of meeting an emergency and being prepared for 
it, I can't be reminded, because of my tired physical condition 
right now, of going through three hurricanes, the third of 
which is about to hit my state in just a few hours. There is a 
plan on the shelf. When the disaster strikes, that plan is 
executed, the resources are provided, and improvisation is 
there as things change.
    And as we look back on this, there was a plan on the shelf; 
albeit, it was a little loosey-goosey, as we well knew, as we 
tried to get that plan out of the administration prior to the 
war. And then they had a general in charge. And his name was 
General Garner--by the way, a Floridian. And a major part of 
his security plan was: keep the Iraqi army in place and deal 
with the Ba'athist officers, but keep 500,000 people employed. 
And when he was given the boot and replaced by Mr. Bremer, that 
was reversed.
    So then we had a plan, we're going to train all of these 
people. And we've had the testimony here already.
    I went to one of those cop training facilities. And the 
particular one that I went to was outside of Amman, Jordan. And 
in 8 weeks, we were supposed to have a trained police officer. 
And the question was asked of you all, are there 30-some-
thousand trained cops? And the answer that you gave us was no.
    Senator Hagel testified we had a plan, we appropriated the 
money. This money was going to be spent. It was U.S. money. And 
very little of it has been spent. We also had a plan that we 
were going to have the international community pledge. And they 
only pledged $13 billion. And very little of those pledges have 
been forthcoming.
    And then I read an article like today's Philadelphia 
Inquirer, which I would like to enter into the record, Mr. 
Chairman.
    [The article referred to follows:]

    [From the Philadelphia Inquirer, Wednesday, September 15, 2004]

         Outlook: The Growing Insurgency Could Doom U.S. Plans
                         for Iraq, Analysts Say

   (By Jonathan S. Landay and Warren P. Strobel; Inquirer Washington 
                                Bureau)

    Washington.--The U.S. strategy to create a stable, democratic Iraq 
is in danger of failing, some current and former American analysts say, 
and the anti-American insurgency is growing larger, more sophisticated 
and more violent.
    A wave of attacks across Iraq included the deadliest single bombing 
in Baghdad in six months yesterday and at least seven bombings in the 
capital Sunday.
    The violence increasingly appears to threaten nationwide elections 
planned for January, which are key to President Bush's hopes for 
reducing the number of U.S. troops, now 140,000, and making a graceful 
exit from Iraq.
    Some experts on Iraq say the best that can be hoped for now is 
continued chaos that falls short of a civil war.
    ``The overall prospects . . . are for a violent political future,'' 
said Jeffrey White, a former senior analyst with the Defense 
Intelligence Agency.
    Top officials in the Bush administration acknowledge that the 
insurgency is getting worse. But they point out that they had predicted 
an increase in violence as Iraq's January elections approached.
    The officials insist that the elections will go ahead. And, they 
say, the United States has no choice but to persevere as it builds up 
Iraq's own security forces to maintain order.
    ``Over time, you will see it being brought under control,'' 
Secretary of State Colin L. Powell said of the insurgency in a Sunday 
television interview.
    ``We said at the time of turnover that this is the time of maximum 
danger as the insurgents come after us,'' he said, referring to the 
handover of power to an interim Iraqi government in June.
    The insurgency appears to have gained strength since the handover.
    White, the former intelligence analyst who is now at the Washington 
Institute for Near East Policy, said his conservative estimate was that 
there were 100,000 Iraqis involved in the Sunni insurgency, including 
fighters, messengers, and people who provide logistical, housing and 
other assistance. He discounted estimates by senior U.S. military 
commanders that the Sunni resistance numbered about 5,000 fighters.
    Bush and interim Prime Minister Ayad Allawi could face a series of 
unpleasant choices in the weeks ahead.
    They can continue escalating attacks against rebel-held cities in 
the Sunni Triangle and against followers of Shiite cleric Muqtada al-
Sadr. But that is likely to bring more civilian casualties and more 
anger at the United States and Allawi's unelected government.
    Or they can press forward with elections in Iraq's relatively 
stable areas, which are predominantly Shiite and Kurdish. But that 
risks bringing to power an overtly religious Shiite government likely 
to be rejected by Iraq's Kurdish and Sunni Muslim minorities.
    In tacit recognition of the ugly realities, the Bush administration 
yesterday announced that it was asking Congress to shift almost $3.5 
billion from Iraqi reconstruction projects to improve security.
    The funds would be used to train more Iraqi police and security 
forces, boost oil production, reduce Iraq's debt, and prepare for the 
elections. The money would come from funds earmarked for the 
reconstruction of water, sewage and electricity services, although 
officials said there would be sufficient amounts left to continue those 
efforts.
    ``The security situation presents the most serious obstacle to 
reconstruction and economic and political development in Iraq,'' said 
Undersecretary of State Marc Grossman. A reassessment team led by U.S. 
Ambassador John Negroponte ``faced hard choices, but they decided that 
without a significant reallocation of resources to the security and 
law-enforcement sector, the short-term stability of Iraq would be 
compromised and the longer-term prospects for a free and democratic 
Iraq undermined.''
    Rep. David R. Obey of Wisconsin, the top Democrat on the House 
Appropriations Committee, said he was skeptical that shifting funds 
would help. ``I think Congress is being asked to put a Band-Aid on a 
bleeding wound,'' he said.
    In Baghdad, Allawi, who faces growing popular discontent because of 
the security situation, said Monday that his government had a security 
plan and said the situation would improve as quickly as October. He 
insisted Iraq would hold elections for an interim assembly in January.
    Counterinsurgency specialists say the Bush administration appears 
to be caught in a trap that has afflicted many foreign occupiers in 
centuries past: Too little military force allows rebels to flourish, 
but too much causes a popular backlash and increases grass-roots 
support for the insurgents.
    ``This is the classic contradiction of counterinsurgency,'' said 
Steven Metz of the U.S. Army War College in Carlisle, Pa. ``In the long 
term, winning the people matters more. But it may be that in the short 
term, you have to forgo that in order to crush the insurgents. Right 
now, we are trying to decide whether we have reached that point. In 
Vietnam, we waited too long. When we did make that decision in 1970, it 
was too late.''
    The White House, which faces a challenge from Democratic 
presidential nominee John Kerry on Iraq, has insisted it will follow 
the current course in the country and hold elections in January.
    For now, the U.S. strategy is to try to retake Sunni-dominated 
cities such as Fallujah that are under insurgents' control and that act 
as bases for attacks on U.S. forces and the Iraqis who support them.
    To retake the cities, U.S. military commanders have resorted to 
increasing use of air power, ordering strikes that have occasionally 
hit civilian targets--including an ambulance that was struck in 
Fallujah on Monday, according to Iraqi hospital officials.
    The linchpin to the U.S. strategy is the training and equipping of 
Iraqi security forces to take increasing responsibility.
    Secretary of Defense Donald H. Rumsfeld said yesterday the effort 
was making ``good progress,'' with 105,000 Iraqi security officers now 
trained and equipped, and an additional 50,000 due to complete the 
process by the end of the year.
    White said the spreading insurrections had forced the interim Iraqi 
regime and U.S.-led coalition onto the offensive before the fledgling 
Iraqi security forces were ready.
    ``They can arrest people,'' he said. ``Can they conduct offensive 
operations against the insurgents? That's at least months away, if not 
years away.''

    Senator Nelson I'll just read three paragraphs. ``The U.S. 
strategy to create a stable, democratic Iraq is in danger of 
failing, some current and former American analysts say, and the 
anti-American insurgency is growing larger, more sophisticated, 
and more violent.
    ``A wave of attacks across Iraq included the deadliest 
single bombing in Baghdad in 6 months yesterday, and at least 
seven bombings in the capital Sunday.''
    And I'll just conclude with this remaining paragraph, ``Top 
officials in the Bush administration acknowledge that the 
insurgency is getting worse.''
    I served in the military, and wore the uniform of this 
country during Vietnam. And that's getting awfully close to 
creating the conditions for failure as we had in Vietnam. And I 
don't want it to be that way. Because what's clearly in the 
interest of the United States is a stable Iraq that can govern 
itself.
    So I would first ask about the international effort. What 
is the administration's position to bring in the international 
community to be more involved, both with security, as well as 
with the financial burden? What is the administration's 
position?
    We have to do that. It seems to me that it is clearly self-
evident that we can make the case, particularly to Europe, that 
it's in their interest to have a stabilized Iraq. First of all, 
Iraq is a lot closer to them than it is to us. But look at the 
size of their Muslim population. There's about 10 percent of 
France's population that is Muslim. It would seem that a 
sincere prayer session with the leadership of European 
countries could convince them that they have to participate 
with us in this effort to stabilize Iraq.
    What are the plans of the administration to do that?
    Mr. Schlicher. Yes, sir. I think on the financial side, 
we--going through the different milestones on debt relief, I 
hope we've answered that part of your question, on the economic 
side.
    On the security side, I think there are two main pillars 
right now that are being worked. One is----
    Senator Nelson. Well, just--let me just----
    Mr. Schlicher. Yes, sir.
    Senator Nelson [continuing]. Stop you right there, because 
I don't think you've answered the question with regard to the 
spending of money on the economic side, by virtue of what 
Senator Hagel just quoted from the Washington Post today. So 
could you give us an answer of how you're going to remedy all 
of those things that he enumerated?
    Mr. Schlicher. Sir, I thought your question was about the 
international economic participation in Iraq.
    Senator Nelson. No. 1. No. 2, the economic expenditures, as 
enumerated by the Senator. And, No. 3, the security.
    Mr. Schlicher. OK. On the international economic 
participation between the debt-relief strategy that we're 
implementing, and using Tokyo to try to speed up the 
disbursements of other international commitments, we will do 
much better.
    On speeding up the disbursements that Senator Hagel 
commented on, this is what we, at State, have been intensely 
interested in and speeding up since we acquired responsibility 
for it on June 28. And although we're certainly, by no means, 
satisfied, we have more than doubled the disbursements since 
June 28. That just has to--we have to do much better, and we 
will.
    Senator Nelson. On both of these.
    Mr. Schlicher. Yes, sir.
    Senator Nelson. All right. Now, that's the debt question 
and economic spending. You said we will do better.
    Mr. Schlicher. We are doing better, and must do much 
better.
    Senator Nelson. Who is in charge?
    Mr. Schlicher. The Department of State is lead agency on 
these things.
    Senator Nelson. Is Secretary Powell in charge?
    Mr. Schlicher. He is--yes, sir, we are. We're in charge 
of----
    Senator Nelson. If we want to hold somebody accountable, 
who's in charge?
    Mr. Schlicher. The Secretary of State.
    Senator Nelson. OK. Now, you said, on the debt relief, that 
we will do better. That's what your words were there. How are 
you going to do better?
    Mr. Schlicher. We are going to do better through making our 
own commitment, I hope, with your approval, on our part of the 
debt relief, and levering what we have done on debt relief with 
the other creditor nations. We're going to do better by making 
sure that the upcoming World Bank-IMF meetings focus intensely 
on this issue and come up with the right result. We're going to 
do better by making sure that the Tokyo donors conference is a 
success. And those things are going to culminate in deep debt 
relief for Iraq by the end of the year.
    Senator Nelson. And how are you going to make that a 
success, since the last time, in the Madrid conference, they 
have blown you off?
    Mr. Bowab. Senator Nelson, the purpose of the October 
meeting is to get back together and look at the Madrid--what 
they promised in Madrid. Now, remember, the Madrid promise was 
a 4-year promise; it wasn't a 1-year. OK? It was a 4-year 
promise to do it. And what we're going to do is, we're going to 
get back with those donors in October, we're going to look at 
the balance sheet, and we're going to talk to them about where 
they stand on meeting their commitment.
    Senator Nelson. Well, what do you have in your hip pocket 
to convince them?
    Mr. Bowab. What we have is what they promised at the Madrid 
conference, as far as providing reconstruction funding to Iraq. 
That's what we have.
    Senator Nelson. And what's the basis for your optimism that 
they're going to come through, when all we've been done is been 
dissed thus far?
    Mr. Bowab. Well, I don't think, sir, we've been dissed, 
because at about 13 percent of what the Madrid conference came 
out with, which I think--we're probably just a little bit 
behind what they committed to do over a 4-year period. And we 
will push that effort in October with them.
    Senator Nelson. I don't think there is anybody up here that 
thinks that 13 percent is optimistic. But let me go back----
    Mr. Bowab. Sir, could I raise one more----
    Senator Nelson. Please.
    Mr. Bowab [continuing]. Point, because Senator Hagel----
    Senator Nelson. And we still have hanging the question of 
security. Please.
    Mr. Bowab. Senator Hagel raised it, and you have raised it. 
And you're right, we have to do better on disbursing funds out 
of the IRRF. And we will do better. We have a weekly meeting 
with Baghdad, and we're asking the tough questions on 
obligation and disbursements.
    The second thing is, I think we need to understand we're 
dealing with about five different types of funding sources in 
Iraq right now. And this is just one of them. So when we look 
and we say things aren't happening on the ground, a lot of 
things are happening on the ground. What we have--you remember 
IRRF-1, we had a $2.4 billion appropriation from the Congress 
for Iraq. We have the DOD Train and Equip Program operating in 
Iraq, a separate appropriation. We have the Commanders' 
Emergency Response Program operating in Iraq, a separate 
appropriation. And, of course, we have the Development Fund for 
Iraq that CPA had the ability to use those funds to do things 
in Iraq. So a lot of money--a lot of money--has been disbursed 
in Iraq. Not specifically out the $18.4, but we are fixated on 
the $18.4.
    Senator Biden brought up the point, and they do it quickly. 
Well, DOD is getting it right and doing it quickly, but they're 
not doing it out of the IRRF; they're doing it out of these 
other accounts I talked about that doesn't have the 
restrictions around how we can spend the IRRF money. As you 
remember, Congress put a lot of strings attached to procurement 
and to awards of these contracts that we have to live up to. 
And we are living up to them. It takes a little bit longer. But 
when DOD is on the ground putting the PVC pipes in the homes 
that you talked about, they are using a source of funds that's 
immediately available to them to do that. So they do have the 
flexibility to do it, they're doing great programs.
    On the employment side, the 286 that we're talking about, a 
lot of those programs that DOD will do, and a lot of those 
programs that USAID will do, will be putting PVC pipes in 
homes. Much of that money is dedicated to doing electricity, 
water, and sewage quickly and efficiently for the things that 
the--Senator Biden talked about.
    Senator Nelson. May we get the answer with regard to 
security?
    Mr. Schlicher. Yes, sir. On the security front, on 
international participation in security issues, I would say 
there are three distinct pillars that are being worked right 
now. I mentioned one earlier, in the dispatch of a joint DOD/
State team to several countries to assay their interest in 
serving as part of the U.N. protection force. Another big-
ticket item that's underway right now is defining the role of 
NATO in training of security forces for Iraq.
    For the last 5 weeks, I think it is, there's been a NATO 
training mission that has been in Baghdad and over Iraq. 
They've completed their initial training. And today there's a 
meeting in the North Atlantic Council in which they're going to 
chart out a future path. We're waiting to see what the results 
of that today are, but it should be important.
    The third pillar, I would call ``coalition maintenance,'' 
and that is making sure that the current coalition's members 
stay involved and productive on the ground in Iraq. And I would 
note that, for example, the South Koreans are going to be 
coming online soon, and be stationed in the northern part of 
Iraq. That's 3,000 people.
    So these are the three basic big areas of activity on 
international cooperation on the security front right now.
    Senator Nelson. Who made the decision to disband the Iraqi 
army?
    Mr. Schlicher. Sir, I think Ambassador Bremer, as CPA 
Administrator, did.
    Senator Nelson. Who counseled him to do that? Did Secretary 
Powell counsel him to do that?
    Mr. Schlicher. Sir, I don't know. I wasn't involved in 
Iraqi affairs at that point.
    Senator Nelson. Do you know, Mr. Bowab?
    Mr. Bowab. No, sir, I don't.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Nelson.
    Gentlemen, I have five very quick questions, which I'll ask 
quickly, and perhaps you can give concise responses.
    In Mr. Bowab's testimony, at the end, under legislative 
requirements, he said, ``To ensure that we can act quickly on 
these crucial changes, the administration will include these 
two legislative proposals as part of its overall package of 
legislative recommendations for inclusion in the fiscal year 
2005 continuing resolution.''
    I just want, as a matter of information, to know what steps 
have you taken to get these items. Are you working with the 
Appropriations Committee presently? Do they understand the 
requirements and the specifics that you have outlined here, in 
terms of the percentage of changes? And give me at least some 
assurance that this is likely to happen.
    Mr. Bowab. Let me start from the beginning and say that we 
have submitted the requested changes in legislation to the 
Office of Management and Budget. The Office of Management and 
Budget is putting together a list of legislative proposals that 
will come to the Congress soon.
    Do the appropriators understand it? Yes. We have briefed 
the appropriators on where we stand as to what we can and can't 
do, absent the legislation.
    The Chairman. But presumably the continuing resolution 
you're talking about must pass the Congress by September 30, 
which is 2 weeks away.
    Mr. Bowab. Yes, sir. We are aware of that, and so is the 
Office of Management and Budget.
    The Chairman. And hopefully the appropriators.
    Mr. Bowab. Yes, sir, we've briefed the appropriators.
    The Chairman. In both houses, and what have you.
    Mr. Bowab. Both houses, both the foreign ops and the 
defense appropriators.
    The Chairman. Now, let me just ask, under the contingency--
and this remains a longshot, but we hear these discussions in 
our caucuses--if the House of Representatives should pass a so-
called omnibus appropriation bill in which they wrap together 
the remainder of the bills, and send it over here, Senator 
Stevens has indicated he would be receptive, obviously, to 
having debate. Now, whether the Senate would pass the bill or 
not remains conjecture, I suspect. But under that contingency, 
are you covered also? If you got into an omnibus thing, are 
your provisions presumably in the House activity that's 
underway?
    Mr. Bowab. The only provision that is in the House 
activity--and it is in the House-passed bill--is debt relief 
for Iraq.
    The Chairman. Yes, I see.
    Mr. Bowab. The relief from the sector limitations is not in 
the House bill.
    The Chairman. Well, I would just suggest, take a look at 
that. That is a conceivable outcome, although a less likely one 
than a continuing resolution covering those appropriation bills 
that have not passed. But it would be a shame to lose on a 
technicality. This is the purpose of our trying to think 
through, to make sure you're making all the preparations that 
you need to make to get done the things that you have suggested 
today.
    The second thing I want to ask is, after the $1.8 billion 
for security, training, and equipment for the police and the 
national guard, border and security forces is allocated, do you 
forecast, or do the experts that are advising you forecast, 
that this is what is needed? In other words, is this another 
incremental step, or is there some analysis of how large the 
Iraqi forces need to be, how much equipment they need, so that 
this covers it? After the deliberations, has this been a 
question, an issue, that you and your colleagues have 
discussed?
    Mr. Bowab. We've certainly worked long and hard with 
General Casey and General Petraeus on this issue, and the plan 
that they have presented us is the plan that they feel, in 
their mind, will get us to where we need to get.
    Now, it's not a plan that's going to happen overnight. It 
involves a number of things, including training, equipping, and 
increasing the infrastructure, the capability to produce these 
people. That infrastructure doesn't exist right now, so it's, 
kind of, a total-package approach that we need in order to make 
this happen.
    The Chairman. But by ``total-package,'' that means that 
once you get that done, your judgment is that this is the kind 
of security that the Iraqi Government can utilize to make a 
move on its own.
    Mr. Bowab. Well, we did extensive consultations with the 
Iraqi Government on this plan, and we were both in agreement 
that this is where we needed to go.
    The Chairman. And this is the number of people they believe 
they need to provide security in their country, albeit after 
the training occurs, after the equipment arrives, and after the 
infrastructure that undergirds this is built?
    Mr. Bowab. These are the numbers, yes, that they have 
agreed to.
    The Chairman. Now, let me ask, with regard to the United 
Nations, yesterday Ashraf-Jehangir Qazi, the special 
representative of the Secretary General, stated to the U.N. 
that the U.N. will not run or administer the elections, but 
will assist the Iraqis in organizing their own elections.
    Clearly, the U.N. has security problems which may or may 
not have been addressed by the United States, the Iraqis, or 
others; and, clearly, they have not been eager to send 
personnel. The number of people that Senator Biden suggested 
that they are thinking about is a very small token in 
comparison to what might have been contemplated. What do you 
foresee will be the work of the U.N. if people do not arrive 
before November, which I understand is one of the planning 
admonitions they've given here? And, you know, physically, how 
do they fit into this preparation for the election? Do you have 
a thought on that, Mr. Schlicher?
    Mr. Schlicher. Yes, sir. I know that the U.N. has been 
working cheek-by-jowl, side-by-side, with the Iraqi Electoral 
Commission since the commission was stood up. I know that 
they're providing them training, they're providing them 
technical advice. They are planning together for elections that 
the Iraqis want to administer themselves, but for which the 
Iraqis want the imprimatur of the international community, 
especially as represented by the United Nations, although maybe 
not exclusively by the U.N. I would have to talk to the U.N. 
electoral people to see exactly how they might see their roles 
shifting in the coming months between now and the elections.
    The Chairman. Well, I hope you will do that, because this 
imprimatur is important, but----
    Mr. Schlicher. Yes, sir.
    The Chairman [continuing]. It could be pretty well 
stretched, given the size of the country, the number of polling 
places, and so forth. If there are very, very few U.N. 
personnel visible, the credibility both for the Iraqis and 
internationally could be suspect.
    Mr. Schlicher. Yes, sir. We are making sure that our allies 
in this enterprise at the U.N. know that we think it's 
exceptionally important that they have adequate levels of 
people there.
    The Chairman. And would you, just in an interim way, not 
every day or every week, but, regularly sir, report to the 
committee how this is going? This is very important, for the 
reasons you've suggested. The Iraqis feel this is important, in 
terms of the credibility of their elections.
    Mr. Schlicher. I'll stay in touch on it, sir.
    The Chairman. We would appreciate that.
    Various think tanks here in Washington have published 
reports offering advice. I cite one of them, CSIS. Experts 
there recommend that the United States aid focus on providing 
direct assistance to Iraqis, to the local and provincial 
governing councils to generate local ownership in the 
rebuilding process. It also suggests that we give funding 
priority to the Iraqi judiciary branch. We haven't discussed 
today how that might be evolving.
    In general, have you taken into consideration reports such 
as the CSIS report? I cite just a couple of items from what is 
a very comprehensive view. These people may not eventually have 
governing responsibility, but frequently many people writing 
these reports have been involved heavily in governmental 
responsibility in the past, and are very knowledgeable.
    Mr. Schlicher. Yes, sir. In fact, I try to read all of the 
think-tank productions on Iraq that I can, and articles in the 
Foreign Affairs quarterlies, to attend think-tank sessions on 
the issues. USIP, for example, has had several very useful ones 
on elections. And I think there will be more. So I think those 
things are all very useful in helping us to try to calibrate 
things properly, and particularly useful at asking outsiders 
questions to make sure we're not only talking to ourselves.
    The Chairman. We've talked a little bit today about the 
local and provincial governing councils. We haven't discussed 
the judiciary system. How is our assistance buttressing the 
strengths of these local councils and their judicial 
procedures?
    Mr. Schlicher. Oh, let me think where to start, for a 
second. First of all, one of the good CPA legacies that was 
left to Iraq was the principle of devolution of authority from 
the center to the outside. You know, that's something that 
Iraqis are still in the process of learning the merits of, 
frankly, because there's, I think, an inherent tension between 
the center and the outlying areas, especially in a period 
that's unsettled. So, on the one hand, you have to try to 
assert the authority of the central government; on the other 
hand, you have to try to keep alive the principle of 
decentralization.
    The Iraqis have been working amongst themselves to try to 
find what the right procedures of communication between the 
center and the provinces are. And it's been rather rocky.
    One thing that I think that our Iraqi friends are going to 
consider is, what sort of revenue generation will the outlying 
areas be able to have for themselves? What is the degree to 
which they will be able to make their own laws and regulations 
to govern their areas? Those things are still under definition 
right now. But I think it is very, very important that the 
Iraqis not lose sight of the value of decentralization as they 
move ahead.
    On judicial training, I know there's a lot going on. I'm 
sorry, I don't have the details of how much, but I'll be glad 
to get back to you with it.

    [The information referred to above was not available at the 
time this hearing was sent to press.]

    The Chairman. Well, that would be great; for completion of 
the record, that certainly would be important. The first part 
of what you've said, I think, is critically important and 
difficult in our own government. The whole idea of federalism, 
as it's evolved over two centuries, has been very, very 
important and, as you say, rocky from time to time.
    Clearly, one reason why there is some optimism on the part 
of many observers about Iraq is that some useful things are 
happening in these local level councils. There are people 
stepping forward, actually doing some governance that seems to 
have some equilibrium, even under the stresses that are 
involved there. We've not gotten today into what is happening 
with the Kurds in the north and so forth, but there appears to 
be a structure of government there, perhaps engendered by a 
period of protection by the United States and Operation 
Northern Watch, that offers some hope.
    Mr. Schlicher. Yes, sir. And your question's a good 
reminder that after we collectively meet the challenge of the 
elections, that then another challenge is immediately going to 
arise, and that's going to be the Iraqi constitutional 
process----
    The Chairman. Constitutional framework.
    Mr. Schlicher [continuing]. In which exactly these issues 
have to be hammered out.
    The Chairman. Would provisional reconstruction teams, like 
those that have been set up in Afghanistan, help out in Iraq, 
to get workers out of the Green Zone more easily, and to offer 
some protection and security? Has thought been given as to 
whether there are any parallels between the Afghanistan 
experience and reconstruction in Iraq?
    Mr. Schlicher. Yes, sir. I know a lot of thought's been 
given to it. And I would note, in fact, that our new director 
of IRMO is, in fact, Ambassador Bill Taylor, who was our 
coordinator for Iraq. So--excuse me, for Afghanistan--so I can 
guarantee you that he will have all of the good lessons he 
learned from the Afghan experience in his mind in his new job.
    PCO, which is the implementing arm for IRRF in the new 
mission, has sites all across Iraq at this point. I could get 
back to you with the exact number, but their aim is to have 
reach all over the country in order to have, you know, in the 
localities, the resources they need to do the projects in those 
localities.
    The Chairman. Well, please, if you could furnish for the 
record your best ideas about how many there are and what they 
are doing, that would be helpful, to supplement our confidence, 
at this point.
    Mr. Schlicher. Yes, sir, I'll get it to you.

    [The information referred to above was not available at the 
time this hearing was sent to press.]

    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    I have just really one question. But I wanted to go back to 
Mr. Bowab's response to Senator Nelson on how much money is 
being spent in Iraq.
    The issue--the question is really not whether we're 
spending enough money on Iraq. We're spending a lot of money in 
Iraq, and you're exactly right. The issue that we're talking 
about this morning, Mr. Bowab, is the $18.4 billion for 
economic development and jobs.
    Now, the chairman of the committee, in his opening 
statement this morning, talked about the military is not going 
to ultimately win Iraq. The military is a very important part 
of that. But there was a great phrase that many of you will 
remember, and we used it in Vietnam, ``winning the hearts and 
minds of the people.'' You don't win the hearts and minds of 
the people at the end of a barrel of a gun. You do that through 
the process that we started here in the Congress, appropriating 
$18.4 billion, the human dynamics, the quality of life, the 
improvement of their lives--jobs, economic development. That's 
what we're talking about. Not talking about how much money's 
been spent, or not enough. I don't know--you're right, I don't 
know, maybe you've got a calculation of how much we've spent 
there. Probably over $200 billion. We're spending more than $5 
billion a month. I don't know if anybody really understands how 
much we're spending. We're talking in our caucuses about more 
supplementals.
    But I don't want this subject to drift here from whether 
we're putting enough money in it. We're talking about something 
very specific in this hearing this morning, and that's what 
you're charged with doing.
    Now, I say, again, you didn't create this problem. You 
inherited this mess. So you're the ones up here. Maybe we ought 
to have a hearing--the inventors of this, have them come back 
up, all these smart guys that got us in there and said, ``Don't 
worry, Senator Hagel, you're nitpicking. We've got plans, we 
know where we're going.'' Maybe we bring them all up. Isn't a 
bad idea to start the new Congress, maybe next year, bring all 
the smart guys up that said how easy this was going to be and 
who reassured us not to worry.
    Now, with that said, let me ask this question. Regional 
initiatives--diplomatic, economic, security--we've really not 
touched on that today. We've talked about everything but that. 
What are we doing regarding the region, the partners, the other 
nations that are affected by what we're doing in Iraq and the 
outcome of Iraq?
    Mr. Schlicher. Yes, sir. Several things are underway right 
now. One thing, we're working with the Iraqis on setting up a 
meeting that will feature their neighbors, plus others in the 
international community, for, we hope, sometime in the fall, to 
show the support of the international community for the Iraqi 
Government, for the security efforts there, and for the 
election process, as well. The Iraqis have also been 
participating in their own group of just them and all of their 
neighbors. There have been six meetings, I think it is, to date 
of that group, and another one is scheduled, I think, for the 
first week of October.
    The Iraqi Foreign Minister has been on a regional tour 
quite recently, which has taken him, I think, at least to 
Jordan and to Cairo, where he's going to do some Arab League 
diplomacy. The Iraqi Interior Minister was in Damascus last 
week to discuss security issues and to discuss the return of 
Iraqi assets that are located in Syria. The Iraqi Deputy Prime 
Minister, I think in the last month it is now, has also made a 
trip to Damascus, and I think he made a trip to Iran, as well, 
but I would have to check and make sure that it's he who did 
that.
    So, you see, we're being active, the international 
community is being active, and, very pleasingly, the Iraqis 
themselves have been extremely active.
    We also expect that, in the upcoming UNGA, that there are 
going to be lots more opportunities for the Iraqi's bilateral 
diplomacy with other attendees and for multilateral diplomacy, 
as well.
    I would also add the NATO effort on training, which is 
largely a security thing, of course, as part of the diplomatic 
strategy, as well.
    Senator Hagel. Thank you.
    Gentlemen, thank you both. And give our thanks to your 
colleagues.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator Hagel.
    And we do thank our witnesses for your presence, your 
testimony, your forthcoming responses. We have asked for a lot 
of items for the record. I am hopeful that the text in the 
transcript will be helpful. You may have taken notes on that. 
We do want to have a very complete record of this hearing as 
another benchmark of our progress in this situation. 
Undoubtedly the committee will hold additional oversight 
hearings on these very subjects. These efforts are crucial to 
the success of the Iraqis and to our success in working with 
them.
    We thank you for your leadership, and the hearing is 
adjourned.
    [Whereupon, at 11:42 a.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


Responses of Ronald L. Schlicher to Additional Questions for the Record 
                 Submitted by Senator Richard G. Lugar

                reallocation of the irrf for debt relief
    Question 1. When were these loans made and by what USG entity?

    Answer. Two USG entities, the Department of Agriculture's Commodity 
Credit Corporation (CCC) and the Export-Import Bank (EXIM), carry all 
of Iraq's debt to the U.S. Government. CCC is far and away the largest 
creditor, with debt of about $3.8 billion. CCC had programs for Iraq in 
the 1980's to mid-1990. Iraq borrowed money from about 10 U.S. banks to 
purchase American agricultural products through a USDA program. In July 
1990, Iraq ceased making payments to U.S. banks for loans guaranteed 
under the GSM-102/GSM-103 program. An additional $36 million was lent 
specifically for dairy exports under the OGSM program. All of these 
programs were shut down on August 2, 1990, pursuant to Executive 
Orders: 12722 and 12723. As a result, CCC paid over 5,000 claims 
totaling just over $2.05 billion.
    EXIM's debt, including principal and late interest, is over $116 
million. EXIM's claims are for short-term insurance financing for goods 
shipped between August 1988 and July 1990. Items shipped covered a wide 
range of manufacturing goods, such as construction machinery, motor 
vehicle parts, surgical appliances and supplies, machine and metal 
tools, as well as goods related to pharmaceutical manufacture.

    Question 2. How much is the total Iraq debt held by the U.S. 
Government?

    Answer. The table below gives a breakdown of the principal and 
interest charges owed to the two U.S. agencies that carry Iraqi debt, 
as of September 30, 2004. Interest will continue to accrue on the 
claims until a bilateral debt restructuring agreement enters into 
effect with Iraq. U.S. and Iraqi authorities are in the process of 
reconciling these claims.


----------------------------------------------------------------------------------------------------------------
       Agency                  Principal             Projected past-due interest               Total
----------------------------------------------------------------------------------------------------------------
USDA                 $2,082,500,436.46              $1,700,828,106.72              $3,783,328,543.18
EXIM                 $   49,763,411.58              $   66,428,879.73              $  116,192,291.31
Total                $2,132,263,848.04              $1,767,256,986.45              $3,899,520,834.48
----------------------------------------------------------------------------------------------------------------


    Question 3. If this is full debt relief, why is it important to 
wipe it all clear now? Why not some lesser amount?

    Answer. Iraq faces an enormous and immediate reconstruction 
challenge. It will not be able to meet that challenge unless its 
massive external debt burden is significantly reduced in the very near 
term. For example, potential investors in Iraq will not be willing to 
risk new resources unless the debt is reduced and relations between 
Iraq and its creditors are regularized.
    G-8 leaders agreed at the Sea Island summit in June 2004 that debt 
reduction for Iraq was critical and should be agreed by the end of this 
year. Following the summit and subsequent discussions among creditors, 
considerable diplomatic momentum has been generated to pursue a debt 
reduction agreement this year. Delay would reduce the chances for a 
successful outcome.
    The exact amount of debt reduction remains under discussion among 
creditors. Given the enormity of the debt stock ($125 billion, 
including late interest) and Iraq's development challenge, the United 
States believes the vast majority should be forgiven. An analysis by 
the IMF confirms that lesser amounts of debt reduction would still 
leave Iraq with an unsustainable level of debt.

    Question 4. What are we asking/expect of other nations in terms of 
debt relief?

    Answer. Discussions among Paris Club creditors continue, and the 
details of terms under review remain sensitive. The Iraqi Interim 
Government (IIG) has requested reduction of the vast majority of its 
Paris Club debt. The USG supports the IIG request, has urged other 
creditors to support it, and has urged non-Paris Club creditors to 
extend comparable terms at the appropriate time.

    Question 5. What loss are we asking private creditors to take on 
the debt they hold?

    Answer. To promote burden-sharing, Paris Club debt restructuring 
agreements typically oblige the debtor to seek comparable treatment 
from its non-Paris Club creditors, including private creditors. An 
agreement with Iraq would be no exception.

    Question 6. Does it make economic sense to forgive the debt, rather 
than restructure it as some economists have argued? What would be the 
budget cost of restructuring? If the Iraqis began repayments on the 
current debt,: what would it be?

    Answer. The IMF's debt sustainability analysis has confirmed that a 
mere rescheduling of Iraq's debt would leave the country with an 
unsustainable and growing debt burden, thus hampering reconstruction 
and development. This would not make economic sense.
    Under current budget scoring methodology, there would be no 
associated budget cost for a debt restructuring (rescheduling).
    The debt reduction agreement to be negotiated with creditors will 
specify the level of near-term repayments, if any. Given the damage to 
the Iraqi economy caused by years of Saddam's misrule and the large 
reconstruction needs, Iraq's debt servicing capacity is very low.

    Question 7. Haven't arrears to the international financial 
institutions already been covered?

    Answer. Iraq cleared its arrears to the IMF ($81 million) on 
September 22, 2004. It is also taking steps to clear arrears ($100 
million) to the World Bank but has not completed this process.

    Question 8. Is this the best use for $360 million at this time? 
Will this bring us more security and stability in Iraq more so than 
foregone public works projects?

    Answer. U.S. law requires that funds be appropriated to cover the 
budget cost of reducing USG claims on a foreign government. Absent this 
appropriation (and authorization), the U.S. would not be able to 
participate in the U.S.-led multilateral effort to reduce Iraq's 
unsustainable debt burden. U.S. nonparticipation would likely threaten 
the entire exercise. In fact, this is a very sound use of $360 million, 
since this sum will potentially leverage many tens of billions of 
dollars in total debt reduction for Iraq. As noted above, debt relief 
is a precondition for reconstruction and development, which over time 
will promote security and stability in Iraq.

    Question 9. Do the Iraqis agree with this use of $360 million?

    Answer. Yes. The U.S. Embassy in Baghdad held extensive 
consultations with IIG officials on their proposals to re-allocate the 
IRRF, including the debt relief provision. The Iraqis understand our 
statutory requirement to appropriate funds for debt forgiveness, seek 
urgent debt relief from creditors, and are grateful for U.S. efforts in 
this respect.

    Question 10. Last Fall, Ambassador Bremer and Secretary Rumsfeld 
testified a number of times in relation to this supplemental and stated 
clearly that these IRRF funds would not be used to pay Saddam's debts. 
What has changed?

    Answer. Ambassador Bremer and Secretary Rumsfeld testified that 
none of the IRRF funds would be used to help Iraq repay debts to 
foreign creditors. This remains true. In fact, because this is a 
multilateral exercise, authorization to use IRRF funds to cover the 
U.S. budget cost of debt forgiveness will facilitate reduction of 
Iraq's debt payments to foreign creditors.

    Question 11. Please provide to the committee a detailed list of 
projects that are being deferred or canceled based on this shift in 
funds.

    Answer. Please see attached chart.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 12. I understand from your briefings to committee staff 
that in some cases you have obligated funds to some of the projects 
being canceled (signed contracts, mobilized people, etc.). Please 
provide an accounting of this. What would it cost to fully finance 
these contracts/projects or work orders?

    Answer. The $450 million identified for reallocation within the oil 
sector had previously been allocated to purchase refined products from 
the Defense Energy Support Center. The proposed reallocation would 
invest this money in infrastructure projects designed to help the IIG 
reach its production goal of 3 million bpd. Within the electricity 
sector, $126.55 million of the $1.075 billion identified for 
reallocation has been obligated. These funds were allocated to complete 
units 4 and 5 of the Baiji Power Plant.
    It is difficult to estimate the exact cost to fully finance these 
projects, as costs are so heavily influenced by the security situation 
and changing conditions on the ground.

    Question 13. As Mr. Schlicher said in testimony, ``We have not 
forgotten these worthwhile plans, and we believe that other donors, and 
the Iraqis themselves, will find money for them.'' If money comes along 
later, would you choose these same or similar projects?

    Answer. Should additional funding be made available at a later 
date, we would, of course, defer final judgment to the Iraqi 
Government, but our recommendation would be to fund the same or similar 
projects that are identified for cuts in the IRRF reallocation.

    Question 14. Has the Department deployed its own IG contingent to 
Iraq to look after the reconstruction spending? How many people area 
currently in country? How many are planned and what should we expect in 
the short term in the way of results?

    Answer. State/OIG's work relative to Iraq essentially dates from 
June 28, 2004, with the establishment of the embassy there. Two OIG 
representatives recently returned from Baghdad following 90-day 
assignments. One result of this deployment was an audit of the new 
embassy's cash-management situation and of the training that is being 
done to equip Iraqi employees to assume responsibilities for this 
function.
    Iraq-related OIG work in progress includes a review of off-site 
support for our mission in Iraq, a joint DOD/State assessment of the 
program to train Iraqi police (a program funded through the Department 
of State's Bureau of International Narcotics and Law Enforcement--INL), 
and an evaluation of life/safety measures at Embassy Baghdad. These 
projects will be completed over the next few months, funding 
permitting.
    A senior OIG representative will go to Iraq in October to examine 
with the embassy the priority and feasibility of other OIG work.

    Question 15. A June MOA between all of the relevant Inspectors 
General indicated Ambassador Negroponte would make a recommendation, by 
September as to the future of the IG functions for Iraqi 
Reconstruction. Could you provide a copy of his recommendation to the 
committee for the record?

    Answer. The MOA stipulated that the Inspectors General of State, 
DOD, USAID and CPA, in consultation with Ambassador Negroponte, make a 
recommendation to the Secretaries of State and Defense as to whether 
further administrative or legislative action should be pursued relative 
to the CPA/IG. OIG solicited the ambassador's views, but has not 
received a written response.

    Question 16. Training and Equipping Iraqi National Guard, Police 
and Border Enforcement:

  <bullet> How far out does your planning extend on all of these 
        issues?

    Answer. Our planning for the Iraqi Security Forces (ISF--Police, 
Civil Intervention Force, Emergency Response Unit, and Border 
Enforcement Police under the Ministry of the Interior and Iraqi 
National Guard under the; Ministry of Defense) is tied to meeting the 
objectives laid out by Ambassador Negroponte and Generals Casey and 
Petraeus in the IRRF reprogramming request. Our planning in this regard 
extends well into 2006.

    Question 17. Will the extra $1.8 billion for security training and 
equipment produce all the police, national guard, border and facility 
forces that the experts forecast are needed?

    Answer. General Petraeus' charter, when assuming the job in Iraq, 
was to conduct a ``bottom-up-review'' of the ISF and Iraqi military in 
consultation with Iraqi officials. That data was folded into the IRRF 
review that was recently completed. Based on the assessment of Embassy 
Baghdad and Generals Casey and Petraeus, we anticipate that the 
additional $1.8 billion will meet the objectives of the IRRF 
reprogramming in terms of the number of ISF personnel needed. However, 
the requirements of the ISF are constantly being monitored to ensure 
that we meet our objectives in Iraq. Ultimately, the responsibility for 
deciding what sufficient Iraqi security and law enforcement forces 
entails resides with the Iraqi Government. The U.S. will remain engaged 
to ensure that U.S. taxpayer dollars are well spent on training and 
equipping Iraqi security forces.

    Question 18. Do you take into account attrition and casualties?

    Answer. Yes. MNSTC-I has tried to purge the ISF of unfit or 
unqualified officers even as it attempts to recruit and train new ones. 
For example, to enhance the effectiveness of the Iraqi Police Service 
(IPS), we are working with the Ministry of Interior to remove unfit or 
unqualified individuals from the IPS. MNSTC-I's recruiting efforts also 
take into account recruiting replacements for ISF casualties, as well 
as to replace members of the ISF that fail to perform as expected in 
combat. MNSTC-I's training priority remains on turning out more 
qualified and effective members of the ISF.

    TRAINING AND EQUIPPING IRAQI NATIONAL GUARD, POLICE AND BORDER 
                              ENFORCEMENT

    Question 19. I have said before, and I think I hear it from you two 
today, we have to settle ourselves in for the long term, a marathon and 
not a sprint.

  <bullet> Does the Department of State which traditionally has carried 
        out police training, civil society and law enforcement 
        assistance have the internal resources, particularly trained 
        personnel, to implement the large increases in these areas?

    Answer. Yes. The State Department, Bureau for International 
Narcotics and Law Enforcement Affairs (INL) has recently acquired 
additional staff with extensive experience in international criminal 
justice development and training generally and in Iraq specifically. 
Additionally, INL has reorganized to give greater emphasis and 
resources to international civilian police training and operations 
including those in Iraq and Afghanistan.

    Question 20. How is Iraq assistance different from other law 
enforcement programs? Was the type of assistance required not foreseen 
until this review?

    Answer. The principal differences between the Iraq program and 
others designed and operated by INL are:

          1. The Iraq police program is the largest effort of its kind 
        ever undertaken. While the components are similar to other 
        post-conflict police programs, the sheer numbers of trainers, 
        advisors and Iraqis far exceeds any previous training effort;

          2. Lack of an Iraqi police organizational and physical 
        infrastructure after the conclusion of principal military 
        operations against Saddam's regime thus necessitating a 
        wholesale development effort;

          3. The lead role of the U.S. Department of Defense in 
        civilian police development and training; and

          4. The high level of ambient violence and security problems 
        which have prevented the free movement of trainers and mentors 
        throughout the country and have delayed the start of a formal 
        police field training program.

    Question 21. Has there been progress in equipping security 
personnel who have already been trained? General Petraeus' staff called 
equipping these forces ``the long pole in the tent.'' Is this process 
still delayed?

    Answer. MNSTC-I has made progress in equipping the ISF. MNSTC-I 
currently has trained close to 100,000 trained ISF members. The 
equipment for those forces is flowing into Iraq in large quantities, 
particularly in recent months. We will shortly begin to put out for bid 
additional contracts to equip the additional ISF units as requested by 
the IRRF reprogramming. While the equipment required for the original 
ISF numbers, has been ordered with deliveries ongoing, the equipment 
required for the expanded ISF has not yet been ordered. Priority 
remains in expediting equipping these units with communications, body 
armor, weapons, and vehicles.

    Question 22. We are only 4\1/2\ months from planned elections. Are 
you comfortable with the preparations that have been done for elections 
to this point? Are we getting the assistance from the UN that we expect 
and need?

    Answer. The UN has been instrumental in Iraq's political 
transition. The UN led the process to put together the Independent 
Electoral Commission of Iraq (IECI), as well as the Interim Iraqi 
Government and August's National Conference. Currently there are three 
substantive electoral experts in Iraq. The UN is working to recruit 
individuals to fill five additional positions by the end of the month.
    UN elections experts in Baghdad have advised us that preparations 
for the elections are on schedule, although the logistical and security 
challenges are significant.
    We believe--and have urged--that the UN should increase the size of 
its team and speed up deployment in order to assist the IECI conduct 
elections by January 31, 2005. Meanwhile, we have allocated $40 million 
from USAID to IFES (formerly called the International Foundation for 
Election Systems), an NGO specializing in elections assistance, to 
assist the IECI and the UN in the logistical preparations for the 
elections.

    Question 23. From a September 3rd report from the UNSYG and follow-
up conversations with UN officials, I understand that the UN may ``not 
have sufficient security and personnel in place until sometime in 
November. I do not gain a great sense of urgency on their part . . . 
will that be time enough?

    Answer. Security concerns have impeded the UN deployment to Iraq. 
The UN has established a policy that limits the number international UN 
personnel in Iraq to 35 at any one time. Currently there are about 30 
international UN personnel in Iraq, including administrative, 
electoral, security, humanitarian, and support staff for Special 
Representative of the Secretary General Qazi. There are now three 
substantive electoral experts in Iraq. The UN is working to recruit 
individuals to fill five additional positions by the end of the month.
    Provisional UN staffing plans envision 40-45 international 
personnel in Baghdad, 26 in Basrah, and 26 in Irbil by November; 
however, the UN Iraq Policy Group is reluctant to recommend that that 
UN Secretary General Kofi Annan lift the 35-person ceiling for security 
reasons.
    We expect that the first UN Personal Security Detail (PSD) team, 
which is from Fiji, will be deployed to Baghdad by the end of October. 
U.S forces will continue to provide PSDs for high-ranking UN officials 
in the interim. We continue to push for an earlier deployment of these 
PSDs. We hope the first UN guard units deployed to protect residences 
and offices--also from Fiji--will also be in Iraq by the end of 
October, but they are not needed until the UN takes possession of 
independent facilities. Work continues to rehabilitate UN facilities in 
Baghdad to ensure that they meet UN security requirements.
    Despite the logistical and security challenges, the UN has advised 
us that election preparations are on schedule. We are determined to 
assist the UN and the Independent Electoral Commission of Iraq in 
holding elections by January 31, 2005.

    Question 24. What further does the United States need to do to help 
the Iraqis organize elections on time? In short, what is our back-up 
plan?

    Answer. We have allocated $40 million to IFES (formerly the 
International Foundation for Elections Systems) to assist the 
Independent Electoral Commission of Iraq (IECI) and the UN with 
logistical preparations and voter education for the elections. Over the 
next four months, we will continue to provide this type of assistance, 
while consulting with the IECI, the UN, and the Iraqi Interim 
Government (IIG) on other ways the USG can help ensure elections are 
held on schedule. Furthermore, the Multinational Forces-Iraq (MNF-I) is 
working with the IIG on security preparations for the elections.
    Our goal is to help the Iraqis hold elections by the end of January 
2005. Both Prime Minister Allawi and the IECI are committed to that 
timetable, and we intend to do all we can to ensure it is met.

    Question 25. What are we doing to combat rumors that elections may 
not take place in January?

    Answer. The Iraqi Interim Government has made clear its commitment 
to hold elections in Iraq in January 2005; the UN, the Independent 
Electoral Commission of Iraq (IECI), and the U.S. Government share this 
conviction. The U.S. is working to ensure that the IECI and the UN have 
enough resources and support to proceed with elections preparations. We 
are providing $40 million through IFES (formerly the International 
Foundation for Elections Systems) to assist the IECI and UN with 
logistical preparations, and Multinational Forces-Iraq are working with 
the Iraqi Interim Government (IIG) on security plans for the elections. 
The work that the IECI is carrying out--such as a voter registration 
effort that will begin in a few weeks--will demonstrate to Iraqis that 
elections will be held according to schedule.
    We are also supporting a ``democracy advertising campaign'' that 
the IECI is planning to launch to inform Iraqis of the elections 
process and encourage their participation. Through this campaign, which 
includes television, radio, and print (newspapers and posters 
advertising), public awareness of the elections timetable should 
spread, helping to combat rumors of a delay.

    Question 26. I hear sweeping generalizations about the composition 
of the insurgency that sound like the composition of the looters from 
last spring: a criminal element, former regime elements, and 
terrorists. Can you describe the insurgency more specifically and how 
it has evolved?

    Answer. There is no one insurgency. There are several different 
groups of insurgents. Some insurgents are former regime and regime 
military elements that seem to hope that through their violence they 
can derail progress toward democracy and re-install a regime much like 
that of the former Ba'ath dictatorship. Others are groups, such as the 
one loyal to Muqtada al-Sadr, that use violence to gain regional or 
local power. Some of these groups may appeal to Iraqi nationalists who 
fear that the U.S. intends to remain in occupation of Iraq, or Iraqis 
fighting for more personal reasons, including avenging the deaths of 
friends and family. Religious extremists, many from outside of Iraq, 
form a third group, and would likely attack U.S. or friendly interests 
regardless of our activities in Iraq. All of these groups are 
reinforced by criminal elements resorting to violence for money. While 
there are indications of occasional or transactional cooperation 
between several of these elements, they in no sense represent a 
monolithic insurgency, despite having certain common points on their 
individual agendas.
    The intelligence community and the Department of Defense are well 
placed to provide more specifics on the insurgency and terrorist 
groups, as well as their evolution.

    Question 27. The security situation has affected the presence and 
freedom of movement of NGOs on the ground. Kidnapings and murders have 
shocked the world. What efforts are, there to provide assistance with 
security? Are those under contract responsible for their own security? 
Do you see a significant decline in NGO participation in the 
reconstruction of Iraq?

    Answer. Generally, companies working in Iraq under contract with 
the USG (and their subcontractors) are required to provide for their 
own protection. MNF-I, however, provides contractors threat information 
and, when necessary and available, security assistance to contractors 
which come under attack or we believe are being specifically targeted.
    We have seen anecdotal reporting that some international NGOs have, 
withdrawn from Iraq or limited their presence in country due to 
security concerns. However, many international NGOs remain active 
across the country in the humanitarian, educational, human rights, 
democratization and reconstruction efforts.
    The Department of Defense may be able to provide you with more 
information.

    Question 28. Describe Ayatollah al-Sistani's role in the recent 
Najaf truce. How are our relationships with him and his organization? 
Have he and PM Allawi formed an alliance?

    Answer. Ayatollah al-Sistani supported for the Iraqi Interim 
Government's demand that the insurgent forces leave the Imam Ali shrine 
in Najaf. His efforts further underscored the illegitimacy of the 
insurgents' seizure of the shrine and their violent activities.
    The United States continues to have contacts with a wide variety, 
of Iraqis, including some close to Ayatollah al-Sistani.
    Ayatollah al-Sistani and Prime Minister Allawi, like a large number 
of Iraqi figures, have expressed their firm support for an independent, 
unified, peaceful, and democratic Iraq. However, I would not speculate 
on whether Ayatollah al-Sistani and Prime Minister Allawi have formed 
an ``alliance.''

    Question 29. Has the situation in the Sunni triangle improved in 
any appreciable fashion? What are going to be the keys to cracking that 
problem? What has happened of late in Ramadi and Samarra?

    Answer. Prime Minister Allawi has urged all Iraqis to join the 
political process, reaching out in particular to particular areas and 
cities with disaffected constituencies, notably in Samarra and in al-
Albar governorate. He has, at the same time, demonstrated a firm 
resolve against armed groups that are continuing to terrorize these 
areas and using violence to try to derail progress toward democracy.
    In Najaf, Iraqi and Coalition forces fought side by side against 
insurgents, creating the conditions that allowed for a peaceful 
resolution to the standoff. Such cooperation by security forces, 
combined with a robust political outreach and a follow-up with stepped 
up reconstruction efforts, will be necessary in other communities beset 
by violence, including those in Sunni areas. As Secretary Powell has 
said, our major effort for the next several months must be to recover 
those cities inside predominantly Sunni areas in which government 
control is inadequate, including Samarra and Ramadi.

    Question 30. Can you comment on reports that Allawi's support may 
be waning? Is it simply exasperation over a worsening security 
situation?

    Answer. There is no clear evidence that support for Prime Minister 
Allawi is waning. The security situation in Iraqi is a challenge, but 
Prime Minister Allawi has been firm and committed in his efforts to 
meet this challenge.

    Question 31. Is it true that Allawi is relying heavily on former 
Ba'athists to run the country? It appears as if the Interior Ministry 
in particular has seen a large influx of former Ba'athists, many of 
whom are known publicly for their roles in Saddam's government and are 
generally despised. Can you provide some information on this?

    Answer. There has been no large influx of Ba'athists into the Iraqi 
Interim Government. The provisions of the de-Ba'athification order 
still apply in Iraq and it would be illegal for any high-ranking 
Ba'athists to take up senior positions in government. This applies to 
all Ministries, including the Ministry of Interior.
    Some amendments have been made to the implementation of the de-
Ba'athification order, but these were aimed solely at enabling useful 
public servants, like teachers and doctors, who had no criminal 
background and were not in the most senior ranks of the party, from 
returning to their jobs and serving the Iraqi people.

    Question 32. What became of Saddam's old police chiefs? Did they 
suffer the same fate as senior military officers?

    Answer. Unlike the Iraqi Armed Forces, the Iraqi Police Force was 
not dissolved during the Coalition Provisional Authority period. Other 
than in accordance with the policy on de-Ba'athification, there was no 
systematic policy of dismissing senior police officers.
    In practice, many police chiefs have been relieved of their 
positions since the end of the war. But these dismissals were most 
often made after consultations with local councils, where the police 
chief was deemed as being incompetent, unpopular or corrupt.

    Question 33. A credible and active judiciary will be key to 
establishing the rule of law, providing for stability in all civil 
sectors and cracking the insurgency. We all followed the initial steps 
in the Saddam trial and I am aware that some of these officials have 
undergone training with USIP here in the U.S., but could you provide 
for the record a thorough update as to their training and activities to 
date?

    Answer. The Department of State's Office of International Narcotics 
and Law Enforcement Affairs (INL) has been working with the Department 
of Justice's Office of Overseas Prosecutorial Development, Training and 
Assistance to provide legal advisors to assist with judicial training 
in the Iraqi Interim Government (IIG). The goal of the program is to 
help establish the rule of law in Iraq and build the fledgling 
independent court system in Iraq. Since June 2003 through the present, 
these activities have included:

  <bullet> Vetting the judiciary through the Judicial Review Committee 
        (a CPA-constituted body to vet former judges and examine 
        potential new judges for suitability to serve in the new 
        independent judicial system) to remove incompetent, corrupt and 
        former senior Ba'athist Party judges. More than 20 percent of 
        860 reviewed judges were removed because of corruption;

  <bullet> Conducting 6-week training seminars for 175 judges (150 from 
        Baghdad and 25 from outlying areas);

  <bullet> Establishing and maintaining liaison with the Court of 
        Cassation and Supreme Court to encourage independence and 
        adherence to the rule of law;

  <bullet> Maintaining daily liaison with Central Criminal Court of 
        Iraq through an advisor that sits at the CCCI, and provides 
        technical guidance and input as cases are being tried, 
        including helping answer technical and procedural questions and 
        furnish suggestions regarding case processing and adjudication;

  <bullet> Providing legal instruction and mentoring to judicial 
        investigator candidates; and

  <bullet> Mentoring judges in 16 Baghdad area courts to assist in 
        coordination with police.

    Additionally, as security permits, OPDAT plans to extend its, 
activities to regional hubs to further provide above training and 
mentoring throughout Iraq.
    Finally, once the Iraqi Special Tribunal has been fully 
constituted, it will be provided specialized training to ensure the 
trial of Saddam Hussein and other high value detainees are tried in an 
open and transparent process that follows the rule of law.

    Question 34. How much of the $13 billion pledged at the Madrid 
Donors' Conference last years has been received? I understand there's 
another conference planned for October in Tokyo. What are our 
expectations/goals for this conference?

    Answer. Of the $13.5 billion pledged at Madrid over four years, the 
World Bank and IMF pledged over $5.5 billion in lending and other donor 
governments pledged $8 billion. The World Bank and IMF are now in 
discussions with the IIG on their interest in accessing their lending 
programs. Of the $8 billion pledged by other donors over 2004-2007, our 
estimates are that over $1.3 billion has been disbursed so far.
    The third meeting of the Donors' Committee of the International 
Reconstruction Fund Facility for Iraq (IRFFI)--the UN and World Bank 
trust funds--will be held in Tokyo on October 13-14, 2004 at the 
invitation of Japan as host and as chair of the Facility's Donors' 
Committee.
    Our key objectives for the meeting are to provide the new sovereign 
Iraqi Interim Government the opportunity to articulate Iraq's 
reconstruction priorities, and to review the progress to date on 
disbursements and project implementation by donors and by the the 
United Nations and World Bank trust funds that comprise the IRFFI.

    Question 35. Over the past two months, PM Allawi has made visits to 
Iraq's neighbors, including Syria, Jordan, Egypt, Lebanon, Saudi Arabia 
and Kuwait to request help. What has resulted from those meetings?

    Answer. Prime Minister Allawi's trips to neighboring capitals were 
aimed primarily at securing regional support for Iraq's progression to 
full democracy and to encourage these countries to fulfill their 
obligations as laid out in UNSCR 1546.
    Prime Minister Allawi appears to have achieved real progress toward 
these objectives. He hastened the normalization of relations with 
Kuwait, made progress with Jordan regarding the training of Iraqi 
security forces, and made clear to Syria how it could live up to its 
commitments on border security and ending support for insurgents.
    Through his regional trips, Prime Minister Allawi also set the 
stage for the international conference that will take place this fall. 
His bilateral visits serve as important markers in the normalization of 
post-war Iraq's relations in the region, and lay the basis for the 
Iraqi Interim Government working with its neighbors and other 
participants to set an agenda for the conference.

    Question 36. We have addressed the subject of PD at great length in 
this committee. Let me raise for a moment the now well-quoted survey 
done in March by the Pew Center. It found, for example, that 70 percent 
of Jordanians believe suicide bombings against Americans in Iraq are 
justifiable and only 8 percent of Pakistanis believe Iraqis will be 
better off with Saddam gone--and Jordan and the Pakistanis are our 
allies. Further, a recent State Department poll, completed before the 
flare-up in Najaf, indicated that while the interim government still 
retained popularity as of mid-July, security remained the number one 
concern of Iraqis. And, disturbingly, 40% of Iraqis viewed attacks 
against U.S. and Coalition troops as ``more helpful than harmful'' to 
Iraq's development. Please provide a comprehensive overview of the 
various Coalition and U.S. PD programs in place. Can you measure their 
effectiveness? What else is planned?

    Answer. The Department recognizes that Iraq represents possibly the 
most challenging public diplomacy environment in which we have 
operated. Polling information indicates that many Iraqis do not support 
the continued presence of U.S. and Coalition forces in Iraq. 
Additionally, many Iraqis have indicated that they would feel more 
secure in Iraq if U.S. and Coalition forces were to leave the country, 
even though the U.S. presence in Iraq seeks to achieve stability for 
the Iraqi people. Insightful and sensational reporting by several pan-
Arab media outlets likely serves to reinforce these anti-American 
views.
    Within this challenging operating environment, and in order to 
support U.S. objectives for the establishment of a stable, secure and 
prosperous Iraq, the Department, in cooperation with USAID, the BBG, 
DOD, our Coalition partners, has implemented a comprehensive, 
integrated public diplomacy program in Iraq. The Department's public 
diplomacy activities in Iraq stress the serious U.S. commitment to 
assisting the Iraqi Interim Government (IIG) and the Iraqi people in 
achieving security within Iraq, rebuilding their civil society, and 
reconstructing their economy and infrastructure as a means toward 
achieving these goals. Specific public diplomacy objectives of the 
Department include:

  <bullet> Improving the effectiveness of our communications with the 
        Iraqi public.

  <bullet> Countering anti-American/Coalition messages from insurgents 
        and hostile media reporting in the region.

  <bullet> Enhancing and supporting the communications capabilities of 
        the IIG, Iraqi Ministries, the Iraqi Interim National Council 
        and the Independent Electoral Commission of Iraq (IECI) to 
        improve the perceived legitimacy of these bodies by the Iraqi 
        people.

  <bullet> Supporting the Iraqi political process, including providing 
        media support and training for the upcoming elections.

  <bullet> Supporting the growth of an independent, responsible and 
        free Iraqi media.

  <bullet> Promoting educational, professional and cultural linkages 
        and exchanges between Iraqis and Americans.

    To support the U.S. Government's public diplomacy efforts in Iraq, 
Ambassador Negroponte has assembled one of the Department's most senior 
and talented Country Teams. Within the Embassy, the Public Affairs 
Section, in cooperation with the NSC, MNF-I, DOD, USAID, our Coalition 
partners and other foreign affairs agencies, coordinates the 
Department's day-to-day public diplomacy strategy in Iraq. Furthermore, 
the Embassy and MNF-I work together on a daily basis to ensure that 
Iraqis understand that counter-insurgency and security operations are 
aimed at eliminating terrorists and insurgents, and are not targeting 
Iraqis working toward stability, and participating in the political 
process.
    Over the past year, the Department, USAID, DOD, MNF-I and the BBG 
have succeeded in furthering public diplomacy objectives in Iraq 
through the successful implementation of a range of programs. In fact, 
the Department alone has spent $6.75M thus far during FY04 on public 
diplomacy programming in Iraq. Examples of key U.S. Government public 
diplomacy initiatives in Iraq that have attempted to enhance the 
visibility, involvement and commitment of the United States to the 
stability and improvement of life for the Iraqi people include:

  <bullet> The Embassy has provided extensive media and public affairs 
        support throughout the Iraqi Government to ensure that their 
        messages reach the Iraqi people.

  <bullet> The first 22 Iraqi Fulbrighters were recruited and arrived 
        in the United States following a 14-year hiatus to start their 
        studies at universities throughout the United States.

  <bullet> The launch of a range of civil society International Visitor 
        Programs, bringing Iraqis to the U.S. to gain critical insight 
        into NGO management, journalism and the media, and elementary 
        and secondary education.

  <bullet> The production and distribution of the 23-part ``Principles 
        of Democracy'' papers throughout Iraq, as well as the 
        distribution of over 40,000 copies of Hi Magazine.

  <bullet> The development and launch of the Embassy Baghdad Web site, 
        which provides up-to-date information on U.S. activities and 
        successes in Iraq in both English and Arabic.

  <bullet> Providing a range of logistics and training support to 
        Iraq's Summer Olympics and Paralympics athletes to enable them 
        to represent Iraq on the world stage.

  <bullet> Substantive support has been provided to shore up the 
        infrastructure of the Iraqi National Museum, protect 
        archeological sites and provide conservation training for Iraqi 
        National Library and National Museum curatorial staffs.

  <bullet> The BBG launched Radio Sawa and Alhurra, two new services 
        that provide Iraqis with round-the-clock news, information and 
        cultural programs to counter the anti-American reporting in the 
        pan-Arab media that frequently distorts U.S. activities and 
        objectives in Iraq.

  <bullet> To facilitate the educational ambitions of the Iraqi people, 
        USAID has distributed over 2.4 million secondary and primary 
        teachers and student kits, which included basic supply items 
        such as: 159,005 student desks, 26,437 teacher desks, 59,940 
        teacher chairs, 26,050 metal cabinets, 61,500 chalkboards, and 
        58,500 teacher kits.


    Measurement of the effectiveness of public diplomacy programs in 
Iraq is a difficult undertaking. The Department's Bureau of 
Intelligence and Research (INR) does, however, maintain a robust 
polling capability in Iraq, which seeks to ascertain the opinions of a 
broad cross section of Iraqi society on a range of issues of importance 
to the U.S. Government. The INR polling program provides the Department 
and other foreign affairs agencies and decision makers across the 
government with actionable information that is used to shape our public 
diplomacy tactics in Iraq to address shifting Iraqi attitudes. In 
addition to State INR polling, the International Republican Institute 
also conducts U.S. Government funded research on civic life in Iraq, 
Iraqi views on democracy, and the upcoming elections. All of this 
research, in the aggregate, permits the U.S. Government to assess the 
effectiveness of reconstruction and democratization programs in Iraq, 
with improvements leading to positive impressions of the United States 
by the Iraqis, and deficiencies resulting in the identification of 
concerns and lack of support for the United States from the Iraqi 
people.
    In addition to our national polling initiatives, the Department is 
also going to great lengths to evaluate and measure the effectiveness 
of our cultural and exchange programs, which represent one of our more 
visible efforts aimed at building understanding between the people of 
Iraq and the United States. The Bureau of Educational and Cultural 
Affairs (ECA), which manages a range of exchange programs, utilizes 
independent, external professional evaluators to assess the outcomes of 
exchange programs. These outcomes include the ability to measure 
changes in attitudes, knowledge, skills, and behavior. ECA's mandate is 
to increase mutual understanding and build trust through exchange 
activity. Data is normally collected through a combination of methods, 
including paper surveys, on-line surveys, and focus groups.
    Two examples of evaluation efforts capable of measuring the 
effectiveness of our exchange programs in Iraq include:

  <bullet> ECA's Partnerships for Learning Youth Exchange and Study 
        (YES) Program: Recent measurements of the effectiveness of the 
        YES Program with students from predominantly Muslim countries 
        enabled the Department to determine that YES participants a) 
        were extremely satisfied with the program, b) gained a more 
        balanced view of the U.S. and learned to view their own 
        countries with new eyes, c) felt empowered and learned a wide 
        range of life skills, and d) made important relationships with 
        their American hosts and believed that these relationships will 
        continue. Students from Iraq have just arrived in the United 
        States as part of the second wave of PLUS. We will be able to 
        report on their experiences at the end of this academic year.

  <bullet> Fulbright Program: There are currently 22 Fulbrighters from 
        Iraq studying and conducting research in the United States. 
        Results from the Evaluation of the Visiting Scholar and 
        Visiting Student Programs show that regardless of which country 
        scholars hail, the Fulbright experience is transformative both 
        personally and professionally. Our ability to measure their 
        experience has indicated that Fulbrighters actively share what 
        they learned during their Fulbright experience with their home 
        communities. Most importantly for the prospect of world peace, 
        the international relationships that Fulbrighters forge during 
        their programs with colleagues and friends are enduring.


    Building on ECA's success in measurement and evaluation, we are 
expanding these efforts to other parts of the public diplomacy family. 
The Under Secretary for Public Diplomacy and Public Affairs has 
established the Office of Policy, Planning and Resources to coordinate 
public diplomacy activities, resources and evaluation. The Office 
recently created the Public Diplomacy Evaluation Council, an inter-
bureau organization that will coordinate the measurement of public 
diplomacy programs and initiatives. This Council will continue to work 
on the assessment of the effectiveness of continuous improvements in 
our ability to influence our standing with the Iraqi people and 
overcome the objections of many Iraqis to our continued presence in 
their country.
    During the coming fiscal year, the Department will continue to 
build upon the gains we have achieved to date, and address the need to 
expand our ability to communicate and interact with the Iraqi people. 
For instance, it is our intention to continue to enhance our ability to 
support the upcoming elections scheduled for January 2005, bolster the 
ongoing emergence of a free and responsible Iraqi media, and expand 
upon the critical exchange programs which link Iraqis with Americans 
and bridge the gap between our respective societies.

    Question 37. Polls suggest the Iraqi people are optimistic. 
Returning Operation Iraqi Freedom veterans report a positive reception 
among most Iraqis, saying the news media have failed to get the story 
right. This conflicts with recent ICG and CSIS reports that say we are 
failing more than succeeding 18-months into this mission. How can we 
measure this and what is your view?

    Answer. The Department believes that, while significant challenges 
lie ahead in bringing stability, security and prosperity to the Iraqi 
people, our initiatives are making a difference in improving the lives 
of the Iraqi people. One of the challenges in assessing the true 
situation in Iraq lies with the way in which data are gathered, 
extrapolated and interpreted on Iraq by various organizations. As you 
indicated, the Iraqi people, while acknowledging a range of serious 
concerns, are nonetheless optimistic that steps taken by the Coalition 
and Iraqi Interim Government are likely to lead to future improvements 
in their lives.
    The dangerous security environment in Iraq has prevented many of 
the positive stories in Iraq from reaching the American people and 
international audiences. Journalists have been the target of kidnaping 
attempts by insurgents within Iraq, and the ability of journalists to 
travel freely throughout Iraq is hampered by the need to utilize large 
personal security details to protect journalists. That said, many 
positive stories have reached both American and international 
audiences. Although some stories continue to focus on the perceived 
shortcomings of the activities of the United States and our Coalition 
partners, as well as the security issues in Iraq, other journalists 
have focused on the many positive personal and political freedoms that 
the liberation of the Iraqi people has brought.
    Measuring the perceptions of the Iraqi people regarding the actions 
of the United States and our Coalition partners in Iraq is a difficult 
undertaking; however, we've made significant advancement in this area. 
The Department's Bureau of Intelligence and Research (INR) maintains a 
robust polling capability in Iraq, which seeks to ascertain the 
opinions of a broad-cross section of Iraqi society on a range of issues 
important to the U.S. Government. The INR polling program provides the 
Department and other foreign affairs agencies and decision makers 
across the government with actionable information that is used to shape 
our public diplomacy objectives and strategy in Iraq to address 
shifting Iraqi attitudes. In addition to State INR polling, the 
International Republican Institute also conducts U.S. Government funded 
research on civic life in Iraq, Iraqi views on democracy and the 
upcoming elections. All of this research, in the aggregate, permits, 
the U.S. Government to assess the effectiveness of reconstruction and 
democratization programs in Iraq, with improvements leading to positive 
impressions of the United States by the Iraqis, and deficiencies 
resulting in the identification of concerns and lack of support for the 
United States from the Iraqi people.
    Building on INR's success in measurement and evaluation of Iraqi 
opinions and perceptions of United States involvement in Iraq, we are 
expanding these efforts to other parts of the public diplomacy family. 
The Under Secretary for Public Diplomacy and Public Affairs has 
established the Office of Policy, Planning and Resources to coordinate 
public diplomacy activities, resources, and evaluation. The Office 
recently created the Public Diplomacy Evaluation Council, an inter-
bureau organization that will coordinate the measurement of public 
diplomacy programs and initiatives. This Council will continue to work 
on the assessment of the effectiveness of the U.S. Government's public 
diplomacy initiatives in Iraq, leading to continuous improvements in 
our ability to influence our standing with the Iraqi people and 
overcome the objections of many Iraqis to our continued presence in 
their country.

    Question 38. CPA was routinely under-staffed by 30% or more. Post-
conflict planning reports note that despite individual dedication and 
desire, in many cases, we did not have our ``A-team'' on the ground. I 
understand that by month's end, the Embassy will have 90% of the 
necessary State Department personnel onboard, a notable mark. How are 
other USG agencies coming along in staffing the mission?

    Answer. Of the 141 State employees, 130 (92%) will be in Baghdad by 
the end of October. State staff is also augmented by temporary duty 
personnel. Agriculture, Commerce, Labor, and Transportation are all at 
100% staffing. Staffing of other agencies varies. Given the security 
situation, some organizations are not at full strength because they 
would be unable to carry out their programs.

    Question 39. What is your current estimate of Embassy staffing 
size?

    Answer. The current Embassy staffing consists of 1,025 U.S. and 580 
locally engaged staff positions approved through the NSDD-38 process. 
Projecting the Embassy size for purposes of a New Embassy Compound is 
in process. We are engaged with other agencies and the Embassy and 
expect to have a projection soon.

    Question 40. How are plans progressing on building the embassy?

    Answer. A 104 acre site has been selected for the new embassy 
compound (NEC) in Baghdad, and an agreement to acquire the site is 
awaiting signature. A boundary, topographic, and utility survey of the 
site is in preparation and will be completed this month. A preliminary 
concept development plan for this site has been prepared. The plan will 
be refined once the proposed staffing for the NEC is determined. Also, 
at that time an updated cost estimate will be developed for the 
project. The objective is to complete the NEC within 24 months after 
receiving funds. Multiple prime contractors and standard building 
designs will be used to meet this aggressive schedule.

                                 ______
                                 

Responses of Ronald L. Schlicher to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

                        security force training
    Question 1. The January 13, 2004 Department of Defense Iraq Status 
report lists 203,400 Iraqi security personnel ``currently operating'' 
with an additional 7,100 ``currently in training.'' Yet on September 
10, 2004, Secretary Rumsfeld said that we had 95,000 fully-trained and 
fully-equipped Iraqi security forces. At today's hearing, Mr. Bowab 
stated that, contrary to the current State Department Iraq Weekly 
Status report, we do not yet have 32,000 fully-trained police officers.

  <bullet> Can you explain the discrepancy between the figures provided 
        by the Administration in January and the figures presented by 
        Secretary Rumsfeld earlier this month?

    Answer. The Department of State is not in a position to address 
statistics provided by the Department of Defense. Mr. Bowab's comment 
refers to the fact that the Multi National Security Transition Command-
Iraq (MNSTC-I) Civilian Police Advisory Training Team indicates the 
security situation in Iraq permits delivery of classroom training for 
police, but not implementation of the follow-on field training 
component. In addition, the 32,000 figure represents graduates from all 
types and lengths of police training courses, not just the 8-week basic 
skills course for new police.

    Question 2. Can you provide data on the numbers of fully trained, 
fully equipped Iraqi forces and information on what that training and 
equipment consists of?3

    Answer. Under NSPD-36, the Department of Defense in the person of 
the Commander, USCENTCOM, has the responsibility to, ``. . . direct all 
United States Government efforts and coordinate international efforts 
in support of organizing, equipping, and training all Iraqi security 
forces.'' That responsibility has been assigned to the Multi-National 
Security Transition Command-Iraq (MNSTC-I) commanded by Lt. Gen. David 
Petraeus. MNSTC-I, in turn, has delegated the task of military security 
force development to the Coalition Military Advisory Training Team 
(CMATT) and the civilian law enforcement development to the Civilian 
Police Advisory Training Team (CPATT).
    The U.S. Department of State has played no role in military 
training or development and, therefore, is unable to provide a response 
to the portion of the question pertaining to military security forces.
    Similarly, the State Department has not equipped any of the Iraqi 
security forces and cannot comment on this subject.
    The State Department's Bureau for International Narcotics and Law 
Enforcement Affairs (INL) has supported and continues to actively 
support, CPATT in the training of the Iraq Police Service and is able 
to respond to the question concerning Police training.
    Police training, as approved by Ambassador L. Paul Bremer in 
September 2003, consists of two principal alternatives; a three-week 
orientation course for existing police personnel known as the 
Transition Integration Program (TIP), and an eight-week Basic Police 
Skills training course for new police recruits taught at one of several 
police academies. Both of these courses were to be followed by a period 
of field training and evaluation.
    The TIP curriculum and lesson plans were developed by personnel 
supplied by the U.S. Justice Department's International Criminal 
Investigative Training Assistance Program (ICITAP) and were intended to 
provide an introduction to policing in a free society and to human 
rights principles and standards. TIP was delivered initially by U.S. 
Army instructors. The TIP course was eventually taken over by an Iraq 
training cadre and is being phased out as the pool of Iraqi personnel 
with prior police experience is exhausted.
    In its most recent weekly report, CPATT reports that a total of 
23,142 Iraq police have participated in the TIP training through June 
25, 2004, the last date upon which the U.S. Army reported these 
statistics to CPATT. TIP covers the following subjects:

          Course Introduction and Administration

          New Iraqi Police Mission, Philosophy and Role

          Democratic Policing Principles

          Policing in a Democratic Society

          What are Human Rights?

          Non-discrimination, a Basic Element of Human Rights

          Principles of Non-discrimination; Women in Society

          International Law Basics

          Basic Source of International Law

          Right to Life

          Prohibition against Torture

          Liberty and Security of Persons

          Pre-Trial Police Behavior; Potential Violations Of H/R

          Domestic Violence

          Rights of Children and Juveniles

          Freedom of Thought, Conscience and Religion

          Freedom of Assembly and Association

          Freedom of Movement

          Police Ethics and Values I

          Standards for Code of Conduct

          Evolution of Democratic Policing

          Community Policing

          International Standards for Police Use of Force

          Officer Survival

          Interviewing Witnesses and Taking Statements

          Report Writing

          Note-taking

          Communications

          Handcuffing

          Searching Suspects

          Patrol Procedures I

          Patrol Procedures II

          Iraqi Criminal Law, Procedures, Searches and Laws of Arrest

          Firearms--9mm and AK 47


    The eight-week Basic Police Skills training course is currently 
taught at the Jordan International Police Training Center (JIPTC), the 
Baghdad Public Service Training Academy (BPSA) and the Al-Kut, 
Sulaymaniyah, Ar Ramadi and Basrah. All institutions use the same 
curriculum which consists of four weeks of classroom instruction 
followed by four weeks of practical exercises, vehicle operation and 
firearms training. Through October 5, 2004, CPATT reports that a total 
of 8,818 Iraqi police cadets have graduated from the Basic Police 
Skills training course. The training consists of the courses listed 
below:

          Introduction; Iraqi Police Basic Academy Program

          New Iraqi Police Service, Mission, Values and Role

          Organization and Structure of the Iraqi Police Service

          Police Ethics

          Human Rights and the Police Service (Part 1)

            Diversity Awareness

            Policing Hate-Motivated Crimes

            Gender Equality and Women in Law Enforcement

          Human Rights and the Police Service (Part 2);

            The Systematic Approach to Policing Incidents

            Use of Force, Standards for the Iraqi Police Service

          Human Rights and the Police Service (Part 3); Prohibition 
        Against Torture and Mistreatment of Persons by the Police

          Communication Skills

          Note-taking

          Trafficking of Persons

          Stress Management

          Terrorist Tactics and the Police Response (Part 1)

          Terrorist Tactics and the Police Response (Part 2); The 
        Police Response to Bomb Threats

          Terrorist Tactics and the Police Response (Part 3); The 
        Police Response to Suspect Devices

          Terrorist Tactics and the Police Response (Part 4); The 
        Police Response at the Scene of a Terrorist Explosion, and 
        Chemical, Biological, Radiological, and Nuclear Incidents

          Iraqi Traffic Law

          Traffic Accident Scene Management

          Drugs Awareness

          The National Disciplinary Code for the Iraqi Police Service


    In addition, INL has entered into interagency agreements with 
federal law enforcement agencies to provide specialized and advanced 
training in the following subjects:

          Management Development

          Internal Controls

          Basic Criminal Investigations

          Counter-Terrorism

          Post Blast Investigations

          Forensic Evidence Collection and Analysis

          Intelligence and Drug Investigations

          Kidnaping Investigations

          Witness Protection

    Question 3. How many new police recruits have completed the 24-week 
field training program? If there are none, when do you expect the first 
group of graduates from the field training program?

    Answer. The Field Training Officer (FTO) Program portion of Iraq 
police training was intended to be delivered by International Police 
Liaison Officers (IPLOs). Due to the security hazards currently being 
experienced in Iraq, and the associated difficulty in performing the 
on-the-job training, mentoring and evaluation activities resulting from 
those hazards, no formal field training program has yet been 
undertaken. Although the Iraq Police Field Training Program has not yet 
commenced, CPATT has informed INL that when it begins, the Program will 
consume 18 weeks rather than the originally planned 24-week period of 
time. CPATT has also informed us that a modified version of post-
academy training is being pursued whereby IPLOs assemble academy 
graduates in a secure setting and provide follow-on instruction in 
police practical and applied skills. No statistics are presently 
available regarding the numbers of trainees who have completed this 
instruction.

    Question 4. Can you please provide a schedule for the completion of 
the field training program?

    Answer. The uncertainties presented by the security situation in 
Iraq have precluded the implementation of a formal police FTO program. 
CPATT indicates that a formal FTO program will begin as soon as the 
security situation permits IPLOs to engage in the activities associated 
with that Program.

    Question 5. How many field trainers are deployed?

    Answer. Five hundred (500) American IPLOs have been deployed to 
Iraq and are assisting with various aspects of Iraq Police Service 
development (recruiting, testing, selection, records generation, 
communications, etc.) pending the time when the security situation will 
allow them to begin the formal police FTO program.

    Question 6. Are any other countries participating in the field-
training of Iraqi police? What efforts are being made to recruit 
others?

    Answer. International response to Department of State requests for 
contributions to support efforts to re-establish police, justice and 
prison functions in Iraq following the May 1, 2003 end of major combat 
operations has been very weak. While Canada, Norway and the UK 
contributed to the U.S.-led on-the-ground assessment in May-June 2003, 
strong international participation in training Iraqi police has been 
limited to the Jordan International Police Training Center (JIPTC). 
Unofficial/informal inquiries indicate that until the security 
environment dramatically improves, international police participation 
in classroom or field training in Iraq will be very limited.

    Question 7. Please describe the training program for each of the 
security services--how long is it, what does it consist of?

    Answer. Other than that described above for the Iraq Police 
Service, the State Department has no detailed knowledge with respect to 
the training program for the other security services.

    Question 8. As of September 1, 2004, just over $1bn of the $18.4bn 
in Iraqi reconstruction funds provided in P.L. 108-106 had been 
expended.

          By what date do you expect the entire $18.4 billion to be 
        expended?

    Answer. As of September 15, $1.189 billion of the Iraq Relief and 
Reconstruction Fund (IRRF) had been disbursed--more than triple the 
amount disbursed 12 weeks ago when the United States transferred 
sovereignty to the Iraqi Interim Government. Disbursement rates should 
continue to accelerate as many of the large infrastructure projects 
move from the planning and design phase to the construction phase. 
Security has a significant impact on the progress of reconstruction 
efforts, and an improved security situation will allow for us to 
disburse funds more expeditiously. It is important to note that 
disbursement of reconstruction funds is contingent upon construction 
progress, and many of these projects will require several years to 
complete.
    The IRRF reprogramming, by placing some emphasis on quick-impact, 
high-employment projects, should also accelerate the rate of 
disbursement of IRRF funds.

    Question 9. In reprogramming $3.5 billion in funds, what lessons 
have been learned from the past year that will allow for faster 
disbursal in the future?

    Answer. A primary consideration in our review remains security, a 
key to all reconstruction efforts as well as to consolidating political 
objectives. Violence, and the threat of violence, has slowed down the 
rate of progress on reconstruction. We have therefore proposed to 
increase the number of Iraqi security and law enforcement personnel, 
realizing that an improved security situation will allow for faster 
disbursal of reconstruction funds. Experiences over the past year have 
also led us to concentrate our efforts on hiring more Iraqi firms (vice 
international firms), and to focus on high-impact, labor-intensive 
local community development projects in order to put more Iraqis to 
work rebuilding their country.

    Question 10. By what process were Iraqi priorities considered in 
developing the reprogramming?

    Answer. Ambassador Negroponte and his entire Country Team consulted 
extensively with the Iraqi Interim Government during the review of IRRF 
priorities. The Iraqi Interim Government fully understands these 
priorities.

    Question 11. Were there any changes the Iraqis specifically 
requested or vetoed?

    Answer. Although the Iraqi Interim Government understands our 
reprioritization of IRRF funds, the IIG is understandably concerned 
about the potential impact of delaying projects in certain sectors to 
compensate for costs of increasing security and accelerating employment 
opportunities. We hope that these projects will eventually be funded, 
either by the Iraqi Government's own budget or through contributions 
from other international donors. As part of our ongoing discussions 
with donors, we have encouraged other countries to consider projects in 
the water, sanitation and power sectors that have been affected by the 
IRRF review.

    Question 12. How does the administration plan on ensuring that U.S. 
foreign assistance to Iraq is spent in a fair and equitable manner 
throughout the country?

    Answer. The administration has created the Iraq Reconstruction 
Management Office (IRMO), which has its principal operations in the 
U.S. Embassy in Baghdad. IRMO, working with Washington agencies, 
provides coordinated, daily oversight of assistance goals and the 
implementation necessary to achieve those goals. One of IRMO's primary 
tasks is to work together with the IIG to evaluate program 
recommendations and ensure that U.S. assistance is regionally balanced.

    Question 13. Mr. Schlicher states in his testimony that the 
reprogramming request will mean that fewer Iraqis will have essential 
services by 2007 than we had originally intended. Please provide a 
detailed sector-by-sector breakdown with projections showing the 
effects of the reprogramming.

    Answer. Proposed $1.9 billion cut in water sector results in 
longer-term (2005-2007) shortfalls:

  <bullet> Currently, about 1.5 million Iraqis have access to sewage 
        treatment. With the proposed cut, this number will increase by 
        13 million; vice 5 million with full funding.

  <bullet> Currently, few Iraqis have access to potable water. With the 
        proposed cut, 7.5 million Iraqis will gain access to potable 
        water, vice 15 million with full funding.

  <bullet> Currently, there are 4.5 million hectares of irrigated 
        agriculture land. With the proposed cut, this will grow by 
        440,000 hectares vice 900,000 with full funding.

  <bullet> With the cut, 18,000 Iraqis would be employed at peak 
        employment periods in the water sector, vice 36,000 with full 
        funding.

    The IRRF reprogramming, however, is expected to generate overall 
number of jobs created by U.S.-administered projects could total as 
many as 800,000 over the next two years.
    Proposed $1.1 billion cut in electric sector results in:

  <bullet> Currently, electricity generation capacity averages 4960MW. 
        With the proposed cut, this will increase by 2,200MW, vice a 
        3,400MW increase with full funding.

  <bullet> With the cut, 12,000+ Iraqis will be employed at peak, vice 
        16,000+ with full funding.

    Question 14. In his testimony before the Senate Foreign Relations 
Committee on September 24, 2003, Ambassador Bremer told us that he 
hoped oil production would be at 3 million barrels per day by October 
2004 and that, by 2005, this would provide for a $5 billion surplus for 
Iraq to help fund its own reconstruction.

          What is Iraqi oil production today?

    Answer. On 15 September, the monthly average of crude oil 
production is 2.47 million barrels per day (MBPD).

    Question 15. In his testimony before the Senate Foreign Relations 
Committee on September 24, 2003, Ambassador Bremer told us that he 
hoped oil production would be at 3 million barrels per day by October 
2004 and that, by 2005, this would provide for a $5 billion surplus for 
Iraq to help fund its own reconstruction.

          When do we expect it to reach 3 million barrels per day?

    Answer. The end of year goal is to produce between 2.8 to 3.0 
million barrels per day (MBPD). This range was the pre-war production 
capacity of Iraq's oil infrastructure. The reallocation of $450 million 
in the Iraq Relief and Reconstruction Funds (IRRF) will be used to 
complete oil projects, which will help in attaining the year-end goal. 
Reaching the 3.0 MBPD, the high end of the spectrum, will require a 
security environment that allows the $450 million in oil infrastructure 
projects to be implemented.

    Question 16. In his testimony before the Senate Foreign Relations 
Committee on September 24, 2003, Ambassador Bremer told us that he 
hoped oil production would be at 3 million barrels per day by October 
2004 and that, by 2005, this would provide for a $5 billion surplus for 
Iraq to help fund its own reconstruction.

          What do you expect Iraqi oil, revenues to be this year and 
        next year?

    Answer. As of September 15, Iraq has earned $11.78 billion as a 
result of oil sales. If prices, production, and exports remain at 
current levels, then 2004 revenue will be approximately $16 billion. In 
2005, Iraqi oil revenue should be between $16-$19 billion in 2005. This 
range is based on the IIG's budgetary assumption that the oil price 
will be $26/barrel and export levels remain between 1.8 to 2.0 MBPD. 
The $26/barrel assumption is a conservative projection to ensure a 
working budget.

    Question 17. In his testimony before the Senate Foreign Relations 
Committee on September 24, 2003, Ambassador Bremer told us that he 
hoped oil production would be at 3 million barrels per day by October 
2004 and that, by 2005, this would provide for a $5 billion surplus for 
Iraq to help fund its own reconstruction.

          What will be Iraq's expenditures this year and next year?

    Answer. Total expenditures in the revised budget for 2004 are $22.4 
billion. The IIG is in the process of preparing its budget for 2005 and 
should submit the budget for approval by the National Assembly by mid-
October. We expect that 2005 recurrent expenditures will be funded 
exclusively by Iraqi revenue and will decrease from 2004 levels. 
Capital and reconstruction expenditures should be largely covered by 
donor assistance, although we expect some capital expenditures to be 
financed by Iraqi revenue.

    Question 18. According to State Department reports, the January 
2005 parliamentary elections will require 8,000 polling stations, 300 
regional offices, 150,000 staff, and 25,000 election monitors. 15 
million Iraqis and approximately 100 political parties will need to be 
registered. We have heard that the United Nations is only devoting 10 
of its 35 employees in Iraq to the elections, though last spring it 
recommended having 45 staff work on elections. Can you update us on the 
progress in this area?

    Answer. The UN has established a ceiling of 35 international 
personnel allowed in Iraq countrywide. There are now approximately 30 
international UN personnel in Iraq, including administrative, 
electoral, security, humanitarian, and support staff for Special 
Representative of the Secretary General Qazi. There are currently three 
substantive electoral experts in Iraq. The UN is working to recruit 
individuals to fill five additional positions by the end of the month.
    We have urged the UN to increase the size of its team and speed up 
deployment in order to assist the Independent Electoral Commission of 
Iraq (IECI) in conducting elections, as well as to fulfill other vital 
UN missions in Iraq. Meanwhile, we have allocated $40 million from 
USAID to IFES (formerly called the International Federation for 
Election Systems), an NGO specializing in electoral assistance, to 
assist the IECI and the UN in the logistical preparations for the 
elections. IFES currently has three employees on the ground in Iraq. 
The IECI is now compiling a preliminary voting roll and drafting plans 
and procedures for the elections, including the number and location of 
polling places and requirements for poll workers and election monitors.

    Question 19. How many polling stations have been identified?

    Answer. The IECI will identify an appropriate number of polling 
stations upon the completion of the voter registration process in mid-
December.

  <bullet> Voter registration will begin on November 1 and run through 
        mid-December. The registration database is being built on the 
        Public Distribution System (PDS) database, used by the oil-for-
        food program, which is the most complete register of the Iraqi 
        adults that exists. These data have already been reviewed, and 
        those ineligible to vote (children and foreigners) were removed 
        from the list. The database now contains approximately 13.9 
        million potential voters, and more will be added during the 
        registration process.

  <bullet> Iraqis will have six weeks to verify the information on 
        their registration forms, which they will receive when they 
        pick up their rations at their local food ration center in 
        November. If necessary, registered voters may correct any 
        errors and return the forms to those centers when they pick up 
        their rations in December.

  <bullet> Individuals who do not appear in the food distribution 
        system, e.g. those who returned from overseas, may also 
        register at the food ration centers.

  <bullet> The IECI will then post the voter lists in January prior to 
        the elections at food ration centers. This will allow Iraqis 
        another opportunity to challenge and remedy any mistakes.

    Question 20. The U.N. has said previously that 25,000 to 30,000 
polling stations will be necessary with 600 polling centers--can you 
clarify the discrepancy between State's figures and the UN figures?

    Answer. The thinking of the IECI and the UN on the needed number of 
polling stations continues to evolve. We understand their latest 
estimate is approximately 40,000 polling stations, 9000 polling 
centers, and 550 registration centers will be needed. Further work by 
the IECI may revise this number yet again. We understand that the 
number of polling stations will be determined based on the number of 
voters, their geographical location, and the security situation.

    Question 21. How many staff have been hired and trained?

    Answer.

  <bullet> The Board of Commissioners of the IECI consists of nine 
        members, including seven voting members, and two non-voting 
        members. The two non-voting members are the Chief Electoral 
        Officer, and an international commissioner appointed by the 
        United Nations. The Board heads the Election Commission. The 
        Commissioners attended a three-week training course in Mexico, 
        arranged by the United Nations.

  <bullet> The responsibilities, of the Board of the IECI focus on 
        policy-making, regulating, and overseeing the electoral 
        process. Its administration is headed by the Chief Electoral 
        Officer. The Board hired 32 senior staff and administrators in 
        September. Senior staff members received training in Jordan, 
        and returned to Baghdad in mid-September.

  <bullet> IECI has already selected and appointed the IECI's senior 
        provincial office directors (22 in total to represent each of 
        the 18 provinces, and 4 additional directors for Baghdad). The 
        directors are receiving training in Amman, Jordan.

  <bullet> The IECI plans to continue to hire their staff for both 
        Baghdad and the provinces. The IECI will employ cascading 
        training approach, with an initial focus on ``training-the-
        trainers'' of future IECI employees.

    Question 22. What is the plan to register voters?

    Answer.

  <bullet> Voter registration will begin on November 1 and run through 
        mid-December. The registration database is being built on the 
        Public Distribution System (PDS) database, used by the oil-for-
        food program, which is the most complete register of the Iraqi 
        adults that exists. These data have already been reviewed, and 
        those ineligible to vote (children and foreigners) were removed 
        from the list. The database now contains approximately 13.9 
        million potential voters, and more will be added during the 
        registration process.

  <bullet> Iraqis will have six weeks to verify the information on 
        their registration forms, which they will receive when they 
        pick up their rations at their local food ration center in 
        November. If necessary, registered voters may correct any 
        errors and return the forms to those centers when they pick up 
        their rations in December.

  <bullet> Individuals who do not appear in the food distribution 
        system, e.g. those who returned from overseas, may also 
        register at the food ration centers.

  <bullet> The IECI will then post the voter lists in January prior to 
        the elections at food ration centers. This will, allow Iraqis 
        another opportunity to challenge and remedy any mistakes.

    Question 23. A poll conducted in August by the International 
Republican Institute shows that while the Iraqi people are cautiously 
optimistic about the prospects for democracy in their country, they 
have very little understanding of the political transition. For 
example, 64% cannot identify in which month elections are scheduled to 
take place and 75% incorrectly believe that the January election will 
include a presidential vote.

          What is being done to educate voters about the process?

    Answer. The Independent Electoral Commission of Iraq (IECI) is 
working closely with United Nations experts on the ground put the voter 
registration system in place, design a public information campaign, and 
complete election rules and procedures. The UN and IECI understand that 
the effective educating of the voting public in Iraq is essential to 
ensuring that the elections are legitimate and credible. A major 
British-funded program of television ads is now underway.
    Additionally, the USG is awarding program funds and grants to 
organizations, such as the National Endowment for Democracy, the 
International Foundation for Elections Systems (IFES), the National 
Democratic Institute (NDI) and the International Republican Institute 
(IRI) to provide a range of activities to support the electoral 
process. This support includes voter education and assistance to Iraqi 
organizations working to alert Iraqi citizens to and educate them about 
the electoral process.

    Question 24. How do you expect a typical voter will get information 
about the political process as the election draws nearer?

    Answer. The Independent Electoral Commission for Iraq (IECI) is 
planning to launch a ``democracy advertising campaign'' soon. The 
campaign will introduce the IECI to the Iraqi population, provide basic 
election information, and encourage public participation in the 
electoral process. To ensure the broadest-possible reach, the campaign 
includes TV, radio, and newspaper spots. Educational posters will also 
be included in a dozen Iraqi newspapers over a four-week period, and 
there are plans for television ads on seven Iraqi and three pan-Arab 
networks. Follow-on plans include three additional advertising waves to 
carry through the January 2005 election date. USAID has awarded a 
contract for voter education to an international NGO, which work with 
Iraqi groups and networks and multiple media outlets to educate voters 
about the electoral process. The USG has also provided $12.5 million in 
funding to many local Iraqi civic groups, principally through the 
National Endowment for Democracy, to promote civil society development 
that includes grass-roots election awareness and education among Iraqi 
voters. USAID also has provided approximately $8 million for voter 
education programs.

                            DEBT FORGIVENESS

    Question 25. What are other members of the Paris Club doing with 
respect to forgiving debt owed to them by Iraq?

    Answer. As noted above, discussions among Paris Club creditors on a 
multilateral agreement to reduce Iraq's debt are ongoing. They aim to 
reach agreement by end-2004. Several creditors have committed to reduce 
the vast majority of Iraq's debt, while others have committed to 
substantial debt reduction. The exact terms of the debt reduction are 
subject to ongoing discussions among creditors and negotiations with 
the Iraqis.

    Question 26. What have been the results of the bilateral meetings 
between the United States and Iraq and other creditor countries and 
Iraq?

    Answer. U.S. officials have kept in regular contact with Iraqi 
officials responsible for the debt negotiations. The Iraqis have 
explained Iraq's current economic situation, and we have advised the 
Iraqis on Paris Club procedures and provided detailed information on 
USG claims. Iraq's contacts with other creditors have focused on the 
need for deep debt reduction and bilateral reconciliation of claims. 
The final results of these meetings will not be known until a 
multilateral debt agreement is finalized. We are confident that all 
these contacts are facilitating a generous outcome for Iraq.

    Question 27. With another donors' conference in Japan in October, 
might this move, not encourage other countries to similarly use 
reconstruction pledges to write off Iraqi debt?

    Answer. Different creditor countries have different statutory 
requirements for the budgeting of debt forgiveness. Since a debt 
agreement has not yet been finalized, it is not possible to know how 
other donors will appropriate funds and/or meet any specific 
requirements. We are not aware of plans by any creditor to reduce 
planned aid commitments to meet budgetary requirements with respect to 
debt forgiveness.

    Question 28. To what degree has Special Envoy Baker undertaken 
official activity to press for debt relief in the last three months?

    Answer. Since the G-8 commitment to debt reduction in 2004 
``sufficient to ensure sustainability for Iraq'' and the beginning of 
discussions on Iraqi debt in the Paris Club, the focus of our efforts 
has shifted from high-level meetings to technical negotiations. We 
periodically discuss progress on this front with Secretary Baker.

    Questions 29, 30, and 31. The Transitional Administration Law was 
not specifically endorsed in Security Council Resolution 1546. Is it 
the legal opinion of the State Department that the TAL expired when 
sovereignty was formally transferred to the Iraqi Interim Government? 
Please explain the Department's legal reasoning.

  <bullet> What is the legal status of orders issued by the Coalition 
        Provisional Authority?

  <bullet> What sources of law are there in Iraq today?

  <bullet> What authority do the Interim Government and Interim 
        National Council have to issue new laws?

    Answers. There is broad recognition within Iraq and throughout the 
international community that Iraqis must continue a process of 
political transformation to permanently remove the vestiges of Saddam 
Hussein's decades of repression and tyranny. In this regard, United 
Nations Security Council Resolution 1511, adopted October 16, 2003, 
invited the Iraqi Governing Council to provide the Security Council 
with a timetable and program for the drafting of a new constitution for 
Iraq and for the holding of democratic elections under that 
constitution. The Iraqi Governing Council developed a timetable and 
program that were incorporated in the November 15th Agreement, signed 
by the President of the Governing Council on its behalf and the 
Coalition Provisional Authority. The Agreement laid out a timetable for 
the restoration of full governing authority to the Iraqi people no 
later than June 30, 2004. In addition, the Agreement called for the 
adoption of a transitional law to govern Iraqi affairs until such time 
as a permanent constitution could be drafted by elected representatives 
of the Iraqi people and ratified.
    The Law for the Administration for the State of Iraq for the 
Transitional Period (TAL), which was issued by the Iraqi Governing 
Council on March 8th, and the TAL Annex, which was adopted on June 1st 
following extensive discussions with the Iraqi people facilitated by 
the U.N. Secretary General's Special Adviser, Ambassador Lakhdar 
alBrahimi, are designed to create the institutional and procedural 
framework for this political transition.
    The extensive consultations with the Iraqi people, led by 
Ambassador Brahimi, pursued in connection with the establishment of the 
Interim Government were designed to develop an approach to Iraq's 
political transition that is acceptable to, and will be implemented by, 
all segments of Iraqi society. United Nations Security Council 
Resolution (UNSCR) 1546, adopted on June 8th endorsed the formation of 
a sovereign Iraqi Interim Government, as presented on June 1st, and 
further endorsed the timetable for Iraq's political transition to 
democratic government contained in the TAL and its Annex.
    We have every expectation that the framework for Iraq's political 
transition reflected in the TAL and its Annex will continue to be fully 
implemented by the Iraqi people. The interim and transitional 
institutions that are created and will assume authority after June 30 
find their basis in the TAL and its Annex and have been specifically 
endorsed in UNSCR 1546. The political transition process reflected in 
the TAL is the product of extensive coordination within Iraq and was 
facilitated by the international community. Both the Iraqis and the 
international community are actively working towards achieving the 
TAL's goal of democratic elections by no later than January 31, 2005.
    The TAL clearly addresses both the status of CPA orders and the 
body of law that will be generally applicable following the June 28 
transition. Article 26 of the TAL provides that ``[e]xcept as otherwise 
provided in this Law, the laws in force in Iraq on 30 June 2004 shall 
remain in effect unless and until rescinded or amended by the Iraqi 
Transitional Government in accordance with this law. Article 26 further 
provides that ``[t]he laws, regulations, orders, and directives issued 
by the Coalition Provisional Authority pursuant to its authority under 
international law shall remain in force until rescinded or amended by 
legislation duly enacted and having the force of law.'' Finally, with 
respect to the authority of the Iraqi Interim Government to issue new 
laws, the TAL Annex provides that ``[t]he Council of Ministers, with 
the unanimous approval of the Presidency, may issue orders with the 
force of law that will remain in effect until rescinded or amended by 
future Iraqi governments.'' The Interim National Council may veto 
executive orders by a two-thirds majority vote of its members within 10 
days of being informed of such orders that have been approved by the 
Presidency Council.

    Question 32. On September 15, UNSYG Kofi Annan told the BBC ``You 
cannot have credible elections if the security conditions continue as 
they are now.'' In fact, it appears that the security situation is 
getting worse with many parts of the Sunni triangle now described as 
``no-go'' areas.

          Do you agree with Annan's assessment?

    Answer. The current security situation in Iraq is undoubtedly 
difficult, but it is premature to judge now that elections cannot be 
held on schedule. Prime Minister Allawi and other Iraqi Interim 
Government (IIG) officials have been clear that they are committed to 
holding them by January 31, 2005 deadline laid out in the Transitional 
Administrative Law (TAL) The USG and the Multi-National Forces-Iraq are 
working with the IECI, the UN, and the IIG to ensure this goal is 
achieved. We are engaged in diplomatic, military, and reconstruction 
efforts to help the IIG reassert its control over all areas of the 
country; these efforts will intensify as we approach elections.

    Question 33. Does the administration have a plan to establish 
control in the no-go areas before elections? Please describe.

    Answer. The United States Government remains committed to assisting 
the Iraqi people and Government to improve security throughout Iraq. 
Establishing a stable Iraq, consolidating the legitimate authorities' 
control in all locales, and working to provide safe and secure 
elections are high priorities of the Multi-National Force-Iraq and the 
Iraqi security forces. These goals also underscore the reasoning behind 
the recent U.S. proposal for an increase in spending on security. In 
order to meet the timeline of the political process described in the 
Transitional Administrative Law and UN Security Council Resolution 
1546, the Iraqi Interim Government (IIG) and Iraqi security forces are 
working continually to secure Iraq before elections take place, and 
making plans to deal with security during the election period both 
through enforcement measures and political outreach. The Multi-National 
Forces-Iraq and the U.S. Mission in Iraq will fully support the IIG's 
efforts.
    However, as you well know, the security situation in Iraq is in a 
state of constant flux. In addition to the activities of the Department 
of State, the Department of Defense is also heavily involved with Iraqi 
security forces and officials in the pre-election security-planning 
phase. For a more comprehensive view, I would respectfully recommend 
that you also confer with the Department of Defense for their views on 
election-related security planning.

    Question 34. Southern Federal Region: Recent press reports speak of 
preliminary efforts to establish a Federal entity in southern Iraq. 
Please provide further information on the status of such efforts. What 
is the position of the administration on the creation of a new Federal 
entity in the South?

    Answer. The issues of how Iraqis will choose to govern themselves 
over the long term will be decided through the constitutional process. 
The Transitional Administrative Law (TAL) is designed to govern until a 
permanent constitution is drafted by the elected representatives of the 
Iraqi people and ratified by means of a referendum. The TAL supports 
the general principle that devolving power from the Iraqi central 
government through a federal system will serve as a check against abuse 
of power and best accommodate the diversity of the Iraqi people. The 
TAL provides for the separation of powers among the federal and 
regional governments, governorates, municipalities, and local 
administrators and that the federal system should be based upon 
geographic and historic realities and not origin, race, or ethnicity. 
Article 53 C of the TAL allows (with the exception of Baghdad and 
Kirkuk) that any group of no more than three governorates outside the 
Kurdistan region has the right to form regional governments. The 
formation of such federal entities may be proposed by the Iraqi Interim 
Government (IIG) and will be considered by the elected National 
Assembly. In addition to the approval of the elected National Assembly, 
any legislation proposing the formation of federal entities must be 
approved in a referendum of the people of the relevant governorates.
    The United States Government supports the IIG and the political 
process outlined in UNSCR 1546, culminating in the election of a 
democratic Iraqi government under a new constitution.

    Question 35. What are the goals of the Tokyo donors' conference?

          Are we seeking additional commitments to Iraq? If so, why or 
        why not?

    Answer. The third meeting of the Donors' Committee of the 
International Reconstruction Fund Facility for Iraq (IRFFI)--the UN and 
World Bank trust funds--will be held in Tokyo on October 13-14, 2004 at 
the invitation of Japan as host and as chair of the Facility's Donors' 
Committee. These IRFFI Donors' Committee meetings have not been 
pledging conferences; rather they have focused on disbursement, 
implementation, and coordination issues. Of course, any announcements 
of new assistance would be welcome; but that is not the focus of this 
meeting.
    Our key objectives for the meeting are to provide the new sovereign 
Iraqi Interim Government the opportunity to articulate Iraq's 
reconstruction priorities, and to review the progress to date on 
disbursements and project implementation by donors and by the the 
United Nations and World Bank trust funds that comprise the IRFFI.

    Question 36. How much of the pledged amounts from the Madrid 
conference have been delivered?

          How much of the pledged amounts have been spent?

    Answer. Of the $13.5 billion pledged at Madrid over four years, the 
World Bank and IMF pledged over $5.5 billion in lending and other donor 
governments pledged $8 billion. The World Bank and IMF are now in 
discussions with the IIG on their interest in accessing their lending 
programs. Of the $8 billion pledged by other donors over 2004-2007, our 
estimates are that over $1.3 billion has been disbursed so far.

                                 <all>

</pre></body></html>
